<html>
<title> - CLEMENCY FOR THE FALN: A FLAWED DECISION?</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



               CLEMENCY FOR THE FALN: A FLAWED DECISION?

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 21, 1999

                               __________

                           Serial No. 106-44

                               __________

       Printed for the use of the Committee on Government Reform


     Available via the World Wide Web: http://www.house.gov/reform

                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
60-935                     WASHINGTON : 2000


                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
HELEN CHENOWETH, Idaho                   (Independent)
DAVID VITTER, Louisiana


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
           David A. Kass, Deputy Counsel and Parliamentarian
                      Carla J. Martin, Chief Clerk
                 Phil Schiliro, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 21, 1999...............................     1
Statement of:
    Barnes, Harry, director, Conflict Resolution Program at the 
      Carter Center; and Reverend Dr. Thomas Dipko, executive 
      vice president, United Church Board for Homeland 
      Ministries, United Church of Christ........................   138
    Cooksey, Michael B., Assistant Director for Correctional 
      Programs, Bureau of Prisons; Jon Jennings, Acting Assistant 
      Attorney General for Legislative Affairs, Department of 
      Justice; and Neil Gallagher, Assistant Director for 
      National Security, Federal Bureau of Investigation.........    86
    Ettenson, Diana Berger; Thomas Connor; Detective Richard 
      Pastorella, retired, New York City Police Department; and 
      Detective Anthony Senft, retired, New York City Police 
      Department.................................................    41
    Fossella, Hon. Vito, a Representative in Congress from the 
      State of New York..........................................    31
    Romero-Barcelo, Hon. Carlos A., a Representative in Congress 
      from Puerto Rico...........................................    23
Letters, statements, etc., submitted for the record by:
    Barnes, Harry, director, Conflict Resolution Program at the 
      Carter Center:
        Letter dated October 15, 1999............................   153
        Prepared statement of....................................   140
    Biggert, Hon. Judy, a Representative in Congress from the 
      State of Illinois, prepared statement of...................    21
    Burton, Hon. Dan, a Representative in Congress from the State 
      of Indiana, information against clemency...................   131
    Connor, Thomas, prepared statement of........................    48
    Cooksey, Michael B., Assistant Director for Correctional 
      Programs, Bureau of Prisons, prepared statement of.........    88
    Dipko, Reverend Dr. Thomas, executive vice president, United 
      Church Board for Homeland Ministries, United Church of 
      Christ, prepared statement of..............................   144
    Ettenson, Diana Berger, prepared statement of................    43
    Fossella, Hon. Vito, a Representative in Congress from the 
      State of New York, prepared statement of...................    36
    Jennings, Jon, Acting Assistant Attorney General for 
      Legislative Affairs, Department of Justice:
        Information concerning a draft letter....................   127
        Information concerning a petition for clemency...........   130
        Information concerning White House requests..............   126
        Prepared statement of....................................    95
    Senft, Detective Anthony, retired, New York City Police 
      Department, prepared statement of..........................    67
    Waxman, Hon. Henry A., a Representative in Congress from the 
      State of California:
        Letter dated August 27, 1999.............................    15
        Letter dated September 21, 1999..........................     7

 
               CLEMENCY FOR THE FALN: A FLAWED DECISION?

                              ----------                              


                      TUESDAY, SEPTEMBER 21, 1999

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 1:16 p.m., in 
room 2154, Rayburn House Office Building, Hon. Dan Burton 
(chairman of the committee) presiding.
    Present: Representatives Burton, Morella, Horn, Barr, 
Miller, Hutchinson, Terry, Biggert, Ose, Vitter, Waxman, Towns, 
Mink, Norton, Cummings, Kucinich, Davis of Illinois, and 
Tierney.
    Staff present: Kevin Binger, staff director; Daniel R. 
Moll, deputy staff director; James C. Wilson, chief counsel; 
David Kass, deputy counsel and parliamentarian; Kristi 
Remington, senior counsel; Mark Corallo, director of 
communications; Kevin Long, professional staff member; Kim 
Reed, counsel; Corinne Zaccagnini, systems administrator; Robin 
Butler, office manager; Carla J. Martin, chief clerk; Lisa 
Smith-Arafune, deputy chief clerk; Nicole Petrosino, 
legislative aide; Howard Denis, staff director, Subcommittee on 
Civil Service; Russell George, staff director/chief counsel, 
Subcommittee on Civil Service; Phil Schiliro, minority staff 
director; Phil Barnett, minority chief counsel; Kenneth Ballen, 
minority chief investigative counsel; David Sadkin and Michael 
Yang, minority counsels; Ellen Rayner, minority chief clerk; 
Jean Gosa, minority staff assistant; and Andrew Su, minority 
research assistant.
    Mr. Burton. The Committee on Government Reform will come to 
order.
    Good afternoon. A quorum being present, the committee will 
start conducting our business. I ask unanimous consent that all 
Members' and witnesses' written opening statements be included 
in the record. Without objection, so ordered.
    I ask unanimous consent that all articles, exhibits and 
extraneous or tabular material referred to be included in the 
record. Without objection, so ordered.
    I also ask unanimous consent that questioning in the matter 
under consideration proceed under clause 2(j)(2) of House Rule 
XI and committee rule 14 in which the chairman and ranking 
minority member allocate time to committee counsel or Members 
as they deem appropriate for extended questioning, not to 
exceed 60 minutes divided equally between the majority and 
minority. Without objection, so ordered.
    Today we are going to focus on the President's decision to 
offer clemency to members of a Puerto Rican terrorist group, 
the FALN. Our system is based on checks and balances. The 
Congress can pass legislation, but the President can veto it. 
The President is the Commander in Chief, but only Congress can 
declare war. But there is one area where the President's power 
is absolute: the power to grant clemency.
    There is nothing the Congress can do about it. There is 
nothing the courts can do about it. Article II, Section 2 of 
the Constitution states, ``He shall have the power to grant 
reprieves and pardons for offenses against the United States 
except in cases of impeachment.''
    Can we have some order, please.
    This is an important responsibility. It is a power that the 
President has to exercise with a great deal of caution. Before 
the FALN terrorists, President Clinton had received more than 
3,000 petitions for clemency and he had only granted 3 of them. 
Then on August 11th, the President offered clemency to 16 
members of the FALN, a terrorist group seeking independence for 
Puerto Rico. Almost a month later, 14 of the 16 people accepted 
the President's offer and were released from prison.
    This whole issue has ignited a firestorm of controversy. 
The FALN was involved in 130 bombings, 5 people were killed, 84 
were injured. What we want to know is why did the President 
make this decision? What is the public benefit? Who advised him 
on this issue? Was the FBI consulted? The Bureau of Prisons? 
That is why we are holding this hearing today.
    First, we are going to examine what the FALN is. One of the 
arguments for granting clemency is that these 16 people were 
not directly involved in any acts of violence. Well, I want to 
briefly review what they were convicted of.
    Most of these people were convicted of things like 
seditious conspiracy and conspiracy to obstruct interstate 
commerce. Let's take a look at exactly what that means. Eight 
of these people were arrested together in Chicago. They were 
caught in a stolen van carrying illegal weapons. They were 
parked near the home of a wealthy businessman named Henry 
Crown. It is believed they were going to kidnap him. The only 
thing that stopped them was their arrest.
    They were convicted in Federal court. As they were 
sentenced they shouted threats to the judge. Here is what they 
said according to the court transcript: ``You are lucky we 
cannot take you right now. Our people will continue to use 
righteous violence. Revolutionary justice can be fierce, mark 
my words. We are going to fight, revolutionary justice will 
take care of you and everybody else.'' That is what they said 
to the judge. Now these are the people who were just granted 
clemency.
    Three other FALN members were planning to break one of 
their leaders out of Leavenworth Prison. They had two safe 
houses in Chicago where they had thousands of rounds of 
ammunition, blasting caps, detonating cord, dynamite and 
numerous weapons.
    They had a schematic diagram of the prison hidden under the 
floorboards in the kitchen of the house. The only thing that 
stopped them was their arrest. The FBI has a videotape of two 
of these people in one of their safe houses actually making a 
bomb. And I think we ought to show that to everyone who is in 
attendance here today. These are two of the members making a 
bomb. This is an official FBI tape.
    [Videotape.]
    Mr. Burton. Who are these people? These are the people who 
were just granted clemency. Four of the people who were granted 
clemency were arrested for their involvement in the armed 
robbery of an armored car in Connecticut. They are part of a 
splinter group called in Spanish the machete wielders. This 
group has claimed responsibility for the murder of a San Juan 
police officer, ambushing a Navy bus and killing two sailors 
and shooting a United States Army officer in Fort Buchanan in 
Puerto Rico. These are the people the President offered 
clemency to and released from prison.
    The saddest part is that the Puerto Rican people don't even 
know what these people are fighting for. I know a little bit 
about this issue. I have been a strong supporter of self-
determination for Puerto Rico. I am an original sponsor of 
legislation to give them a free and fair plebiscite to decide 
their fate. I have spoken in Puerto Rico about this issue.
    The vast, vast majority of Puerto Ricans don't want 
independence. In the last plebiscite only 2.5 percent of the 
people voted for independence, the rest voted for commonwealth 
or statehood. Congressman Romero-Barcelo of Puerto Rico is here 
today. He and I worked together on this issue. I hope he will 
tell us a little bit about the level of support for 
independence in Puerto Rico.
    So I hope we won't have a lot of talk today about how these 
people were convicted of nonviolent crimes. The only reason 
some of them did not commit murders or bombings is because they 
were arrested before they got a chance to do it. Many of the 
murders remain unsolved to this day. We do not know who 
committed them. It may have been those that the President 
pardoned.
    We need to know what was behind this decision to offer 
these people clemency. I think the American people deserve to 
know.
    Was the President aware of the extent of their crimes? Did 
the President seek the opinion of the Justice Department or the 
FBI? Did he seek advice from other law enforcement groups? What 
were the arguments for releasing these people?
    I sent a subpoena to the White House. I asked for all of 
the memos that had been prepared for the President as he made 
this decision. I sent a subpoena to the Justice Department 
asking them for all the material they sent to the White House 
on this case. Instead of complying with the subpoena, the 
President made a sweeping claim of executive privilege. No 
documents bearing on this decision can be turned over. Nobody 
who advised him can testify.
    Well, the President has a right to do that. There is no 
disputing that but I think it is very unfortunate what the 
President is basically saying is that it is his decision and as 
far as the Congress and the American people are concerned, it 
is none of their business.
    The President has taken members of a terrorist organization 
who committed very serious crimes and set them free. I think he 
has a moral obligation to explain to the American people why he 
did this. I think he has a moral obligation to explain to the 
American people why putting these people back on the streets is 
not a danger to them and their families.
    Today I watched the President speaking at the United 
Nations and two of the things that he highlighted were dealing 
with terrorism severely and also making sure that nuclear 
proliferation stopped. And I thought it was kind of interesting 
that while he was talking about how we should deal severely 
with terrorism around the world, he was offering clemency to 16 
terrorists, members of an organization that had bombed 130 
sites and killed or maimed 84 people.
    If the President made a good decision, then release the 
documents and the briefing papers and let them reflect that. If 
he made a good decision let his aides come up and testify. Mr. 
President, don't hide behind executive privilege. At the very 
least the President should go before the American people and 
give them a forceful explanation as to why these people deserve 
to be released from prison.
    Unfortunately, none of that is going to happen today. We 
are not going to hear from anyone who can explain to us why the 
President did what he did. We are going to hear from some 
people who know a little bit about the FALN terrorists.
    We are going to hear from two New York City police 
officers. They were working on the bomb squad on New Year's Eve 
in 1982. One of the FALN's bombs went off in their faces while 
they tried to diffuse it. Detective Senft and Detective 
Pastorella were permanently crippled. They will be introduced 
by Congressman Vito Fossella and I am glad he will be here in 
just a little bit. His plane was delayed because of the 
weather, but he is on his way.
    We are also going to hear from Thomas Connor of New York 
today. Mr. Connor's father was killed by an FALN bomb. It was 
set off at the historic Fraunces Tavern in New York in 1975. He 
was 11 years old the day his father died. We also have Diana 
Berger Ettenson here today. Her husband was sitting at the same 
table as Thomas Connor's father. She was 6 months pregnant the 
day that her husband died and her child never saw his father.
    I want to thank all of you for being here. I am sorry for 
the losses that you have suffered. I know a lot of time has 
passed but time doesn't heal all of these wounds. I was 
watching TV a couple of weeks ago and I saw Tim Russert 
interview one of these FALN members who was released from 
prison, Ricardo Jimenez. I think what upset me the most was 
that he tried to blame the restaurant owners for the deaths. I 
am going to read what he said to Tim Russert: ``I think all 
precautions were taken, you know, to make sure that all human 
life was preserved. The measures were not taken that were 
necessary by the people who owned the establishments.''
    He blamed the restaurant. Mr. Russert asked him again and 
again if he felt remorse for what he had done. He just danced 
around and around the issue and it became clear to me that 
these people do not regret what they did. They are defiant. In 
fact two of the people the President offered clemency refused 
to accept it. Oscar Lopez is one of them. He decided he would 
rather sit in prison than renounce violence. In 1986, he 
masterminded a violent plan to break out of prison. They were 
going to use fragmentation grenades and C-4 explosives. I want 
to read to you what he was working to get with his compatriots 
outside prison to attack the prison, bomb it, bomb the guard 
towers, have helicopters firing into the compound killing the 
guards there. He asked these people on the outside to get 
fragmentation grenades, smoke grenades, phosphorus grenades, 8 
M-16 rifles, 2 silencers, 50 pounds of plastic C-4 explosives, 
8 bulletproof vests, 10 blasting caps to use with the plastic 
explosives and 100 30-shot clips to use with automatic weapons.
    He does not sound like a fellow who is going to renounce 
terrorism, does he? He also said that if the man who was going 
to sell them this equipment would not give them a fair price, 
they should murder him. He was convicted and received a new 15-
year sentence. Did the President know about this man before he 
offered to let him out of prison? I want to read to you what 
his presentencing report said in 1986. This was by the court:

    It was Lopez who offered to obtain false identification, 
weapons and explosives. It was Lopez who sent Jaime Delgado to 
Dallas to negotiate the purchase of weapons and explosives. It 
was Lopez, moreover, who gave his approval for Cobb's return 
visit to Leavenworth and for the murder of Michael Neece. Even 
behind the bars of a Federal penitentiary, Oscar Lopez 
continued to lead his Chicago supporters in violent plans.

    He ordered a murder from behind bars. Fortunately the FBI 
prevented it from happening. He was offered clemency along with 
his compatriots.
    What was it about Oscar Lopez that moved the President to 
offer him clemency? The President had received more than 3,000 
petitions for clemency. Was Oscar Lopez the most compelling 
case out of the 3,000? The President only granted clemency to 
three people. And yet he offered it to Mr. Lopez. I don't 
understand that, especially in view of the fact that the 
President only granted 3 out of 3,000.
    I read an article in the New York Times where Mr. Ruff, 
former counsel to the President, stated that they did not make 
this decision for political reasons. But nowhere in the article 
did Mr. Ruff explain why the President did make this decision. 
If the President is going to do something this unprecedented 
there has got to be a good reason for it. I do not understand 
why the President will not level with the American people.
    We have three witnesses from the Justice Department here 
today. I don't know if they are going to say anything or not. I 
asked Mr. Gallagher from the FBI to testify about their threat 
assessment of the FALN. I also asked him to testify about the 
crimes committed by these individuals. He has had an opening 
statement prepared for over 1 week. I was informed last night 
that the Attorney General will not allow him to read his 
opening statement. He cannot read it, he could not submit it. I 
do not understand that. The President is using executive 
privilege and he will not let the FBI even tell what their 
assessment was in an opening statement. Now maybe we can get 
something when we question them.
    I have run out of words to describe my frustrations with 
the political games played by Janet Reno and this Justice 
Department. I just do not know what to say anymore, so I guess 
what I will do is issue a subpoena for the FBI opening 
statement. I cannot believe it has come to this.
    This has important foreign policy ramifications. We have a 
serious terrorism problem around the world, as well as events 
like Oklahoma City and the World Trade Center bombings. Think 
about that, the World Trade Center bombing. Think about that 
tragedy at Oklahoma City. I watched the President this morning 
making this speech at the U.N. As I said before, he said we 
have to deal severely with terrorism around the world. What 
kind of message does it send to other countries when we let 
known terrorists out of prison in our own country?
    The President has also told the U.N. that we have to do 
more to fight nuclear proliferation, and I touched on that 
earlier. It reminded me of a hearing we had here a couple of 
months ago. A policy expert from the Defense Department named 
Jonathan Fox drafted a report for the Defense Department at the 
administration's request, I understand, stating that China was 
a nuclear arms proliferator. Someone higher up the food chain 
made him change his opinion 180 degrees and they told him that 
they would fire him if he didn't do it, this national security 
assessment the week before Jiang Zemin, the President of China, 
was going to Washington. If we are going to fight nuclear 
proliferation, we better start right here at home.
    Let me conclude by saying this. Mr. President, do not leave 
us sitting here reading the tea leaves trying to figure it out. 
Send us the documents we have asked for. Let your aides come up 
and testify. If nothing else, go on TV and tell the American 
people why letting these terrorists out is to their benefit. 
But do not tell the American people this is none of their 
business.
    I want to again thank all of our witnesses for being here 
and I am sorry we had to reschedule this from last week but 
there is nothing we can do about hurricanes. For those of you 
who are allowed to speak from the various agencies, we look 
forward to it.
    I now yield to my colleague from California, Mr. Waxman.
    Mr. Waxman. Thank you very much, Mr. Chairman. I want to 
say to the victims and family members of victims that are here 
to testify that our sympathy is with you and we understand the 
ordeal that you have all gone through. This is the third 
hearing in which these victims and family members of victims 
will testify. We have already had a hearing on this issue in 
two separate Senate committees last week and now we are holding 
a hearing in this committee on the same subject. And this is 
after the House has already voted to condemn the President's 
exercise of granting clemency and the Senate has already voted 
to condemn the President's action of extending clemency. And as 
I understand looking over the House schedule for this week, we 
are going to vote on it once more.
    This is really quite extraordinary. The President has the 
unique constitutional prerogative to make this decision, and I 
could imagine it was a very difficult decision for him to make.
    I received a letter from the President, and I want to ask 
unanimous consent the letter be made part of the record.
    Mr. Burton. Without objection.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T0935.001
    
    [GRAPHIC] [TIFF OMITTED] T0935.002
    
    [GRAPHIC] [TIFF OMITTED] T0935.003
    
    [GRAPHIC] [TIFF OMITTED] T0935.004
    
    [GRAPHIC] [TIFF OMITTED] T0935.005
    
    Mr. Waxman. And I think it is only fair to read the letter 
in its entirety at this point.
    The President said:

    As you know on August 11, 1999, I offered clemency to 16 
Puerto Rican nationalists, conditioned on these individuals 
formally seeking it, renouncing violence and abiding by all 
parole requirements. This letter is in response to requests for 
information about my decision.
    For the last 6 years various Members of Congress, religious 
and civic leaders as well as others have urged me to grant 
clemency to a group of Puerto Rican prisoners, most of whom 
have been in prison between 16 and 19 years as a result of 
convictions for offenses arising out of their participation in 
organizations supporting Puerto Rican independence.
    The question of clemency for these prisoners was a very 
difficult one. I did what I believe equity and fairness 
dictated. I certainly understand, however, that other people 
could review the same facts I did and arrive at a different 
decision. In making my decision, I did not minimize the serious 
criminal conduct in which these men and women engaged. I 
recognize and appreciate that there are victims of FALN-related 
violence who feel strongly that these individuals, although not 
directly convicted of crimes involving bodily harm to anyone, 
should serve the full sentences imposed.
    Before making my decision, I sought and considered the 
views of the Department of Justice. Press reports note that 
certain Federal Bureau of Investigation and Justice Department 
officials, including the U.S. Attorneys in Chicago and 
Connecticut, were opposed to clemency. I did not dismiss those 
concerns as some have implied. Rather, I carefully weighed them 
in making this difficult decision.
    On the other hand, the prisoners were serving extremely 
lengthy sentences--in some cases, 90 years--which were out of 
proportion to their crimes. (In contrast, Jose Solis Jordan, 
who was prosecuted and convicted in July in Chicago of 
conspiring to place explosive devices at a Marine recruiting 
center received a sentence of 51 months.)
    The petitioners received worldwide support on humanitarian 
grounds from numerous quarters. President Jimmy Carter wrote in 
1997 that granting clemency to these men and women, quote, 
``would be a significant humanitarian gesture and would be 
viewed as such by much of the international community, a 
concern that was relevant in 1979 and I believe is today.'' End 
quote.
    He noted that each individual had ``spent many years in 
prison and no legitimate deterrent or correctional purpose is 
served by continuing their incarceration.''
    Finally, in explaining the close similarity between the 
current clemency petition and the clemency he granted in 1979 
to people who had committed serious crimes in the name of 
Puerto Rico's independence, he said that then, as now, quote, 
``to the extent that clemency might under other circumstances 
be viewed as evidence of leniency toward terrorists, no such 
conclusion could be drawn here in light of the length of the 
sentences served,'' end quote.
    President Carter's support was particularly noteworthy 
because he commuted to time served the sentences of the Puerto 
Rican nationalists who were convicted for their 1954 attack on 
the House of Representatives which resulted in the wounding of 
5 Congressmen. President Carter also commuted to time served 
the life sentence of Oscar Collazo, who attempted to 
assassinate President Truman, an attack that resulted in the 
death of a White House policeman.
    Bishop Tutu and Coretta Scott King all wrote to seek 
clemency for the petitioners since they had received, quote, 
``virtual life sentences'' and ``have spent over a decade in 
prison while their children have grown up without them,'' end 
quote.
    In addition, various Members of Congress, a number of 
religious organizations, labor organizations, human rights 
groups and Hispanic civic and community groups supported 
clemency. The petitioners also received widespread support 
across the political spectrum within Puerto Rico.
    We have recently provided Congress more than 14,000 pages 
of materials that the White House received in connection with 
this clemency matter, including thousands of letters seeking 
clemency for the prisoners. Many of those who supported 
unconditional clemency for the prisoners argued that they were 
political prisoners who acted out of sincere political beliefs. 
I rejected this argument. No form of violence is ever justified 
as a means of political expression in a democratic society 
based on the rule of law.
    Our society believes, however, that a punishment should fit 
the crime. Whatever the conduct of other FALN members may have 
been, these petitioners, while convicted of serious crimes, 
were not convicted of crimes involving the killing or maiming 
of any individuals. For me the question, therefore, was whether 
the prisoners' sentences were unduly severe and whether their 
continuing incarceration served any meaningful purpose. I 
considered clemency for each of them on an individual basis.
    Nine of the petitioners were convicted in the Northern 
District of Illinois of seditious conspiracy, armed robbery and 
various firearms offenses. They did not appear at trial, 
refused defense counsel, and presented no defense to the 
charges against them.
    They also did not assist the probation office in preparing 
the presentence reports. They received 20-year sentences for 
the seditious conspiracy and Hobbs Act counts, 10-year 
sentences for the weapons charges, and 5-year sentences for the 
vehicle charges. The sentences on most or all of these counts 
were imposed consecutively rather than concurrently, which 
would rarely occur today under the sentencing guidelines and 
resulted in sentences ranging from 55 to 90 years.
    These nine prisoners have served 19 years in prison. I 
commuted the sentences of eight of these prisoners to between 
23 and 26 years, thereby making them eligible for parole 
pursuant to the mandatory release standards applicable to all 
prisoners. I refused to commute the sentence of Carlos Alberto 
Torres, who had been indicted by a Federal grand jury in 1977 
on explosive charges, was identified as the leader of the 
group, and had made statements that he was involved in a 
revolution against the United States and that his actions had 
been legitimate.
    One of the petitioners, Oscar Lopez-Rivera, was charged 
with the other nine petitioners but was not arrested until May 
1981. He was convicted of the same offenses and received 
sentences totaling 55 years. He too did not present a defense 
at trial or assist the probation officer in preparing the 
presentencing report.
    In 1984 he tried to escape and was sentenced to an 
additional 15 years for that attempt, to run consecutive to his 
earlier sentence. I proposed commuting his original conviction 
to 29 years but did not commute his sentence for the attempted 
escape. He declined the commutation offer.
    Three of the petitioners were separately convicted in the 
Northern District of Illinois of seditious conspiracy, 
interstate transportation of stolen vehicles, and weapons 
offenses. At trial, they were represented by stand-by counsel 
and participated in parts of the trial, although they did not 
participate in the sentencing process. Each was sentenced to 35 
years in prison, and had served 16 years.
    I commuted their sentences to 26 years, making them 
eligible for parole.
    The final four petitioners were members of the Los 
Macheteros and were convicted in the district of Connecticut in 
connection with the 1984 robbery of a Wells Fargo office. Juan 
Enrique Segarra-Palmer received a sentence of 55 years, and 
Antonio Camacho-Negron received a sentence of 15 years, and 
Roberto Maldonado-Rivera and Norman Ramirez-Talavera received 
sentences of 5 years each. The last two have completed their 
sentences but I remitted their outstanding fines. Antonio 
Camacho-Negron was released in 1998 on parole but was later 
rearrested for parole violation. I was informed that he would 
be eligible for release at any time if he agreed to abide by 
the parole requirements. In light of his refusal to comply with 
the conditions of his first release, I refused to commute his 
sentence, although I did offer to remit his outstanding fines. 
He rejected this offer.
    Finally, I commuted the sentence of Juan Enrique Segarra-
Palmer so that he would be eligible for parole after serving 19 
years in prison, consistent with the time served by the Chicago 
petitioners.
    The timing of my decision was dictated by the fact that my 
former counsel, Charles Ruff, committed to many of those 
interested in this issue that he would consult with the 
Department of Justice and make a recommendation to me before he 
left the counsel position. Pursuant to this commitment, I 
received his recommendation in early August. As he recently 
indicated to the New York Times, his recommendation and my 
decision were based on our view of the merits of the requests--
political considerations played no role in the process.
    As you know, last week, I asserted executive privilege in 
the face of Chairman Burton's subpoena seeking memoranda and 
testimony concerning the decision process. I did so after 
receiving the opinion of the Attorney General that such 
assertion was proper as the demand clearly intruded on areas 
reserved to the President under the Constitution.
    Grants of clemency generate passionate views. In vesting 
the pardon power in the President alone, the framers of our 
Constitution ensured that clemency could be given even in cases 
that might be unpopular or controversial. The history of our 
country is full of examples of clemency with which many 
disagreed, sometimes fervently. When Theodore Roosevelt granted 
amnesty to Filipino nationals who attempted to overthrow U.S. 
control of the Philippines, when Harry Truman commuted the 
death sentence of Oscar Collazo and when Jimmy Carter commuted 
the sentence of Collazo and other Puerto Rican nationalists who 
had fired upon the House of Representatives, they exercised the 
power vested them by the Constitution to do what they believed 
was right even in the face of great controversy. I have done 
the same.
    I hope this information is helpful in understanding my 
decision and that you will share it with members of your 
committee and others who might find it useful.
        ----Sincerely, Bill Clinton.

    Mr. Waxman. Well, I can imagine a decision like this is a 
very difficult one for a President to make. He knows he alone 
must make it and that there are people telling him that it is a 
good idea and people telling him it is not a good idea. And I 
can particularly see how in light of the strong opposition of 
many people, including the head of the FBI and others with whom 
he had consulted, that he could have to take all of their views 
in consideration. And in our own committee files that have been 
sent to us by the administration, we have a letter which I will 
ask unanimous consent to make part of the record. That is a 
letter, one by Congressman Henry Hyde to Mr. Freeh and then his 
response to that letter, and I would like to put that in the 
record.
    Mr. Burton. Without objection.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T0935.006
    
    [GRAPHIC] [TIFF OMITTED] T0935.007
    
    [GRAPHIC] [TIFF OMITTED] T0935.008
    
    [GRAPHIC] [TIFF OMITTED] T0935.009
    
    Mr. Waxman. This is a draft response by Mr. Freeh and there 
is no indication that it was actually sent, but this was part 
of the records that we have before us in our committee 
deliberations. And Mr. Freeh said:

    As recently as June 28, 1999, the FBI in written 
correspondence advised DOJ that the FBI continued to oppose the 
release of these terrorists. Specifically the FBI pointed out 
to DOJ that as active members of Puerto Rican terrorist groups, 
these individuals sanctioned, supported and/or directly or 
indirectly participated in activities resulting in no fewer 
than nine fatalities, hundreds of injuries, millions of dollars 
in property damage, and armed attacks on U.S. Government 
facilities. DOJ was also advised the FBI had reason to expect 
the release of these individuals would, quote, 
``psychologically and operationally enhance,'' end quote, the 
ongoing violent and criminal activities of Puerto Rican 
terrorist groups.
    The FBI also pointed out that any such pardon of the, 
quote, ``currently incarcerated terrorists would likely return 
committed, experienced, sophisticated and hardened terrorists 
to the clandestine movement,'' end quote.
    These strong views were sent to the President and he had to 
take them into consideration, as he said in his letter.

    Mr. Waxman. Mr. Chairman, I don't know what I would have 
done----
    Mr. Burton. Would the gentleman yield for a question on 
that? You said that was a draft letter. Was that sent to the 
President, that draft letter?
    Mr. Waxman. No, it was a draft letter to Congressman Hyde 
by Mr. Freeh.
    Mr. Burton. And the President was aware of that?
    Mr. Waxman. Well, I don't know if he was aware of this 
draft letter, but he was certainly aware of Mr. Freeh's views 
because as Mr. Freeh points out, he expressed those views in 
the past and as recently as June 28, 1999, of the FBI 
opposition to this offering of clemency to these prisoners.
    I have to say that I don't know what I would have done if I 
were President of the United States. I also have to say in all 
honesty I would never want to be the President of the United 
States for many, many reasons and the chairman would probably 
want to agree with my conclusion. But a President has under the 
Constitution decisions over which we have checks and balances, 
over which we have a say. But he has one at least, maybe 
others, but one unique prerogative and that is to decide the 
fate of individuals who are in prison. He did not pardon these 
people, which would have been to forgive their crime. He in 
effect paroled them or granted clemency. And clemency means to 
moderate the severity of the punishment, and the President 
decided, as he pointed out in his letter, after hearing from 
people on both sides to reach that conclusion.
    I hope this information that I am sharing with everybody 
today will answer many of the questions that the chairman 
raised in his opening statement. Very legitimate questions as 
to why the President made the decision he has.
    Each of us can agree or disagree with his decision, but 
that decision was his and his alone to make. So, Mr. Chairman, 
I know this is the third hearing on this issue, I know we have 
witnesses who have their heartfelt pain to share with us, and I 
look forward to being here with you and the other members of 
the committee so that they can present their arguments and 
their case to all of us and to the American people.
    I yield back the balance of my time.
    Mr. Burton. Thank you, Mr. Waxman. I think that I ought to 
clarify one thing that may not be actually correct in the 
President's letter. A Federal district judge found that Juan 
Segarra-Palmer had organized and taken part in the attack at 
Sabina Seca on a United States Navy bus that killed two sailors 
that were on their way to a radar station and wounded nine 
others. So he was directly involved in the murder of two 
American sailors and the wounding of nine others. I have not 
had a chance to look at the rest of the letter but that part I 
do not think is accurate.
    [The prepared statement of Hon. Judy Biggert follows:]

    [GRAPHIC] [TIFF OMITTED] T0935.010
    
    [GRAPHIC] [TIFF OMITTED] T0935.011
    
    Mr. Burton. We will now recognize Mr. Romero-Barcelo, the 
Resident Commissioner from the great land of Puerto Rico.

STATEMENT OF HON. CARLOS A. ROMERO-BARCELO, A REPRESENTATIVE IN 
                   CONGRESS FROM PUERTO RICO

    Mr. Romero-Barcelo. Thank you, Chairman Burton and Ranking 
Member Waxman, members of the Committee of Government Reform. 
For the record, I am Carlos Romero-Barcelo and I am the sole 
elected Representative in Congress of the United States of the 
3.8 million disenfranchised American citizens in Puerto Rico.
    I appreciate the opportunity to testify before you this 
afternoon at this hearing where you will consider President 
Bill Clinton's clemency to 16 terrorists.
    I would like to address this issue from the perspective of 
the vast majority of law-abiding patriotic citizens in Puerto 
Rico and I want to make it perfectly clear that this group of 
terrorists neither represent nor speak for us. We abhor 
violence. I find offensive any effort that attempts to 
categorize and judge all Puerto Rican-Americans by the actions 
of these extremists whose goal was to isolate and discredit 
their fellow Puerto Ricans before the eyes of their fellow 
citizens, for the purpose of having the Nation reject Puerto 
Rico and give us independence. Virtually every Puerto Rican-
American repudiated their actions then as they repudiate them 
now. In fact, independence as a status option has been rejected 
by at least 95 percent of all Puerto Rican voters at each 
election during the past 50 years and by over 97 percent of the 
electorate in the status referendum held in December 1998.
    Between 1974 and 1983, a small group of political 
extremists waged an armed campaign of terror and violence that 
shocked, horrified and even humiliated Puerto Rico. The group 
calling itself the Armed Forces of National Liberation or, in 
Spanish, FALN, principally operated from New York, Chicago, and 
Hartford. A smaller group that called themselves Los 
Macheteros, operated in Puerto Rico. Declaring themselves at 
war with the United States, they carried out over 100 major 
armed attacks in the mainland and in Puerto Rico with the 
purpose of imposing independence for the island by means of 
violence, threats and terror. I would like to stress that their 
aim was to obtain independence by force, by terror and by 
violence.
    In New York, in an attack at the historic Fraunces Tavern, 
4 people died and 55 people were injured. In Puerto Rico, a 
policeman was ambushed and killed. Another group attacked a 
Navy bus with people who were not armed. The attackers armed 
with submachine guns sprayed the bus with gunfire and killed 
two sailors and seriously injured nine others. Clearly, these 
are acts of terrorism. By 1983, after the members of FALN and 
Los Macheteros were apprehended, the decade-long campaign of 
terror stopped.
    The horror of the actions of these terrorists has been 
brought once more to national attention by President Clinton's 
offer of conditional release to 16 of the terrorists who have 
served terms averaging over 15 years. The offer of clemency was 
contingent on specific conditions that required a written 
request for clemency, the repudiation of violence, intimidation 
and the use of violence to impose their political ideals. In a 
democracy of peace loving citizens nothing less than this can 
be accepted. The individuals involved were not tried or 
convicted in Federal court for any act of murder or act of 
violence against another person, because for one, those were 
not crimes at the times when they were convicted. They were not 
Federal crimes. The Antiterrorism Act was not enacted until 
1990, and further amended in 1996. All of these terrorists were 
tried on or before 1983, so they could not have been indicted 
by the Federal Government for those crimes nor for being 
accessories or accomplices to those crimes. However, they have 
been members of a terrorist organization. They have never 
denied as having been part of the FALN or Los Macheteros, and 
if they didn't participate directly in any of the deaths or 
injuries, they remained as active members of the organizations 
and applauded, encouraged and supported those crimes both 
personally and financially.
    Amnesty International, the leading human rights 
organization in the world, did not consider them prisoners of 
conscience because the acts they were accused of were violent 
in nature.
    President Clinton's humane offer was accepted by 12 who 
individually asked for clemency; have renounced violence, and 
agreed to abide by parole conditions. In short, they met the 
conditions that seek to gradually incorporate them as 
productive members of civil society.
    I did not oppose the conditional release of these 
criminals, but I did oppose their unconditional release. I 
opposed it because the unconditional release of these 
terrorists would have sent out a negative message throughout 
the world that our democracy accepts violence intimidation and 
terrorism to achieve political goals. We don't. I also opposed 
the unconditional release of these terrorists because it would 
have insulted their victims, the victims's families and all of 
us in Puerto Rico.
    I believe that what the President has decided is not only 
the correct thing, it is the humane thing. One of the 
fundamental requirements for the parole of the criminals in our 
legal system is the public acknowledgment of responsibility and 
contrition. The conditions for their release required that each 
one of them signed a statement asking for clemency. Each one 
had to renounce violence as a means of obtaining their 
political purposes and they will be subject to parole 
conditions.
    When criminals are incarcerated, they are placed in prison 
for three basic reasons. First of all, it is to punish them for 
the crime they have submitted; second, to protect society from 
the criminals; and third is to rehabilitate them and give them 
the opportunity to be rehabilitated. By granting them clemency 
under special conditions where they have renounced violence and 
allowing them to reintegrate themselves in civil society under 
controlled conditions, then we can see if they really meant it 
when they renounced violence for their purposes. If not, they 
can be imprisoned again without a new trial and they will have 
to serve the remainder of their sentences.
    This is why I consider that the President's position is a 
responsible one, and one that we should all support. I was one 
of the few persons who raised his voice against an 
unconditional release in Puerto Rico. Those who supported the 
unconditional release were either misinformed, misled or showed 
no regard for the peace and security of their fellow citizens. 
Most of these terrorists were not born in Puerto Rico. Although 
their parents came from Puerto Rico, most of them were born and 
lived in Chicago or the New York area. From there they 
attempted to impose their political beliefs on the people of 
Puerto Rico.
    You will be hearing today from the victims of the FALN 
terrorism and law enforcement officials. On behalf of their 
fellow citizens in Puerto Rico, I wish to convey to them our 
deepest sympathy.
    Mr. Chairman, I appreciate the opportunity to express the 
concerns of the vast majority of Puerto Rican Americans who, 
because of the acts of the terrorists, have been subjected to 
discrimination in their communities throughout the Nation. 
Puerto Rico has also been a victim of the terrorist violence.
    Some have attempted to characterize the terrorists as 
freedom fighters. Nothing could be further from the truth. The 
fact that we are disenfranchised and lack representation is as 
much our fault as it is the fault of Congress. This House tried 
to start a process to put an end to the colonial relationship 
by authorizing a referendum with a commitment to act on the 
results, but the Senate refused to act on it. The people of 
Puerto Rico unfortunately gave their consent to the colonial 
relationship and voted to accept it in 1952, calling the 
territory a commonwealth. Although this relationship called 
commonwealth has now been rejected by a majority of voters in 
1993 and in 1998 referendums, there has been no majority for a 
definite solution. Regrettably this relationship of inequality 
and lack of participation in the democratic system, this 
disenfranchisement provides cover for terrorists in the rest of 
the world who see us as the last American colony with more than 
1 million people.
    And I wish to leave you with a thought: that the real 
freedom fighters are the 197,000 Puerto Rican Americans who 
served the United States in the defense of democracy in times 
of war during this century. The real freedom fighters are the 
nearly 150,000 Puerto Rican Americans who have served and the 
thousands who continue to serve the Nation in times of peace.
    Mr. Burton. Do any Members have any questions of Mr. 
Romero-Barcelo? If not, do you have a question? Mr. Davis.
    Mr. Davis of Illinois. Thank you very much, Mr. Chairman. 
Let me also first of all express my empathy and concern for 
those whose families and they themselves have been directly 
affected by the actions and activities of the FALN. 
Representative Romero-Barcelo, my question is do you think it 
is possible to separate the actions of individuals from the 
actions of a group that they may be a part of?
    Mr. Romero-Barcelo. It depends on what kind of a group and 
what that group's policy is and whether the individuals are 
aware of the acts of the group or not. In this case, there is 
no doubt that the individuals were part of the group. They have 
acknowledged it themselves. They have also--there is no doubt 
that they knew of the facts that were being committed by those 
groups, because it was they themselves claimed to have 
committed the acts. So, therefore, they knew what was happening 
and they continued to be members of the group; so therefore, 
yes, we cannot disassociate them from the acts of the group 
because they are accomplices. The
only thing is, as I explained, at this point in time they could 
not be charged as accomplices for murdering or hurting anyone 
by the Federal Government because those were not Federal crimes 
but they knew that was happening and they not only knew about 
it, they applauded it, they stole money for it, they prepared 
for it. They had the bombs stashed away and other munitions 
stashed away for other acts.
    Some of these members were caught with a warehouse of bombs 
and other explosives. So I don't think that you can 
disassociate them from these acts. It is not the same as when 
somebody belongs to an organization and somebody else does 
something over which they have no control or they don't even 
know about.
    Mr. Davis of Illinois. We continue to hear different 
representations in terms of those who suggest that the 
individuals in question were involved in some direct activity 
and others who suggest that there is no proof that the 
individuals were involved in any action or activity where 
violence was direct.
    Do you, in terms of your understanding of them, were they, 
to the best of your knowledge, instances where they were 
involved or were they, as you indicated a moment ago, 
accomplices?
    Mr. Romero-Barcelo. The accomplice is involved. The 
accomplice is as guilty as the individual, as the main person. 
When two or more people rob a bank, the one that is waiting for 
them to rob outside in the car on the lookout is as much--has 
as much guilt about the crime as the ones that are in there 
with the guns and holding the people up to hold up the bank.
    I think this is what we learn in law, that in most 
jurisdictions the accomplices are as guilty of the crime as the 
principal.
    Mr. Davis of Illinois. And so your position is whether they 
were directly or not, they still were part and would have been 
just as guilty and, therefore, your position is that the 
sentencing was warranted in terms of the length of time that 
they were given?
    Mr. Romero-Barcelo. I think even their attitude in the 
trial demonstrates that they were aware. Most of them refused 
to defend themselves and they allege that they were prisoners 
of war because they were in a state of war against the United 
States. So how much more of an acceptance of the facts, of 
acceptance of their violent acts can you have than that 
statement? When they say that they are in a state of war 
against the United States and that they refuse to defend 
themselves because they are not citizens, they are prisoners of 
war?
    So some of them even threatened the judges and said that 
they did not kill the judge because they had their hands 
cuffed, otherwise they would get up and choke him right there.
    Mr. Davis of Illinois. Thank you very much. I have no 
further questions. Mr. Chairman, I wanted to say to Mr. Waxman 
that I really appreciated his reading the President's letter, 
because I think that the letter further revealed the careful 
consideration that this matter was given. And I happen to be 
one who agreed with the President in terms of viewing this as 
an opportunity to look at perhaps even some different 
approaches to the way that we look at democracy, and that 
rather than just thinking in terms of punishment, rather than 
just thinking in terms of how harsh we could be, but could we 
look at it as an opportunity to reconcile, to experience the 
act and movement toward the act of healing and being in 
agreement with former President Jimmy Carter, to be in 
agreement with Coretta Scott King, to be in agreement with 
Bishop Tutu, who obviously has seen much horror, much 
difficulty, but yet understands that democracy can be 
fellowship as well as punishment.
    And so I thank you very much for your testimony and I yield 
back the balance of my time.
    Mr. Burton. I am going to yield to Mr. Horn. I am just 
going to take a minute of my 5 minutes, and then I will yield 
to Mr. Horn.
    We live in a different age than I think any previous 
American has ever lived in. There have been killings, we have 
had Presidents assassinated and we have had a lot of problems 
like that but we have not had serious acts of terrorism take 
place like those we have seen in recent years. The Oklahoma 
City bombing hurt everybody in America. Everybody in this 
country felt for those kids that were carried out of that 
nursery there in pieces.
    Everybody was concerned and felt terrible about the tragedy 
that occurred at the World Trade Center. People were killed. 
People who were granted clemency by the President, especially 
Juan Segarra-Palmer, who was involved in killing two sailors, 
shooting up a bus with machine guns on unarmed sailors, killed 
two of them and wounded nine, that is another act of terrorism. 
And I really and truly believe that the American people believe 
the time has come for us to put those people away and not let 
them back out on the streets.
    Granted, the President has the right under the Constitution 
to grant clemency to these people. But when you see buildings 
being blown up in New York and Oklahoma City and you see all 
these little kids coming out maimed or killed, you say 
shouldn't they be kept off the streets, these people? And I ask 
the question today, should we start thinking about clemency for 
the people that did that horrible thing at Oklahoma City or the 
World Trade Center? Because if you follow the logic that I am 
hearing, you know, you probably ought to consider that. I mean, 
this Mr. Segarra-Palmer, who was pardoned was involved in 
murdering two American sailors. They are dead just like the 
people at the World Trade Center in Oklahoma City, and my 
question is, you know, when do you start keeping these people 
off the streets?
    I yield the balance of my time to Mr. Horn.
    Mr. Horn. Thank you very much, Mr. Chairman. I think the 
President obviously could do that, we all know, under the 
Constitution. I think he made a mistake when he is delivering 
people out to society that have a violent record. I had contact 
with the Puerto Rican independence movement in the mid-1970's 
when I was vice chairman of the United States Commission on 
Civil Rights. We went to New York to look at the schooling for 
Puerto Ricans, black students, white students in New York. The 
independence movement was very active. They came, demonstrated, 
raised cain, and I have a picture in the archives of a chair 
coming right for us. That person should have been in the 
Olympics, and three of the six commissioners were university 
presidents so we were sort of used to that anyway. We just 
ducked.
    This movement is frankly counterproductive. Personally I 
think Puerto Rico ought to be independent. I think we had 
common sense when we put into the Philippine compact that they 
would be free in 1946. We did not know about a world war or 
anything else. But when 1946 came, the Philippines was 
independent, and that should have happened to some of the other 
acquisitions of the Spanish American War. And I think their 
violence is just slowing down what makes sense, which is have 
Puerto Rico be its own country.
    Thank you, Mr. Chairman.
    Mr. Burton. Does anybody else have questions? I yield to 
the gentlewoman.
    Mrs. Biggert. Thank you, Mr. Chairman.
    I think that a grave concern that we have had is that the 
President's decision to grant clemency has really set a 
precedent. And we don't know where that's going to go and what 
kind of message we're sending to terrorists and criminals both 
here and abroad, and I think it calls into question the United 
States' resolve to wage an unyielding war on terrorism.
    So my question to you is, is the FALN still active in 
Puerto Rico and will the release of these people cause a 
resurgence, whether it be by peaceful measures or by violent 
measures, even though they are supposed not to be involved in 
this at all? Since only 2.5 percent of the people, granted, or 
one in two voted for independence, is the FALN still active?
    Mr. Romero-Barcelo. As far as we know, there have only 
been--there have been two acts that were committed this past 
year that were allegedly claimed to have been committed by the 
FALN Los Macheteros. One was, in an aqueduct under construction 
to bring water into the metropolitan area from one area of the 
island to the other, and there was something that blew up or 
something in the project; they claimed they had done it. And 
then there was another one that was, a bomb that exploded in 
front of some other building.
    These are the only two incidents that have happened since 
1983. One of those two incidents, the organization said that 
they did not--whoever claimed it on their behalf was lying 
because they didn't do that. But one of them has remained--is 
being claimed by them. Outside of that, there has been no other 
activity.
    I guess the hope is that the people, the amount of time 
that they did serve is sufficient to make them reconsider and 
that they--their commitment to renounce violence is sincere. 
Whether it will be or not, I have no way of knowing. All we can 
do is hope that they're sincere when they signed the statement 
renouncing violence.
    Mrs. Biggert. You don't think they will make other members 
want to get reinvolved, or kind of stoke up----
    Mr. Romero-Barcelo. I'm sure there will be some persons who 
would like to get them reinvolved. There are still a couple 
of--one of the big leaders is in Cuba. He's being hunted. He 
hasn't been arrested. He escaped. He was in New York in a 
hospital; he escaped from a hospital and he went to Cuba.
    Then there's another one that is still treated at large. 
I'm sure they would probably like to get them back involved, 
but whether they will or not, there's no way we can know until 
it happens. At least by being under probation, they are--they 
can be put back with the mere suspicion that, given their 
activities, they are involved. They don't have to have a trial 
to prove that they're guilty. They just have to pull them back 
in if there's any danger.
    Mr. Burton. My time has expired.
    Mrs. Mink, did you have any questions?
    Mrs. Mink. No. Thank you.
    Mr. Burton. Mr. Ose.
    Mr. Ose. Thank you, Mr. Chairman. A couple of questions if 
I might. Before I proceed, with great respect to my friend, Mr. 
Davis of Chicago, I want to completely disassociate myself from 
his remarks of a few moments ago relative to the consequence of 
this kind of behavior.
    Mr. Romero-Barcelo, do you know of anyone who requested 
that the President grant this clemency?
    Mr. Romero-Barcelo. Requested the President?
    Mr. Ose. Yes.
    Mr. Romero-Barcelo. I think the whole movement was begun 
and put together by a Member of Congress.
    Mr. Ose. Who was that?
    Mr. Romero-Barcelo. Luis Gutierrez from Chicago.
    Mr. Ose. Have there been other Members of Congress----
    Mr. Romero-Barcelo. Who supported that? Nydia Velazquez 
from New York has supported it, and I think Jose Serrano has 
supported their unconditional release. They have been 
supporters of the unconditional release.
    Mr. Ose. The President's letter talks about an ongoing 
effort over the last 6 years from various Members of Congress, 
religious and civic leaders, as well as others, urging him to 
grant clemency. I understand the process prisoners have is to 
request clemency.
    Mr. Romero-Barcelo. That's what I thought. They told me 
that not necessarily--that the lawyers, for instance, can do it 
on their behalf and others can do it on their behalf as has 
been done in other cases. I don't know. That's what I've been 
told. I thought the same way as what you just said.
    Let me tell you one thing. The people of Puerto Rico were 
totally misled by the information. In the first place, all of 
the press of Puerto Rico always refer to them as political 
prisoners. I was always careful to say, when they ask me about 
the political prisoners, I say, ``who are you talking about? 
They are not political prisoners. There are politicians in 
prisons, but I don't know of political prisoners in our 
system.'' I would also say that political prisoner implies that 
they're prisoners of conscience. And these are not prisoners of 
conscience. They're prisoners because they have committed 
felonies.
    But the press always calls them ``political prisoners,'' 
everybody calls them ``political prisoners.'' The information 
that they gave, that these people had never been involved in 
the commission of a serious act. And the people of Puerto Rico 
are very compassionate, very compassionate; and they felt that, 
well, they had been in long enough. They were always--everyone 
was told that these people have served more than anybody else 
for crimes similar or even for worse crimes than they had 
committed.
    People are very sympathetic. They joined the movement to 
ask for unconditional release. And there was no voice out 
there. No voice out there saying no. I was the only voice 
saying to the President, look, if you are going to consider any 
clemency, it has to be restricted. They have to ask for it. 
They have to at least renounce violence as a means for 
obtaining their release and they have to be under supervision. 
They have to be under probation.
    There was no--everybody else was asking for unconditional 
release except the Governor, who said they should be treated 
individually.
    Mr. Ose. If I understand correctly, at least on the 
surface, it appears perhaps some of these prisoners didn't even 
ask for clemency. The President, for whatever reason, may have 
gone and offered it.
    Mr. Romero-Barcelo. That's why the offer says that they 
must ask for it and they must sign a request for clemency.
    Mr. Ose. So in effect, you can have clemency if you ask for 
it?
    Mr. Romero-Barcelo. That's right.
    Mr. Ose. Is that a negotiation?
    Mr. Romero-Barcelo. I don't know if there were negotiations 
directly with the President or not. I think it was just 
requested.
    Mr. Ose. Would you consider that approach to be a 
negotiating approach? If you say this, we'll do that? That 
reminds me of doing business. Negotiating.
    Mr. Romero-Barcelo. I don't think it's negotiation. The 
President said, here, you can be released provided you do this. 
I don't think there was any negotiation. There was just a 
condition imposed on the release.
    Mr. Ose. The other question I want to come back to is, 
besides Members of Congress and the folks that you're familiar 
with in Puerto Rico, are there others that you--and the reason 
I ask this question is we can't get the information, for 
instance, from the administration. Are there others who have 
urged him to grant clemency, that you know of?
    Mr. Romero-Barcelo. They have been mentioning it here 
today: President Carter; Bishop Desmond Tutu; Coretta Scott 
King; the Archbishop in Puerto Rico; a lot of the churches in 
Puerto Rico; all the Protestant churches; churches here in the 
mainland; civic groups here in the mainland and churches in 
Chicago area, the New York area. This was, at least in our 
press and some of the local press in New York and Chicago, this 
was there but nobody raised a voice or opposed it. Nobody was 
opposing the request for the unconditional release.
    Mr. Ose. If that were the case, if all the information was 
proclemency, why wouldn't we be able to get that information 
out of the administration? Why wouldn't they release those 
documents to us?
    Mr. Romero-Barcelo. I don't know.
    Mr. Ose. Thank you, Mr. Chairman. I yield back.
    Mr. Waxman. Would the gentleman just yield to me?
    Mr. Ose. Certainly. I always yield to my good friend.
    Mr. Waxman. Thank you.
    Just to clarify for the record, I speak as someone who is 
not for or against what the President did; I'm still listening 
to the arguments. But the administration did submit 10,000 
pages of documents, including a list--and I'll give it to the 
chairman to make part of the record--of Members of Congress and 
some others that requested clemency. As I pointed out--the 
release, as well--information about people who rejected 
clemency, like Mr. Freeh from the FBI. You asked the question 
and I just thought you ought to know we did get some of that 
information available to us.
    Mr. Ose. I thank my friend.
    Mr. Waxman. Thank you.
    Mr. Burton. I think we ought to clarify one thing. I went 
through those documents with my staff. Almost all of them were 
just postcards, notes, and form letters that were sent into the 
administration, asking for clemency, from a whole host of 
people in Puerto Rico, but there was not really much 
information there.
    Thank you, Mr. Romero-Barcelo. I do not think anyone else 
has any questions.
    Our next panel is our good friend and colleague, Vito 
Fossella of New York, who will be introducing Diana Berger 
Ettenson, Thomas Connor, Detective Richard Pastorella and 
Detective Anthony Senft. Would you all come forward, please.
    If you all would remain standing. I know you are going to 
be very forthright, but as a matter of course, since we are 
going to have people from the executive branch here, we would 
like for you to stand and raise your right hands.
    [Witnesses sworn.]
    Mr. Burton. Mr. Fossella, Congressman Fossella, sir.

 STATEMENT OF HON. VITO FOSSELLA, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF NEW YORK

    Mr. Fossella. Chairman Burton, Ranking Member Waxman and 
distinguished ladies and gentlemen, thank you for the 
opportunity to appear before you this morning and to testify at 
today's hearing, entitled, ``Clemency for the FALN: A Flawed 
Decision?''
    For the past month, I along with others, especially the 
victims of FALN activities have been waging a battle to bring 
public pressure on the White House to rescind the President's 
offer of clemency to 16 terrorists, each of whom played an 
integral role in the FALN terrorist organization. Despite an 
overwhelming outpouring of support against the White House 
sweetheart deal and despite the unanimous and staunch 
opposition as so reported of virtually every Federal law 
enforcement organization, this clemency offer unilaterally 
reversed America's long-standing policy of neither negotiating 
nor sympathizing with terrorists.
    There are many reasons why we undertook this uphill battle, 
not the least of which was that I feared the release of these 
individuals would send the wrong message to terrorists who have 
a bull's-eye on American cities. Today, sadly, I must report 
that the message has been heard loud and clear. It appears that 
terrorists who have long been asleep have recently been 
awakened.
    Last week--I don't think this has been reported here--the 
leader of Los Macheteros--Congressman Romero-Barcelo alluded to 
them--a ruthless terrorist organization that claimed 
responsibility for bombings and other acts of violence, along 
with the FALN, throughout the 1970's and 1980's emerged from a 
decade of hiding to issue a new threat against the United 
States, a potential terrorist plot aimed squarely at our Nation 
and our people.
    In his statement, Filiberto Ojeda Rios told WPAB, a Puerto 
Rican radio station, ``If they, the United States Navy, start 
bombing Vieques again and they threaten the island's population 
or those carrying out acts of civil disobedience, they will 
have to face the consequences because Los Macheteros will not 
remain with their arms crossed, you can be sure of that.''
    He added that Puerto Rico should take full advantage of 
``this historic moment'' and battle against the ``revolutionary 
offenses'' being developed by the U.S. Government, the FBI, 
Resident Commissioner Carlos Romero-Barcelo and others.
    Is it any surprise that just days after these terrorists 
have been released that America's received this new threat of 
violence? Is it any surprise that the terrorist issuing the 
threat was associated with members of the FALN, four of whom, 
by the way, are also affiliated with the Los Macheteros group?
    I'm deeply concerned that the release of these terrorists 
has reignited the flame that burns in the hearts of terrorists 
who kill without conscience and describe men, women, and little 
children as casualties of their twisted war. Our Nation cannot 
have a zero tolerance policy toward terrorism when we are 
willing to allow terrorists to walk out of jail free.
    The White House defends this sweetheart deal by claiming 
the terrorists let back onto America's streets were not the 
same terrorists who proudly claim responsibility for more than 
130 bombings during the 1970's and 1980's. Never mind that 
several of the terrorists released were captured on videotape 
making bombs, as you pointed out. Never mind that the self-
proclaimed ringleader of this terrorist circus, who is now in 
exile in Cuba, declared that the FALN operated under a 
collective form of leadership. Never mind, since these 
terrorists have been locked behind bars, not one bomb has 
exploded nor has one single American has been killed by the 
FALN, at least as far as I know--and that addresses, I believe, 
Mrs. Biggert's comment before about, have there been any 
terrorist activities? No, because they've been behind bars.
    The fact is that these individuals knowingly stepped aboard 
a train of terrorism, and as a result, should take full 
responsibility and be held accountable for all FALN violence, 
at least to the full extent of the law.
    The nightmare of this notorious terrorist network goes back 
many years. On January 24, 1975, the FALN bombed the historic 
Fraunces Tavern in downtown Manhattan. This cowardly attack 
killed 4 and wounded over 40, all of them innocent people who 
were just enjoying a Friday afternoon lunch at one of New York 
City's most famous and popular restaurants. In a note found 
near the scene of the crime, the FALN took responsibility for 
the bombing and stated in part,

    We, the FALN armed forces of the Puerto Rican nation take 
full responsibility for the especially detonated bomb that 
exploded at Fraunces Tavern with reactionary corporate 
executives inside. In our communique number 2, we warned the 
North American government that to terrorize and kill our people 
would mean retaliation by us. This was by no means an empty 
warning.

    I underscore and let me emphasize the word ``we'' in that 
communique; ``they'' took full responsibility for the bombing, 
not ``I.'' I believe that underscores the collective 
responsibility of the FALN.
    Over the next 9 years, the FALN systematically sought to 
spread fear and terror throughout our Nation. They planned and 
executed one devastating bomb after another, peaking with their 
most symbolic and vicious attack on New Year's Eve in 1982 by 
striking at the heart of the rule of law, New York City Police 
Headquarters and the Federal building which houses the New York 
City headquarters of the FBI.
    On that night, the lives of many people were changed 
forever, none more so than the three men who, over the past 4 
weeks, I've come to regard as true heroes, not the so-called 
heroes that will be celebrating elsewhere, and his good 
friends. Detective Richard Pastorella lost sight in both eyes, 
all his fingers on his right hand, has 20 titanium screws 
holding his face together, and has undergone 13 major painful 
operations on his face alone.
    His partner, Detective Anthony Senft, lost an eye, is 
partially deaf and has endured several separations on his hip 
and other areas of his body.
    Their fellow police officer, Rocco Pascarella, lost his 
right leg and sustained a host of other injuries, including the 
partial loss of hearing.
    On behalf of these brave men and so many others like those 
with me here today, Thomas Connor and Diana Berger, who both 
lost loved ones in the Fraunces Tavern bombing, we took on this 
cause in the hope the White House would rescind the offer of 
clemency after, and I repeat ``after,'' the terrorists rejected 
the original offer.
    We also thought that the U.S. Congress could speak for 
those who could not. The innocent people who died at the hands 
of the FALN, the dozens who were injured and maimed, and all 
those who were ignored and brushed aside by this 
administration. We have given a voice to every American who is 
horrified and disgusted.
    I believe that these terrorists have been granted life's 
most precious commodities--freedom, liberty, and independence--
despite the fact that they took those same commodities away 
from innocent people. We took on this cause to try and prevent 
the travesty of justice from occurring and to avoid sending a 
signal of weakness to terrorists.
    By reviewing a request for clemency reportedly outside 
normal Department of Justice guidelines and granting clemency 
to dangerous terrorists, and then to place seemingly lenient 
conditions on their release is to undermine U.S. policy and the 
very foundation upon which this great Nation was built. To 
undermine that policy is to make the United States vulnerable 
to future terrorist attacks.
    That's not just my opinion, Mr. Chairman; an overwhelming 
majority in the House and 95 U.S. Senators, Democrats and 
Republicans, consider ``making concessions to terrorists is a 
deplorable act'' and that ``the President should not have 
granted clemency to the FALN terrorists.''
    One of the more egregious aspects of this clemency offer is 
that for years the victims of FALN violence have been trying to 
sit down with the Justice Department staff to present their 
side of the story. Some victims did not even get the courtesy 
of a phone call that the terrorists were going to be released. 
Meanwhile, advocates for the terrorists have had the 
opportunity to meet with the Department of Justice officials, 
along with folks from the White House, regularly. It would have 
been nice and appropriate and the right thing to do to extend 
the same level of courtesy to these victims. They are the 
individuals who have been suffering all these years.
    Some now argue, let's get this clemency behind us. I say, 
not so fast. Someone at the Justice Department or the White 
House still owes these victims and the United States, I 
believe, a public explanation as to why these terrorists were 
set free. In effect, the victims have been told to live with 
it, and it's none of their business.
    We have an obligation to demonstrate whether there was a 
new threat posed by these terrorists. It has been reported that 
the Bureau of Prisons tapes exist, proving that the terrorists 
will engage in violence once they are released from prison. Is 
this the case? Is this true? Do these tapes exist?
    The FBI has threat assessments on various terrorist 
organizations, and should we now be concerned about the threat 
of the FALN terrorists to our Nation? Should law enforcement 
agencies, which thought the FALN was a dead issue and was put 
to bed, now have to track these individuals, depleting valuable 
resources to combat crime and terrorism?
    What are the conditions of the clemency? Are they allowed 
to meet with one another? According to the Parole Commission, 
these individuals are not permitted to associate with each 
other. There are reports, however, that these terrorists will 
be participating in a rally in Puerto Rico this week. Were we 
lied to? Will they be monitored? Will they be allowed to speak 
to one another? Is the administration willing to enforce the 
conditions of clemency? Will the terrorists be sent back to 
prison if they violate the terms of clemency?
    We cannot turn back the clock and undo the damage that's 
been done here, Mr. Chairman. But we can and we must 
investigate this matter deeply to learn why the White House 
chose again, as has been reported, to ignore the unanimous 
recommendation of law enforcement agencies, to keep these 
terrorists where they belong, behind bars in Federal prison.
    The 16 terrorists demonstrated no contrition for their 
actions, nor remorse for their reign of terror. They belong in 
prison and they should serve every last day of their jail 
sentence. America must show no sympathy for those who commit 
acts of terrorism on American soil.
    As I pointed to in the past, there is this argument they 
were nowhere near the bomb scene. Well, let's just turn the 
clock back several years and think of the Oklahoma City bombing 
tragedy. Terry Nichols was nowhere near the bomb scene, and he 
was rightly sentenced to suffer in prison because he allowed so 
many other people to suffer. Could you imagine the outrage 
across this country if in 10 or 15 years the then-President of 
the United States steps forward and gives Terry Nichols 
clemency because he was nowhere near the bomb scene? There 
would be justified outrage.
    Mr. Chairman, I want to thank you for your indulgence in 
allowing me to go beyond the normal 5 minutes, and I would like 
to introduce some of the human faces affected by the FALN 
violence, and I trust their experiences and views will 
demonstrate how grave an issue this truly is.
    I thank you again, Mr. Chairman, and members of the 
committee.
    [The prepared statement of Mr. Fossella follows:]

    [GRAPHIC] [TIFF OMITTED] T0935.012
    
    [GRAPHIC] [TIFF OMITTED] T0935.013
    
    [GRAPHIC] [TIFF OMITTED] T0935.014
    
    [GRAPHIC] [TIFF OMITTED] T0935.015
    
    [GRAPHIC] [TIFF OMITTED] T0935.016
    
    Mr. Burton. Thank you, Mr. Fossella. If you would like, you 
can introduce Ms. Berger first and then we will go right down 
the line with the others.
    Mr. Fossella. Mr. Chairman, it's my honor to introduce Mrs. 
Diana Berger Ettenson, whose husband again suffered what is 
probably the most fearful thing any family can suffer. Her 
husband left work one morning, attended a lunch, and never 
returned. He was killed in the Fraunces Tavern bombing.

 STATEMENTS OF DIANA BERGER ETTENSON; THOMAS CONNOR; DETECTIVE 
 RICHARD PASTORELLA, RETIRED, NEW YORK CITY POLICE DEPARTMENT; 
  AND DETECTIVE ANTHONY SENFT, RETIRED, NEW YORK CITY POLICE 
                           DEPARTMENT

    Ms. Ettenson. My name is Diana Berger Ettenson. On January 
24, 1975, the FALN, a Puerto Rican terrorist group, placed a 
bomb in Fraunces Tavern, a historic site in New York City. That 
bomb exploded at the height of the lunch hour. Four people were 
killed and over 60 were injured in the blast. One of those 
killed was my husband, Alejandro, A-L-E-J-A-N-D-R-O, Alex 
Berger, who was attending a business lunch. I was 6 months 
pregnant at the time. Alex was an only child, whose parents had 
just moved to the United States to be close to us.
    On the day of the bombing, I was driving to New York to 
meet Alex and his parents. I heard the news of the blast on my 
car radio. The news reported that a group known as the FALN had 
claimed responsibility for the bombing. I had never heard of 
this group before. However, this group has haunted me to this 
day. I had to tell Cecelia and Joseph Berger that their only 
child had been murdered. I do not think I have to tell you in 
detail what this act of terror did to my family and friends.
    I want to make it perfectly clear that I am not here today 
for any political reasons. I am here to express my outrage over 
President Clinton's release of the FALN terrorists.
    Let us make no mistake about the criminals who were 
released. Contrary to what their supporters and the White House 
have suggested, they were not in prison merely because of guilt 
by association. They were proud and fervent members of a group 
which sought independence for Puerto Rico by carrying on a 
reign of terror in the United States. The people that the 
President released were fully cognizant of all aspects of the 
FALN's goals and means of achieving them. They were convicted 
of crimes that helped facilitate the terror of the FALN and 
some were actually involved in bombmaking. They have never 
denied their participation and responsibility.
    I refuse to be insulted by those who say that these people 
were never proven to have caused bodily harm. They were 
captured before more innocent lives were lost. Acts of random 
terrorism ceased after these people were imprisoned. The FALN, 
including those just released, were responsible for the killing 
and maiming of innocent people whom they conveniently describe 
as ``victims of war.'' The prison sentences they received were 
commensurate with their deeds.
    Mr. Chairman, I have heard that the terrorists have 
renounced violence. I have heard that we should have peace and 
reconciliation. What I have not heard, however, is one ounce of 
remorse from any of those released. They have no remorse. One 
terrorist even proudly proclaimed that he is not sorry for 
anything that he did in the past. Two members of the FALN 
refused to renounce violence and, fortunately, still remain in 
prison. Are these the people who deserve clemency from the 
President?
    Upon their release, their supporters have hailed them as 
political prisoners and freedom fighters. Mr. Chairman, how do 
you think I and other victims feel when we have to listen to 
this?
    Mr. Chairman, the victims of this outrageous act of 
clemency need the help of you and your committee, Democrats and 
Republicans. President Clinton must provide a comprehensive 
explanation for his actions and not merely say that it was the 
just thing to do and that they were punished enough. The 
victims continue to be punished each and every day.
    Why was clemency granted to 16 violent criminals who show 
no remorse for their conduct when the President has utilized 
his extraordinary power on only three prior occasions, each 
involving minor infractions, despite over 3,000 requests? Where 
is the sense of proportion? What documents did the President 
analyze in making his decision? Why does the White House refuse 
to release these documents? What is being hidden?
    Why was this decision made in the face of opposition from 
the FBI, the Bureau of Prisons and U.S. attorneys? Why was the 
Department of Justice silent on the matter? What was the role 
of Charles Ruff and what promises did he make? Why couldn't the 
White House notify the victims and their families?
    It has recently come to my attention that the freed 
prisoners are reuniting with the consent of their probation 
officer. Has this consent been given, and if so, why?
    The American people and the victims of FALN violence demand 
answers to these questions.
    Mr. Chairman and committee members, thank you for your time 
and attention to this important matter.
    [The prepared statement of Ms. Ettenson follows:]

    [GRAPHIC] [TIFF OMITTED] T0935.017
    
    [GRAPHIC] [TIFF OMITTED] T0935.018
    
    [GRAPHIC] [TIFF OMITTED] T0935.019
    
    Mr. Burton. Thank you, Ms. Berger, for that very eloquent 
testimony.
    Mr. Fossella.
    Mr. Fossella. Mr. Chairman, in 1975--I mentioned the 
Fraunces Tavern bombing--there were two boys home with their 
mother, Thomas Connor, who was 11, and his brother, Joseph, who 
were about to celebrate Joseph's 19th birthday when they got 
the call that their father would not be returning home. He was 
in the restaurant with Mrs. Berger's husband.
    Mr. Connor. I'm Tom Connor. We all live in the United 
States, the greatest country on Earth, a Nation of laws. And we 
live in an age following the fall of communism when the country 
is at peace. It's a time when American-style democracy is 
flourishing across the world and our enemies are few. 
Therefore, right here and right now, Americans should feel as 
safe from the horrors of world war as we ever have in the past 
100 years. Americans should be able to go about their daily 
lives feeling safe and secure. But we can't, and we can't 
because on the eve of the next century, the threat of global 
terrorism is greater than it has ever been.
    In the United States, a country that has never really 
suffered from terrorism up until 25 years ago, that threat is 
tremendous. The World Trade Center bombing and the Oklahoma 
City catastrophe are just the latest examples, but more are 
sure to follow. And right now when the United States should be 
leading the world in fighting terrorism, the President decides 
to offer clemency to 16 members of one of the most violent 
organizations ever to wage war against the U.S. Government from 
within our own borders.
    He claims these people are nonviolent, but three of them 
were arrested while building bombs and another eight were 
arrested in a van full of weapons on their way to commit armed 
robbery. Does that sound nonviolent to you?
    After being captured, they spoke proudly of their actions 
and during their trials, they threatened the judge and 
prosecutors. Does that sound nonviolent to you?
    There never was a pacifist wing of FALN and not one member 
has ever expressed remorse. The 14 who eventually accepted the 
President's offer took over 3 weeks to formally renounce 
violence. Do these sound like people who deserve clemency to 
you?
    Their release was unanimously opposed by the FBI, the 
Bureau of Prisons, and the U.S. Attorneys office. They were 
taped in prison discussing a return to violence after their 
release. Again, do these sound like the people who deserve 
clemency to you?
    The Founding Fathers gave the President the power to 
pardon, not subject to congressional approval. In the 
Federalist Papers, Alexander Hamilton stated that this power 
would not be abused lest the President be thought conniving. 
Mr. Hamilton obviously never envisioned President Clinton.
    By offering this clemency, the President has endangered 
America. His action renders void the judgment of the juries and 
Federal judges who impose long prison sentences on these 
violent felons because they knew the facts and they understood 
the terrorists' motives. His explanation of why this action was 
taken is not only weak, but it insults the intelligence of the 
American people who obviously know it was done for political 
purposes. His action is an affront to me, to my family, and all 
those whose lives were forever harmed by the FALN's 
indiscriminate violence. Finally, he, perhaps in violation of 
the law, didn't even have the decency to inform the victims of 
these terrorists' release. We found out by reading about it in 
the newspaper.
    But now they're free; they've been released onto our 
streets and into our cities. I pray that their violent ways 
have ended, but Americans should not have to be reliant upon my 
prayers. Terrorists of any nationality should never be granted 
clemency if this country is to be serious in their thoughts 
about opposing terrorism.
    The next indiscriminate bombing in this country will 
probably not kill me or anyone else in my family, but it may 
harm someone that you all know or love. And whenever that 
happens and whoever is the bombmaker, I, unlike the President, 
will feel the pain of the victims, and he will be partially 
responsible for it.
    I ask you to continue to investigate this clemency matter 
to determine why it was done over the objections of the 
Nation's leading law enforcement agencies, to ascertain how the 
process even began without the formal request of the terrorists 
themselves, to understand how it is that representatives of a 
terrorist group can be given time with Attorney General Janet 
Reno while the victims are ignored and slighted, in possible 
violation of the law.
    Also, how is it that the President can write to Mr. Waxman, 
but not have the decency to address anyone sitting at this 
table? Gaining the answers to these questions cannot bring back 
my father or repair 24 years of pain, but it can help to keep 
other victims from having to suffer at the hands of terrorists, 
as mine has.
    Thank you.
    [The prepared statement of Mr. Connor follows:]

    [GRAPHIC] [TIFF OMITTED] T0935.020
    
    [GRAPHIC] [TIFF OMITTED] T0935.021
    
    [GRAPHIC] [TIFF OMITTED] T0935.022
    
    [GRAPHIC] [TIFF OMITTED] T0935.023
    
    [GRAPHIC] [TIFF OMITTED] T0935.024
    
    [GRAPHIC] [TIFF OMITTED] T0935.025
    
    [GRAPHIC] [TIFF OMITTED] T0935.026
    
    [GRAPHIC] [TIFF OMITTED] T0935.027
    
    [GRAPHIC] [TIFF OMITTED] T0935.028
    
    [GRAPHIC] [TIFF OMITTED] T0935.029
    
    [GRAPHIC] [TIFF OMITTED] T0935.030
    
    [GRAPHIC] [TIFF OMITTED] T0935.031
    
    [GRAPHIC] [TIFF OMITTED] T0935.032
    
    [GRAPHIC] [TIFF OMITTED] T0935.033
    
    Mr. Fossella. Mr. Chairman.
    Mr. Burton. Mr. Fossella.
    Mr. Fossella. I just want to reference the letter addressed 
to Congressman Waxman.
    One paragraph says that President Carter's support was 
particularly noteworthy because he commuted to time served the 
sentences of Puerto Rican nationalists who were convicted for 
the 1954 attack. Several years later, another group of Puerto 
Rican nationalists blew up buildings in downtown Manhattan, and 
two of the victims are here today.
    Detective Richard Pastorella, who was responding to a bomb 
threat December 31, 1982.
    Mr. Burton. Mr. Pastorella.
    Mr. Pastorella. Mr. Chairman, distinguished members of the 
committee, I am Detective Richard Pastorella, retired, from the 
New York City Police Department bomb squad. I do not have a 
prepared speech for you this morning; I speak only from my 
heart.
    I also take issue with the President's decision to grant 
clemency to this terrorist organization and group. Each of 
these people, when they joined the FALN, knew full well what 
the manifesto of that organization was, namely, the violent 
overthrow of the American Government.
    These terrorists claim that they speak for the Puerto Rican 
people; I say here and now, they do not. My argument is not 
with the Puerto Rican people as a whole. They are fine, decent, 
law-abiding people that have contributed to the fabric of this 
Nation and made it and continue to make it the great Nation 
that it is today. I take issue also when I hear that Coretta 
Scott King, Bishop Tutu and others have asked for the release 
of this terrible group of people. I take issue because I'm not 
certain exactly what their comments and statements were.
    Not very long ago I was told that Cardinal O'Connor of the 
Archdiocese of New York City also asked for the unconditional 
release of these terrorists. That was not true and is not true. 
Cardinal O'Connor has just in the past few days renounced that 
statement and said that he had only asked for a review of their 
release.
    I remind Bishop Tutu that not very long ago on his shores 
in Kenya and Nairobi, the American embassies that were blown up 
by other terrorists where 12 American lives were lost and 
hundreds of African nationals sacrificed their lives. Are they 
to be forgotten?
    I decided to come here this morning to speak to this 
committee and to you, Mr. Chairman, to give a human face to 
what terrorism truly is. Who, I ask you, is going to commute my 
sentence? My body has healed, but my emotions will never heal. 
I bear this cross for 17 years, and I will never be free of it. 
My daughter-in-law is Puerto Rican. I have two granddaughters 
that have Puerto Rican heritage, and I am proud of them, but I 
have never seen them. Please excuse me.
    When my granddaughters present me with crayon drawings and 
are pleased to show them to me, I have to pretend that I can 
see them and enjoy their effort. When they ask me to go outside 
and play ball with them, I cannot. I don't have the fingers to 
hold the ball. I can't even see it coming. I have sacrificed my 
pride, my dignity, and will never be free. Yet these terrorists 
are free to roam our streets here in America.
    I've been told also that they have served an inordinate 
number of years behind bars unjustly. Congressman Fossella, 
Mrs. Berger, Tom Connor have mentioned Terry Nichols. He wasn't 
there at the bombing in Oklahoma City at the Alfred P. Murrah 
Building, but he was complicit. He did plan that destruction. 
He did assist in the manufacture of that weapon.
    Let us take this a step further to total absurdity. Should 
we consider the freedom of Charles Manson? He's been in prison 
for 28 years and is now over 64 years old. He wasn't there at 
the time when the LoBiancos were stabbed to death or when 
Sharon Tate was killed. Should we consider his freedom, his 
human rights? What of our human rights?
    We here today speak for those that have been killed and 
injured in the past, who cannot speak for themselves. Have we 
forgotten the 168 lives lost in Oklahoma City--men, women, and 
innocent children? I ask those of you here present in this 
committee and in this room to look at us carefully. You should 
be seeing the mirror image of members of your own families. I 
wonder--I wonder how readily would you step forward to defend 
this President and his hypocrisy if your family members were 
seated at this table, if your grandchildren were blinded and 
had their limbs blown from their bodies. I wonder, Mr. Waxman, 
if you'd be there to defend the President and his choice of 
clemency. You should be ashamed of yourselves.
    If I have made you uncomfortable this morning, so be it. 
You should be uncomfortable. I will never be free. My partner 
and his family will never be free. Rocco Pastorella and his 
family will never be free till our Heavenly Father takes us 
home; then and only then will we be free.
    Don't let our suffering and pain be for naught. Don't let 
the lives sacrificed at Oklahoma City and the World Trade 
Center in New York be forgotten. Why were those lives 
sacrificed? To what purpose? For a headline? To bring notice to 
a political cause? Have any of those lives sacrificed and 
maimed furthered any of those causes one iota, one inch? No, 
not at all, and yet we continue to suffer daily. Who thinks of 
us, who here remembers? Very few. Certainly not Mr. Clinton.
    What part did Charlie Ruff play in this? I wonder. Was this 
a quid pro quo for his legal services in defending the 
President with the Monica Lewinsky debacle where America 
yawned, where everyone just nudged--nudged, wink, wink, say no 
more?
    Well, this is a totally different issue. This is where 
American lives and American blood has been shed here on our 
shores. I urge every one of you, I urge you, Mr. Chairman, 
don't let us down. Investigate this to the full. What is 
William Jefferson Clinton hiding and why?
    I thank you, each and every one. My apologies if I have 
made you uncomfortable, but I have to make my point the only 
way I can. I am privileged to speak here to exercise my right 
under the first amendment. The members of the FALN had that 
very same right and I don't disagree with that as long as it 
doesn't impinge on the rights and safety of others. Why, why 
have they chosen the bomb and the bullet when they had the 
civilized choice and more traditional choice of the power of 
the pen.
    Here, here in this wonderful government of ours we exercise 
freedoms daily. We live in safety, yet we take that safety in 
total complacency. No, there is a true danger lurking very 
close to us all every minute of every day, and when the next 
terrorist act occurs here at home upon us, Mr. Clinton will 
have to assume some of that responsibility because he has now 
set a new judicial standard. We can negotiate with terrorists 
even though he stands up before the American public and says we 
will never do so, we will pursue them to the ends of the Earth.
    Our Secretary of State, Madeleine Albright, says we will 
never forget the people who have lost their lives in Africa and 
in our embassies throughout the world. Innocent children killed 
and maimed on buses that were going by the building had nothing 
to do with any political statement, yet their lives were drawn 
into it as ours have been and to what purpose? For a 1-day 
headline in the paper?
    Is that all our lives mean? Are we expendable? I leave 
these questions for you to have answered. We have voted you 
into office to speak for us. Please do so.
    Mr. Burton. Thank you, Mr. Pastorella. That was a very 
eloquent statement. We appreciate the heartache you have had to 
endure.
    Mr. Fossella.
    Mr. Fossella. Thank you, Mr. Chairman. His partner that 
night, responding to a bomb threat, upon which they found Rocco 
Pascarella, who had lost his leg.
    It's my pleasure to introduce Detective Anthony Senft.
    Mr. Senft. I wanted to address this directly to Mr. Waxman. 
I just want to make a brief statement and read my formal 
statement as quickly as I possibly can. But please bear with me 
because I have one eye, but it's becoming more and more 
impaired as I get older.
    Contrary to his statement, Mr. Clinton's letter, both sides 
were not heard. Since 1997, my wife and I have been writing 
letters to our President. We've written four letters and one to 
Janet Reno. We have never received a response. I was on a talk 
show about 3 weeks ago with an activist called--her name is 
Alice Cordova. We got into the elevator. She is a very 
articulate lady. Like Rich's daughter-in-law, my daughter-in-
law is also Puerto Rican. I have a proud grandson and my son's 
in-laws live in Puerto Rico and have no recollection of what 
the FALN is doing in the United States or in their country.
    When I got into this elevator and I spoke to this 
articulate lady, she told me she had a sit-down interview with 
Mrs. Reno, and I cannot get a letter answered by sending one to 
her and four to my President. I am disgusted over that. I'm 
appalled as I think back; I still think it's America, and I 
still think that someone should have sent me some kind of 
correspondence.
    Members of the House, good afternoon. My name is Detective 
Anthony Senft, and I thank you for letting me address you 
today. I stand before you today not only as an American 
citizen, but also as a victim of terrorism, like my partner, a 
victim at the hands of the FALN. On December 31, 1982, while 
working for the New York City Police Department as a detective 
on the bomb squad, I was severely injured by one of five bombs 
placed by the FALN while my partner and I attempted to render 
it safe.
    On that day I received a lifelong sentence without the 
opportunity for parole, time off for good behavior, and no 
chance of clemency. My sentence includes five reconstructive 
operations on my face, the loss of my right eye--my left eye is 
deteriorating as we speak--and a 60 percent hearing loss in 
both ears, a fractured hip, severe vertigo, and the hell of a 
post-traumatic stress disorder. My only solace was the fact 
that 16 members of the FALN were serving prison sentences for 
crimes committed against American citizens.
    Now, 16 years later, American citizens and I are victims, 
once again, as the result of the terrorist acts of the FALN and 
the pandering of our President.
    President Clinton by his clemency decision makes a mockery 
of our Nation's policy of zero tolerance for terrorism. He 
speaks out of both sides of his mouth as he denounces terrorist 
McVeigh for his terrorist acts in Oklahoma and says publicly 
immediately following the horrible terrorist act against 
children in the Jewish Community Center in L.A. that America 
will not accept terrorism. Yet he released 16 convicted 
terrorists on that same day.
    Was it because of political pressure from special interest 
groups? We don't know.
    Clinton's actions tell would-be terrorists around the world 
that terrorism against the United States and its people is an 
acceptable form of demonstrating their political ideology. 
Terrorists need not fear the wrath of the American justice 
system any longer, for all they need do after destroying 
American property and lives is give a halfhearted, almost 
forced, apology and all will be forgiven.
    Congressmen, all is not forgiven. Terrorism against the 
United States can never be an acceptable form of political 
protest. President Clinton, by his clemency offer, released 16 
terrorists back onto the streets of America to commit more acts 
of terrorism against our families, your children, and my 
children. Some of the released, convicted terrorists are the 
same people who, while doctors worked feverishly to save my 
life and while family members rushed to my bedside, went to the 
radio and called the stations to claim responsibility for all 
five bombs. This same terrorist group has proudly taken 
responsibility for over 130 bombs in the United States and has 
killed 6 innocent people, as you previously heard, and maimed 
over 100 innocent victims; and now, again, they have put fear 
into America across this country.
    If this band of violent terrorists was so remorseful for 
their horrific acts, then why did it take 3\1/2\ weeks for them 
to agree not to--to admit any acts of terrorism on American 
soil and sign a statement attesting to that? And how do we 
trust convicted terrorists at this point?
    This committee must ask itself why the President would 
grant this clemency against the advice of law enforcement 
organizations whose job it is to give recommendations on the 
appropriateness of this clemency. Was it to gain favor for the 
Puerto Rican vote in New York for Mrs. Clinton's senatorial 
bid? Or was it simply another example of President Clinton's 
lack of moral character?
    What I'm concerned about is William Morales, the FALN self-
professed leader and convicted terrorist, seeking amnesty from 
our President. We must take a strong stand and affirmative 
stand against any amnesty for William Morales. Our duty as 
police officers and elected officials is to protect our fellow 
citizens against terrorists like Morales and the 16 terrorists 
granted clemency. I have done my best to protect the lives of 
my fellow New Yorkers and I have paid the price for that with 
no regrets.
    Now I ask that the Members of the House take a stand and 
enforce our Nation's policy of zero tolerance for terrorists. 
Our President has chosen to ignore that policy and the 
recommendations of the bureaus that oversee clemency requests. 
It is time for our Senate and our country to protect American 
citizens against terrorists and to punish those convicted of 
terrorizing our families and our Nation.
    Congressmen, I thank you this afternoon and I just want to 
say God bless America.
    [The prepared statement of Mr. Senft follows:]

    [GRAPHIC] [TIFF OMITTED] T0935.034
    
    [GRAPHIC] [TIFF OMITTED] T0935.035
    
    [GRAPHIC] [TIFF OMITTED] T0935.036
    
    [GRAPHIC] [TIFF OMITTED] T0935.037
    
    [GRAPHIC] [TIFF OMITTED] T0935.038
    
    [GRAPHIC] [TIFF OMITTED] T0935.039
    
    [GRAPHIC] [TIFF OMITTED] T0935.040
    
    [GRAPHIC] [TIFF OMITTED] T0935.041
    
    [GRAPHIC] [TIFF OMITTED] T0935.042
    
    [GRAPHIC] [TIFF OMITTED] T0935.043
    
    Mr. Burton. Thank you.
    I think now we will go to questioning. I will reserve my 
questions until later.
    Mr. Barr, would you like to start the questioning off?
    Mr. Barr. I don't have any questions, Mr. Chairman.
    I was very moved by both the eloquence and the heartfelt 
sincerity of the witnesses today. I appreciate their service to 
this country, their courage in coming forward and a special 
thanks to our colleague, Mr. Fossella, for his tireless efforts 
on this matter.
    You serve your constituents and this entire country with 
tremendous pride, Mr. Fossella. Thank you.
    Mr. Burton. Mr. Waxman, do you have any comments or 
questions?
    Mr. Waxman. I'll reserve my time.
    Mr. Burton. Mr. Davis.
    Mr. Davis. No questions.
    Mr. Burton. Mrs. Morella, do you have any questions or 
comments?
    Mrs. Morella. I certainly want to offer my condolences and 
my prayers, my feeling for your courageous acts of patriotism 
and what you have been through, the anguish to your families.
    I don't really have any questions, but I wondered, did the 
White House inform you of the clemency that was being offered 
by President Clinton?
    Mr. Senft. No, ma'am.
    Mrs. Morella. You found out about it when you read it in 
the paper?
    Ms. Ettenson. I'd like to say, I have tried to keep in 
touch with the New York Police Department for the past 24\1/2\ 
years to find out if there had been any changes in the case 
regarding Fraunces Tavern. I was always told that it was in an 
inactive file, so you can imagine my shock upon receiving a 
phone call on Monday, August 23, to be told about an article in 
the newspaper which was an interview in the New York Times of 
Joe and Tom Connor, who had heard about the clemency or had 
seen it in the paper.
    I had been on vacation August 11 or 12 when it was, I 
guess, slid through the papers. I was totally unaware that 
anyone connected with the FALN had ever been arrested.
    Mrs. Morella. Did the rest of you have the same kind of 
experience?
    Mr. Connor. I was well aware that there were several of 
them in jail and under long prison terms. But last year on the 
100th anniversary of Puerto Rico becoming a U.S. territory, 
there was some discussion of this clemency becoming--it became 
popular in Puerto Rico to discuss it as a gesture. But when it 
didn't happen last year, we figured then that was the end of 
it. So my family was shocked to read in the newspaper on the 
11th, or I suppose the 12th, that the 16 had been offered the 
clemency.
    Mr. Senft. My position is, I just don't understand why I 
can't get my White House and my Attorney General to answer any 
letters--I've--I started this campaign in 1997 with my wife, 
and they refuse to respond to it--when the activists can get a 
sit-down meeting with Janet Reno.
    Mr. Fossella. If I may, Congresswoman Morella, as I 
mentioned, the testimony, I think reinforced by folks here, is 
that some of the advocates for the release of these terrorists 
have been meeting regularly with--I'm not sure about the 
Attorney General herself, but I know at least the Deputy 
Attorney General, and also with Mr. Quinn, who is the former 
White House counsel. So advocates have had the opportunity over 
the last several years to meet, I guess at a minimum, twice, 
and who knows how many; and I know what I'm saying is, these 
people have been asking for the same level of courtesy without 
even a phone call or a letter back.
    Mrs. Morella. I want to thank you for appearing before us. 
I'm saddened at what you have experienced. I thank you for it, 
for your courage. I'm sorry you have to go through it again at 
this particular time.
    And thank you, Congressman Fossella, for being there and 
following so closely and for being close to these poor people 
who have been victimized.
    Thank you, Mr. Chairman. I yield back.
    Mr. Burton. Thank you, Mrs. Morella.
    Mr. Waxman.
    Mr. Waxman. Thank you, Mr. Chairman.
    I want to thank each and every one of you for being here 
today, and I wish you'd had an opportunity to say what you said 
to us today to the President. But I've always strongly felt, 
and I understood the law was, that before a parole board would 
parole anybody from prison that the victims had a right to come 
in and testify.
    I don't know why--and I asked my staff, and they don't know 
the answer to this--why--after the President made his decision 
to reduce the sentence, why the parole board didn't ask you to 
come in and have a hearing on the matter. I think you've gone 
through--all of you, through a great deal. Even to testify here 
today had to be a hardship. You were scheduled last Thursday; 
we were called off because of the hurricane. I think all of you 
testified in the Senate.
    By what you said today and the intensity of the feelings 
that you have about this matter--I am moved by your intensity. 
And I don't know all the arguments that the President had 
heard, and he has not shared them all with us, but he indicated 
to us today in this long letter, which I read, his thinking 
about the matter; and I was struck by the argument that this 
action would be a sign to the world of a humanitarian gesture. 
And I was so offended.
    This was something that he said former President Jimmy 
Carter suggested.
    I remember the days when I went to the Soviet Union to 
plead for prisoners of conscience, and the Soviets would come 
back and use these people from the FALN as political prisoners. 
Each one of these individuals was convicted of serious crimes. 
They were not political prisoners, even though they thought 
they could break the law for their political point of view.
    Mr. Pastorella was very eloquent in saying we have an 
amendment to the Constitution that gives people the right to 
petition their citizens and their government if they want to 
change things, and we also heard from the delegate of Puerto 
Rico that their views are not the majority views of their 
fellow Puerto Ricans for independence.
    In my mind they are in no way political prisoners. They 
shouldn't have been thought of as political prisoners. They 
were terrorists and criminals and convicted of it and sentenced 
to prison appropriately.
    The question the President had to decide was, on each 
individual case, whether he would commute or lessen the 
severity of the sentence for whatever reasons; and he argued 
that the sentencing guidelines wouldn't provide for the length 
of time that they were given consecutively to serve.
    That decision and any decision about a person has to be on 
an individual basis. Does the punishment fit the crime for that 
individual? If we are talking about if people who participated 
in the FALN and engaged in terrorist activities should be 
treated alike, well, if they are going to be treated alike they 
definitely should be locked up and kept locked up. There should 
be no negotiations with terrorists, and it galls me when they 
are talked about as political prisoners or anything in that 
general category.
    I was as appalled when I heard about the negotiation that 
we had with the Iranians by the Reagan White House where we 
exchanged weapons for hostages, and I had serious misgivings 
when I heard about the negotiations where members of the so-
called Palestinian Liberation Organization were supposed to be 
freed as political prisoners when many of them participated in 
killings. And I am moved when I hear Mr. Fossella and others 
say are we going to look back in a couple of years and say the 
people from Oklahoma ought to be looked at with the idea of 
giving them clemency. I don't care who in the world might want 
to say that the people who bombed Oklahoma City may be viewed 
as political terrorists--they were murderers. So I do not think 
that we ought to view it in that general way.
    What the President said he did was look at each case and 
make his decision. I don't know that I would have come up with 
the decision that he made. I probably would not have. But I did 
not get the benefit of all that he heard.
    And I was pleased in his letter that he made it very clear 
that many who supported unconditional clemency argued that they 
were political prisoners who acted out of sincere political 
beliefs and he rejected that argument. That argument should 
clearly be rejected and should never be given legitimacy as far 
as I'm concerned.
    I just wanted to say these few words. I don't have any 
questions to ask of any of you. There is nothing that I can ask 
you that you haven't said, and you said it very movingly, and I 
thank you for being here. The President's decision was, as he 
said, on each one individually. Whether he is right or wrong, 
we will have to try to get as much information as we can to 
make a judgment. So far, the judgment of my colleagues in the 
Congress is that he is wrong and that his actions have been 
condemned.
    Thank you, Mr. Chairman.
    Mr. Burton. Thank you, Mr. Waxman.
    Mr. Horn.
    Mr. Horn. Thank you, Mr. Chairman.
    Each of you has made a very eloquent statement, and I think 
all of us are moved by that. And I have often been moved when 
the victims come out because, unfortunately, in our system we 
do not yet have a requirement that, before people are 
sentenced, the victims and their representatives--because 
usually they are dead--the victims should have a right to say 
something. And you have said it, and you have said it well.
    One of you said hypocrisy. Others said questions need to be 
asked. You are absolutely correct on both counts, and the 
reason we have several committees looking at this is because we 
never easily get an answer to a question, just a simple 
question. And the only way you get it on Capitol Hill today is 
to issue subpoenas and, if they continue to act in contempt of 
Congress, to make a contempt of Congress citation.
    Now, some day it will all come out. Somebody on their 
deathbed or something maybe will want to clean their conscience 
on this and say, I said to the President this, this, and this. 
But at this point that is what we have gone through for 6 solid 
years, is not getting the answers to the questions that have 
been asked, ought to be asked, and should be asked.
    I thank you, Mr. Chairman. I assume we will do the asking.
    Mr. Burton. Thank you, Mr. Horn.
    Mr. Towns, do you have any questions or comments?
    Mr. Towns. No, I don't have any questions, Mr. Chairman, 
but I would like to make a statement.
    The clemency offers were conditioned on each individual's 
agreement to renounce violence and to accept restrictions of 
their constitutionally guaranteed rights of travel and 
association. International human rights groups, church groups 
have called these 16 people political prisoners and have 
questioned America's commitment to human rights. Human rights 
groups argue that these 16 individuals received oppressively 
long prison sentences because of their association with radical 
groups.
    I would like to remind everyone here today that rights of 
association is protected by the first amendment of the 
Constitution. The President has stated that his decision was 
based on a lengthy and intense lobbying campaign by human 
rights activists, prominent civil rights leaders and churches 
and even Members of the U.S. Congress. It would seem to me that 
would be the end of it. The grant of clemency and pardon are 
solely and uniquely within the privilege of the President. The 
Constitution does not require or even suggest mildly that he 
should consult with Members of this body or anyone in his 
deliberations on clemency and pardon petitions.
    I understand that, in 1974, this committee held a hearing 
to examine President Ford's decision to pardon Richard Nixon. I 
believe that was a legitimate oversight exercise because Ford, 
after all, was appointed by Nixon and then pardoned Nixon from 
all future criminal penalties. It looked like a fix was in, and 
the executive branch had worked to undermine legitimate 
congressional actions. Nothing like that has happened here.
    In addition to Ford's pardon of Nixon, there are a few 
other instances of pardons which, if we are going to be in this 
examining business, that we should examine. For instance, we 
should examine George Bush's pardon of Armand Hammer for 
breaking campaign finance laws. We should examine Bush's pardon 
of several people who lied to Congress in connection with the 
Iran-Contra scandal. We should examine Bush's pardon of dope 
smugglers. Or we could just move on and hold hearings on the 
real concerns of the average American person.
    I suggest that we conduct oversight of the government's 
programs and services that have a real effect on the lives of 
average Americans. Topics like the minimum wage, the Federal 
response to the flooding in the wake of Hurricane Floyd, the 
racially motivated hate crimes that are going on all over this 
country, or the epidemic of school shootings. These are all 
topics within this committee's jurisdiction which we have never 
had a full committee hearing about.
    So, Mr. Chairman, please, please, return to the serious 
business of this country and the things that we really should 
be about, rather than sort of meddling in something that we 
really have no jurisdiction over whatsoever. And on that note, 
I yield back the balance of my time.
    Mr. Burton. Mr. Ose.
    Mr. Ose. I yield 2 minutes to the gentleman from New York, 
Mr. Fossella.
    Mr. Fossella. I thank the gentleman.
    I just want to clear the record briefly. It has been argued 
that a lot of people support clemency. Cardinal O'Connor had to 
go to the extreme step of actually publishing in a weekly 
newsletter that he publishes that he did not request clemency. 
He merely asked for it to be reviewed.
    And I have a letter here signed by, I believe, Bishop Tutu 
or someone on his behalf where he writes: Dear Mr. President, I 
have received an appeal from the bishop of Puerto Rico for 
assistance in obtaining the release of 15 Puerto Rican 
prisoners presently held in San Francisco. The bishop believes 
that these people have been wrongly imprisoned and appeals to 
your office for their release on humanitarian means. My first 
letter of appeal was directed to the United States Ambassador 
here. Now I appeal to your office on behalf of my brother 
bishop to consider clemency for these prisoners.
    It doesn't seem like there is an outright support for 
clemency, according to Bishop Tutu. But in response to Mr. 
Towns's comments about the right to associate, you already 
understand the rights that have been deprived to each of these 
individuals as well as others who have been killed and maimed. 
But it is clear by the sentencing guidelines Code of Federal 
Regulations Title 28, Judicial Administration Chapter 1, 
Department of Justice, that the parolee shall not associate 
with persons who have a criminal record unless he has 
permission of his probation officer.
    So it is not out of the ordinary that these folks should be 
denied the opportunity to associate with one another. Indeed, 
it is common practice.
    And that's part of the reason, Mr. Chairman, if you recall, 
that for those several weeks while these prisoners claim to 
have rejected the offer of clemency because they feared that 
they would not have the right to associate with each other, the 
condition hanging over their head for the acceptance of that 
offer that they would be, according to press reports, they were 
not allowed to associate upon release. Indeed, that's why two 
rejected--could have been for renouncing violence, could have 
been for the point that they could not associate with each 
other, but two rejected the offer. So we were told or led to 
believe that they would not be allowed.
    Well, in 2 days there is supposed to be a rally, so we 
hear, in Puerto Rico where they are going to be allowed to 
associate with each other. So I suggest that we were 
misinformed for the last several weeks, and I don't think it is 
out of the order for someone in their capacity to be precluded 
or prohibited from associating.
    So I thank the gentleman for yielding.
    Mr. Ose. Reclaiming my time, Mr. Chairman. Mr. Towns 
suggested or implied that he had a copy of the actual offer to 
the terrorists that were released. I find it interesting that 
in my packet provided by committee staff I don't yet have a 
copy of that; and, if possible, I would like to get what he was 
referring to admitted into the record if it exists.
    Finally, recognizing my time is short, I want to be clear 
on something. I don't have enough time to do justice to the 
questions that I wish to ask today of this panel. I find it 
ironic that someone references the epidemic of school shootings 
and yet chooses to ignore the school bus that was going along 
in front of the Fraunces Tavern at the time the explosion went 
off and the children who were on that bus. I find it ironic, 
and I would wish for a little clarification from committee 
staff, about the apparent dichotomy between our present debate 
over gun control issues and the various and sundry weapons and 
explosive charges that these people were convicted of and then 
subsequently now been released from prison for. My question is 
whether or not the weapons and explosives charges that these 
folks were convicted of would also be felonous now and subject 
them to imprisonment in the current regime.
    And, finally, if I could get some clarification, it is my 
understanding that it is a legal requirement that when Federal 
prisoners are to be released that the victims of their acts be 
notified. If that is the case and it did not occur, what is the 
consequence of that having not occurred?
    I yield back, Mr. Chairman.
    Mr. Burton. The gentleman yields back the balance of his 
time. Do any other Members have questions--Mr. Hutchinson? Did 
you have a question, Mr. Barr? Mr. Miller? I am sorry. Mr. 
Miller.
    Mr. Miller. Thank you very much for being here today. It is 
a tough position to be in, I know.
    What involvement did you have as detectives in 
investigating the FALN before the bombing that, of course, did 
so much harm to you? Did you all have any involvement in the 
investigation of such prior to that?
    Mr. Pastorella. Is that question addressed to me?
    Mr. Miller. Both of you.
    Mr. Pastorella. Before I was a bomb squad detective I was 
assigned to the crime scene unit of the New York City Police 
Department, and we specifically addressed issues concerning the 
bombing at Fraunces Tavern, a bomb at the Mobil Corp building 
where a man was killed and three injured. So we had 
acquaintances with the FALN through those investigations.
    If I may also address Mr. Towns on one particular issue, I 
find it very ironic when he mentions shootings at the schools, 
the epidemic of the shooting at the schools and, more recently, 
the shooting at the Baptist church in Fort Worth, TX, where 
innocent young people were killed by a maniacal person, when 
Mr. President Clinton has just released two, Ricardo Jimenez 
and Elizam Escobar, who were also convicted of having in their 
possession unregistered, loaded firearms, transporting firearms 
over State lines, also having a van full of automatic weapons. 
Isn't that ironic that they were released by the very same 
President who decries these laws that we have that are not 
appropriate and not strong enough?
    I say to you that the only deterrence that we have today is 
certainty of penalty, and that is what Mr. Clinton has 
eliminated from our system: certainty of penalty.
    Mr. Fossella. If I may, Mr. Miller, just--there were FBI 
officials who did nothing but practically track the FALN 
throughout 1970's and 1980's, and I think Director Freeh was 
before the Congress a couple of years ago and others have 
testified that they are one of the most efficient and deadly 
terrorist organizations. That is why they required a number of 
FBI agents to track the FALN.
    Mr. Miller. Are there any other FALN in prison today, do 
you know? Maybe the next panel will be able to answer that.
    Mr. Senft. One of the leaders is William Morales, who is in 
Cuba, and he is looking for amnesty. He wants to come back in 
the country. That is the next thing. That is what I am 
concerned about.
    Mr. Fossella. There are also at least two that we are aware 
of because they rejected the offer of clemency.
    Mr. Senft. And he didn't apologize. In 1997, they had a big 
article of him in the paper recently, and he said he does not 
apologize to anybody that was maimed or killed, that he is a 
freedom fighter. He is a murderer and a terrorist.
    Mr. Miller. Thank you, Mr. Chairman.
    Mr. Burton. Mr. Hutchinson.
    Mr. Hutchinson. I thank the Chair, and I am grateful for 
each witness and their testimony and the light that you have 
brought to this particular subject.
    It is deeply troubling to me that, in a day when we have 
proponents here in Congress advocating a victims' rights 
amendment to the Constitution, that we do not even have 
notification to victims of a clemency that affects their lives 
so dramatically. And I just think that is an interesting 
contrast. I think it would be interesting to look at the 
language of that amendment to see what it says about 
notification of rights, notification to victims pertaining to 
their rights.
    And I am also mindful that when I was a U.S. Attorney one 
of the things that we moved toward was having a victims' rights 
coordinator in each U.S. Attorney's office. So this Department 
of Justice has a requirement for each U.S. Attorney to notify 
victims to keep them informed as to what is happening in a 
particular case that affects them, whether there is restitution 
that is involved, what their feelings are toward the punishment 
aspect of it. The probation officers have a responsibility to 
contact the victims of offenses within the Department of 
Justice, and so this is a rule that each U.S. Attorney has to 
operate under here in this country, under the Department of 
Justice, under this administration.
    And then it is my understanding from each of you that, 
prior to the grant of this clemency, you had no notification 
and that you learned it in the newspaper. That is just 
extraordinary to me, and I just think that contrast ought to be 
noted, and I think it is a legitimate issue.
    Mr. Towns made the point that, well, do we have any 
oversight responsibility? And he referred back to whenever 
Gerald Ford pardoned Richard Nixon and we did exercise 
oversight responsibility in the Congress. I certainly wasn't 
here. But that happened.
    And I thought also, well, how did President Ford respond to 
that? There was an opportunity for him to claim executive 
privilege. There was an opportunity for him to assert the fact 
that he didn't want to discuss this with the U.S. Congress. But 
the action that President Ford took was to come before, 
actually, the Judiciary Committee and appeared as one of the 
only Presidents ever to testify in Congress and to explain not 
only what went into his decision but also to answer every 
question of the Congress of the United States on that issue. 
And you have to contrast that as well with this administration 
that asserts executive privilege and will not stand here and 
explain what led to this extraordinary grant of clemency.
    And so you have got the notification of victims' issue. You 
have got the procedure issue as to what is followed that 
precedes a grant of clemency.
    I have a lot--I am sure every member of this panel has a 
lot of requests from individuals in their district that were 
convicted of some offense, minor or not minor, regardless, they 
are interested in a pardon. And we tell them the procedure to 
follow. There is an office of pardon in the executive branch. 
And it is not an easy route. We have all worked on that. And 
then it is certainly within the prerogative of the President to 
grant a pardon on a clemency. But we try to follow procedures 
so there is some element of fairness, some element of fairness 
in the way that this extraordinary power is administered.
    And, finally, I just want to remark that I believe that 
clemency and pardons is an appropriate use of the executive 
branch. I have no dispute about that, and I would not want to 
diminish the authority of the President in that regard. It 
should be used in times of compassion, in mercy, and in areas 
where there has been an injustice in the system.
    But whenever we have under these circumstances a lack of 
remorse that has been expressed, when we have an overriding of 
the advice of law enforcement, whenever we have no notification 
of the victims, I do not believe that is an appropriate use, 
even though it is a constitutional use of the clemency 
authority.
    And so, Mr. Chairman, I apologize for not asking a whole 
lot of questions here, but I just wanted to respond and make 
those remarks, and I would be happy to leave it open if anyone 
had any response to the statements that I just made.
    Mr. Waxman. Will the gentleman yield?
    Mr. Hutchinson. Happy to yield, Mr. Waxman.
    Mr. Waxman. I strongly support what you say about the 
rights of the victims to be heard, and I am also troubled at 
the failure to express remorse on the part of these 
individuals.
    I disagree with Mr. Towns who argued we shouldn't apply any 
conditions. Conditions are often put on any kind of leniency. 
But I do think there is a distinction to be made. Presidents 
don't always come before the Congress to explain their actions, 
and they have asserted executive privilege all the way from 
George Washington to George Bush as to all the input they had 
in advice from their staff on those decisions.
    But your criticism is well taken when Mr. Towns suggested 
that President Ford in some way did not come forward. He did, 
and he did testify. And of course the magnitude of having 
pardoned President Nixon was the kind of thing where a 
President needed to personally come forward before the 
Congress.
    The President has now finally expressed his views as to the 
decision he made, and whether we agree with that decision or 
not will depend on a lot more input from people that he heard 
from and we have not.
    Mr. Hutchinson. I thank the gentleman for his comments.
    I yield back.
    Mr. Burton. I am the last 5-minute person.
    First of all, I would like to thank all of you for being 
here and testifying. I know it is difficult to open old wounds, 
and you have had to do that a number of times recently.
    The No. 1 responsibility of the Government of the United 
States is to protect its citizens from enemies, both foreign 
and domestic. And terrorists any place in the world that 
threaten the lives of Americans falls in the category of 
enemies foreign or domestic.
    And in this particular case, it appears as though our 
government has failed or made a mistake by allowing people who 
are associated or involved with a known terrorist organization 
that perpetrated all kinds of horrible acts on American people 
and killed a lot of them, it appears there has been a failure 
here. To those of you who suffered, I apologize for that. We 
will continue to try to find every answer as to why these 
people are back on the streets. And I pray to God that this 
will not start a new reign of terror either by these people or 
their fellow terrorists.
    With that, thank you very much for being here today. We 
appreciate your testimony.
    We will now go to the next panel. We now welcome Neil 
Gallagher, Michael Cooksey and John Jennings to the table.
    While they are coming forward, let me just say that Mr. 
Gallagher is the Assistant Director of the Federal Bureau of 
Investigation; Michael Cooksey is an official with the Bureau 
of Prisons; and Jon Jennings is Assistant Attorney General with 
the Department of Justice.
    [Witnesses sworn.]
    Mr. Burton. Do any of you have an opening statement?
    Mr. Cooksey, you have an opening statement.

   STATEMENTS OF MICHAEL B. COOKSEY, ASSISTANT DIRECTOR FOR 
CORRECTIONAL PROGRAMS, BUREAU OF PRISONS; JON JENNINGS, ACTING 
ASSISTANT ATTORNEY GENERAL FOR LEGISLATIVE AFFAIRS, DEPARTMENT 
OF JUSTICE; AND NEIL GALLAGHER, ASSISTANT DIRECTOR FOR NATIONAL 
           SECURITY, FEDERAL BUREAU OF INVESTIGATION

    Mr. Cooksey. I have an opening statement.
    Mr. Chairman, members of the committee, I appear before you 
today on behalf of the Federal Bureau of Prisons in regard to 
the grant of clemency to 16 current and former Bureau of 
Prisons inmates who were members of the Armed Forces National 
Liberation, commonly known as the FALN. In general terms, I 
will describe the Bureau of Prisons's role in the executive 
clemency process, the Bureau of Prisons's telephone records 
procedures, and assistance the Bureau of Prisons provides to 
law enforcement agencies and others in computing sentences 
based on hypothetical sentencing changes. And I am also 
prepared to speak generally about the behavior of the 16 FALN 
inmates while in the custody of the Federal Bureau of Prisons.
    In my capacity as the Bureau of Prisons Assistant Director 
of Correctional Programs, I am responsible for developing 
national policy and oversight requirements for many aspects of 
institution operations including prisoner transportation, 
sentence computations, mail room operations, receiving and 
discharge, emergency preparedness, chaplaincy services, 
psychology services, drug treatment programs, intelligence 
gathering, security programs and programs for inmates with 
special needs.
    Each of the Bureau's six regional directors has direct 
oversight responsibility for the institutions in their regions. 
Each region has 15 or more institutions. There are more than 
116,000 inmates in the Bureau's 94 institutions, and there are 
another 16,000 Federal inmates in facilities under contract 
with the Bureau of Prisons.
    The Bureau of Prisons' policy regarding the provision of 
commutation of sentences directs the Bureau of Prisons' staff 
to provide inmates with appropriate forms and instructions for 
filing petitions for commutation of sentence. This policy 
further provides that staff suggest to inmates that the 
petitions be sent through the warden to the Pardon Attorney, 
thereby permitting institution staff to forward necessary 
paperwork to the Pardon Attorney, including presentence reports 
and progress reports.
    When the Pardon Attorney needs additional information, he 
is expected to contact the warden of the institution where the 
inmate is housed, and the warden provides the requested 
documents to the Pardon Attorney. The Bureau of Prisons also 
makes available to the Pardon Attorney direct access to our on-
line inmate information system which provides data on inmate 
rule violations and inmate adjustment, including work 
assignments and program participation. Neither the original 
packets nor subsequent information from the warden contains any 
recommendations from the Bureau of Prisons regarding the merits 
of the case.
    This policy further provides that, when specifically 
requested by the Pardon Attorney, the Director of the Bureau of 
Prisons submits a recommendation on a petition for sentence 
commutation. This recommendation, which may be based on 
comments received from the warden at the institution where the 
inmate is housed, is forwarded to the Pardon Attorney.
    There have been media reports regarding information gleaned 
from telephone conversations between FALN inmates and members 
of the public. The Bureau of Prisons records all inmate 
telephone calls made on inmate telephones. All inmate 
telephones contain signs notifying the inmates that such calls 
are recorded. If inmates wish to call their attorneys, they 
must contact the staff member who will place the call, if 
approved, on a telephone that is not recorded and not 
monitored. Records of inmate calls are retained at the 
institution from which the calls were placed for a period of 
time.
    The Bureau of Prisons is responsible for computing 
sentences for all Federal inmates. The sentence computation is 
a mathematical method of determining the various components of 
a sentence to imprisonment. There are many Federal statutes 
that govern sentence computation and many court decisions which 
pertain to sentence computation. Bureau of Prisons staff have 
substantial expertise in this regard. On occasion, Bureau of 
Prisons' staff are asked to provide assistance to other 
agencies or components, including the Pardon Attorney, U.S. 
Probation Officers, U.S. Attorneys, defense attorneys and the 
courts, when changes are being considered to inmates' 
sentences.
    Of the 16 inmates who were offered clemency on August 11, 
1999, 14 were in Bureau of Prisons' custody at the time the 
offer was made. Three of the 16 inmates are still in the Bureau 
of Prisons' custody. Two were offered sentence reductions but 
not an immediate release, and one of those refused to sign the 
offer. A third inmate was given relief only with respect to the 
unpaid balance of his fines. That individual had previously 
satisfied his sentence and been released from custody under 
supervision but was returned for violating the conditions of 
his release.
    Given the voluminous records that some inmates have as a 
result of spending many years in Federal prisons it was 
impossible to carefully review the complete records of these 
inmates, but I have reviewed the information available through 
our automated information systems, and I have reviewed written 
summaries prepared by institution staff regarding the inmates' 
current progress. All medically able Bureau of Prisons' inmates 
are required to work. Additionally, the inmates in question 
completed a variety of educational and vocational training 
programs in addition to assorted other self-development 
programs at our institutions.
    Mr. Chairman, that concludes my remarks.
    [The prepared statement of Mr. Cooksey follows:]

    [GRAPHIC] [TIFF OMITTED] T0935.044
    
    [GRAPHIC] [TIFF OMITTED] T0935.045
    
    [GRAPHIC] [TIFF OMITTED] T0935.046
    
    [GRAPHIC] [TIFF OMITTED] T0935.047
    
    [GRAPHIC] [TIFF OMITTED] T0935.048
    
    Mr. Burton. Mr. Jennings.
    Mr. Jennings. Mr. Chairman, Mr. Waxman, distinguished 
members of this committee, my name is Jon Jennings. I have been 
the Acting Assistant Attorney General in the Office of 
Legislative Affairs since April of this year.
    The Office of Legislative Affairs serves as the liaison to 
Congress for the Department and implements the legislative 
strategy to carry out the Attorney General's initiatives 
requiring congressional action. The Office articulates the 
Department's views on congressional legislative initiatives and 
responds for the Department to requests and inquiries from 
congressional committees, individual Members and their staffs. 
The Office facilitates and coordinates the Department's 
response to congressional oversight inquiries as well as the 
appearance of Department witnesses before congressional 
committees.
    I want to begin by extending my and the Department's 
deepest sympathy to those whose lives were tragically affected 
by FALN criminal conduct. There can be no question that they 
and their families have suffered tremendous pain and loss. 
Nothing in my testimony today should in any way be understood 
as disrespect for the tragedy suffered by those from whom you 
have heard today.
    Mr. Chairman, I was raised about 60 miles from you in 
Indiana, and I was raised to respect and admire members of the 
law enforcement community as American heroes, and I wish there 
was something that I personally could do to take away their 
pain and suffering that has been caused by these cowardly acts 
of violence.
    As you know, Mr. Chairman, the Department has produced 
thousands of pages of records in response to your September 1st 
subpoena. We have provided records from the Bureau of Prisons 
and the Parole Commission regarding the 16 individuals who were 
named in your subpoena, including judgment and commitment 
orders, petitions for clemency, presentence reports, and 
reports about their conduct in prison. We are processing 
additional documents, including any tapes of their telephone 
conversations while in prison that may exist and other 
nonprivileged records relating to the clemency petition. Today 
we are providing additional records and continuing our efforts 
to respond to your subpoenas. We're also prepared to produce a 
large number of letters from the public supporting the clemency 
petitions, although your staff may first wish to review samples 
of them since many of them are largely identical form letters 
and petitions.
    In addition, at the request your Chief Counsel, Mr. Wilson, 
I arranged for the Pardon Attorney to brief staff of this 
committee on the pardon process. We are also gathering 
documents in response to your September 16th subpoena and will 
provide with you nonprivileged records as promptly as possible.
    As the committee knows, the Department of Justice acts as a 
confidential advisor to the President in connection with the 
exercise of his constitutional authority to grant pardons. 
Because the pardon power is an exclusive constitutional 
prerogative of the President, we have historically declined to 
disclose the substance of the Department's advice and 
communications to the President concerning these decisions.
    As Attorney General Mitchell Palmer explained some 80 years 
ago to a congressional committee, ``The President in his action 
on pardon cases is not subject to the control or supervision of 
anyone, nor is he accountable in any way to any branch of the 
government for his action, and to establish a precedent of 
submitting pardon papers to Congress or to a committee of 
Congress does not seem to me a wise one.''
    In addition, the disclosure of advice that members of the 
executive branch gave to the President would have a chilling 
effect on the frank exchange of views that the President needs 
in order to receive full and accurate advice.
    In response to this committee's subpoenas to the Department 
and to the White House, the President has asserted executive 
privilege as to some of the subpoenaed documents and certain 
areas of testimony that the committee seeks. As I indicated in 
my letter to you dated September 16th, the President has 
asserted privilege with respect to: No. 1, advice and other 
deliberative communications to the President regarding his 
clemency decision; No. 2, deliberative documents and 
communications generated within and between the Department of 
Justice and the White House in connection with the preparation 
of that advice; and, No. 3, testimony by Department officials 
concerning executive branch deliberations in connection with 
the clemency decision.
    Consistent with the President's privilege assertion, I can 
provide a limited amount of nonprivileged information 
concerning the Department's role as advisor to the President on 
clemency matters. The petitions for commutation were submitted 
to the Department in 1993. In accordance with Department 
regulations, the Department submitted a written report and 
recommendation to the White House in 1996 which stated whether, 
in the words of the regulation, the President should grant or 
deny the petition for clemency.
    In light of the President's assertion of privilege, I am 
not at liberty to disclose the contents or substance of that 
report or recommendation. I can, however, tell you that the 
clemency review process did not end with that submission and 
that there were subsequent communications on the subject of 
clemency between the Department and the White House.
    I cannot tell you anything more about those later 
communications because they are the subject of the President's 
assertion of executive privilege. I can, however, pledge to you 
that we have made and will continue to make every effort to 
provide the committee as soon as we can with the remaining 
responsive documents for which the President doesn't assert his 
privilege; and I look forward to working with your staff.
    [The prepared statement of Mr. Jennings follows:]

    [GRAPHIC] [TIFF OMITTED] T0935.049
    
    [GRAPHIC] [TIFF OMITTED] T0935.050
    
    [GRAPHIC] [TIFF OMITTED] T0935.051
    
    [GRAPHIC] [TIFF OMITTED] T0935.052
    
    [GRAPHIC] [TIFF OMITTED] T0935.053
    
    Mr. Burton. Mr. Gallagher.
    Mr. Gallagher. Mr. Chairman, again, my name is Neil 
Gallagher. I am Assistant Director of the FBI's National 
Security Division with responsibility for counterterrorism and 
counterintelligence. The FBI uses a very simple definition of 
terrorism; and, if I may, I will quote it. It is the unlawful 
use of force or violence against persons or property to 
influence or intimidate a government, the civilian population, 
or any segment thereof in furtherance of a political or social 
cause.
    The FBI first learned of the existence of the FALN back on 
October 26, 1974, when they issued a communique taking credit 
for the five bombings in New York. In the next decade, their 
activities resulted in 72 actual bombings, 5 deaths, 83 
injuries, and over $3 million in property damage.
    The other terrorist organization that you heard of today, 
the Los Macheteros, first became known to the FBI and to the 
world in 1978 when they issued a communique taking credit for 
the murder of a Puerto Rican police officer by the name of 
Julio Rodriguez. That murder was on August 24th, 1978. At the 
time of their communique, they also provided an explanation. 
They indicated they did not intend to kill Police Officer 
Rodriguez, they only wanted to take his weapon, his badge, and 
his car.
    Subsequent to that activity, in 1979 the Macheteros were 
involved in a series of eight bombings in 1 day and, as was 
discussed earlier today, an ambush of the U.S. Navy bus 
resulting in the death of two U.S. Navy personnel.
    In 1981, they destroyed nine U.S. fighter jets that were 
being stored on the island of Puerto Rico. They were also 
involved in a Wells Fargo robbery in Santurce, Puerto Rico, 
which resulted in the loss of $341,000.
    In 1982, they ambushed four sailors returning to a ship, 
resulting in the death of one sailor.
    In 1983, they were engaged in a rocket attack against the 
Federal building which housed the FBI, just barely missing the 
offices of the FBI in San Juan, Puerto Rico.
    On September 12th, 1983, they came to the United States for 
their activity and were a part of the Wells Fargo terminal 
armored car robbery up in West Hartford, CT, resulting in the 
loss of approximately $7.1 million.
    In 1986, they again returned to bombings at U.S. Government 
facilities throughout Puerto Rico, 10 bombings in 1 day.
    In 1988, they bombed the U.S. Army-Navy recruitment 
station.
    In 1989, there were two bombs at a shopping plaza in Puerto 
Rico.
    If you turn to the charges that the FALN subjects in 
Chicago were charged with and you look at the indictment and 
you realize that the indictment speaks not only to seditious 
conspiracy but talks about the involvement in 28 bombings, I 
think you also have to focus in that these bombings were at 
banks, stores, office buildings, government buildings, more 
importantly, they were in highly densely populated areas.
    I am taken, as I listened to the prior testimony of the 
previous panel, in particular the two New York City police 
officers who responded to the bombings in New York, much has 
been said that there has not been any loss of life for these 28 
bombings. The only thing that separates that is that there was 
not a Chicago police officer who happened to come across 1 of 
these 28 bombs. The reality is that these bombings were placed 
with upwards of six sticks of dynamite. They had electronic 
devices on them, so there were timing devices. Whoever placed 
the bomb placed the bomb and walked away.
    On November 3rd, 1976, we located a bomb factory at 2659 
West Haddon Street, Chicago. We had determined that at one 
point there were in excess of 200 sticks of dynamite in this 
bomb factory. Again, of significance is the reality that this 
bomb factory was located in a densely populated area.
    On March 15th, 1980, there was an armed takeover of the 
Carter-Mondale headquarters in Chicago. Again, there was no 
loss of life. However, armed individuals came in and took over 
the political headquarters; and, by luck, there was no 
incident.
    On April 4th, 1980, the FALN subjects were arrested. I 
think it is fair and we should focus in on the events of that 
day. There were two subsequent series of events that resulted 
in their arrest.
    First, there was an arrest by the local police of two 
individuals in a stolen van. At the same time, they received a 
call from a citizen that saw some suspicious activity. He saw--
this citizen saw an individual in jogging clothes running 
toward a van stopped on the highway to have a cigarette, called 
the Evanston, IL, Police Department who responded. One police 
officer responded. Fortunately for him, he called for backup 
immediately, because in the van were the remaining FALN 
subjects.
    What they had done was to place in stolen vehicles in the 
general area--the van was their point of debarkation from and 
what we believe to be a point from which they would rob an 
armored truck. What was in the van--and you cannot place any 
one weapon to any one individual, but there were shotguns, 
rifles, revolvers, semiautomatic pistols and automatic pistols 
in the van.
    August 30th, 1985, we arrested 20 members, collaborators of 
the Macheteros, with respect to the $7.1 million armored car 
terminal robbery in West Hartford, CT. Of those 20, 7 have been 
convicted, and 6 have pled guilty, resulting in 18 individuals 
either being convicted or remaining as fugitives.
    Of particular concern to the FBI is the fact that, of the 
$7.1 million, most of it has not been recovered. We know that 
some of the money went to Cuba. We know that a good portion of 
the money was utilized to fund the operation of the Macheteros.
    That brings me to the question which I think we should look 
at today, is there a current threat with respect to the FALN 
and Macheteros?
    First of all, if you look back at 1980 and 1985, it had its 
initial desired results. There was a serious reduction in the 
bombings. There was a serious reduction in the loss of life. At 
the same time, the FALN were extremely quiet. And there was a 
purpose behind this. They were committed to try to secure the 
release of their comrades who were in prison.
    At first, there was an attempted breakout, but then they 
got into a different approach as to try to secure their 
release.
    However, in December 1992 there was a break from that. 
There was a bomb at the U.S. military recruiting center in 
which, as we later learned of the details of that bombing, the 
purpose was to gauge the Puerto Rican response to the 
resumption of armed struggle activities of Puerto Rican 
independence. There was an individual who was subsequently 
arrested and convicted for that bombing.
    With respect to the Macheteros, on March 31st, 1998, as you 
heard in the first panel, there was a bombing at an aqueduct 
project facility in Puerto Rico. On June 9, 1998, there was a 
bomb placed at a branch of the Banco Popular bank in Puerto 
Rico. In both instances the Macheteros gave a communique.
    Disturbing, however, there was a second bomb placed on June 
25th, 1998, at another branch of the Banco Popular bank. In 
that instance, a police officer responded to a suspicious 
device. What he found appeared to be a flashlight on the 
windowsill. He picked it up and as he picked it up it 
detonated, resulting in his death.
    The Macheteros issued a communique which resulted in a 
statement that they were not responsible for this particular 
bombing. I would suspect, however, given the significance of 
two branches of the same bank and the similarities in the 
device, we are now convinced that that was, in fact, a 
Macheteros terrorist act that they tried to distance themselves 
from simply because of the fact that a Puerto Rican police 
officer again was killed.
    Earlier you were told about a more recent threat, and that 
comes from Ojeda Rios who on September 13th, 1999, issued a 
communique that was released in the San Juan newspapers again 
indicating that the Macheteros would not remain with their arms 
crossed should the Navy resume activity on the Island of 
Vieques. He also gives an implied threat to the FBI. We take 
this very seriously because, again, we were the target of a 
rocket attack. Also, the last time we attempted to arrest Ojeda 
Rios there was a shootout, and today there is an FBI agent who 
is blind in one eye as a result of that shootout.
    I go back to my definition of terrorism. I would submit to 
you that the FALN, the Macheteros, the people who were arrested 
and convicted that we have discussed today have used force and 
violence, they have worked against the citizens and destroyed 
property in the United States, and they have done this for 
their own political cause.
    Mr. Chairman, these are terrorists. These are criminals.
    Thank you.
    Mr. Burton. First of all, I want to thank you, Director 
Freeh, and the FBI for being so thorough in your testimony 
today. I am sure that there has been some pressure brought to 
bear, and you need not comment on this, about your testimony, 
but I just want you to know personally as chairman of this 
committee I really appreciate your thoroughness.
    Let me start off by asking you, you had a written statement 
that you anticipated sending to us, and it was not sent to us 
yesterday. Can you tell us why that was not sent to us?
    Mr. Gallagher. Mr. Chairman, I had a statement that was 
prepared for testimony before another committee approximately a 
week and a half ago. I attempted to cover several different 
areas with respect to this issue, one of which addressed the 
FBI role and
response to the clemency process. We sent that statement over 
to the Department of Justice. A determination was made that 
that portion of the statement was covered by executive 
privilege. At first it was held back because it was being 
resolved, and then we were eventually told that it was covered 
by executive privilege.
    So what I have done today is I have, in essence, given you 
the balance of the statement through a written series of notes 
that I have that I knew covered the rest and remainder of the 
statement.
    Mr. Burton. Part of your statement they deemed under the 
executive privilege and the rest could have been sent to us?
    Mr. Gallagher. I was not involved in that decision process. 
I would have to defer.
    Mr. Burton. Usually when that kind of a situation comes up 
about something that is grand jury material they just redact it 
and give us what they can. But more recently we have had 
difficulty with the Justice Department in getting virtually 
anything.
    Let me ask you a direct question. Do you think these guys 
ought to be out on the street?
    Mr. Gallagher. Do I think they ought to be out on the 
street? I think these are criminals and that they are 
terrorists and they represent a threat to the United States.
    Mr. Burton. Well, I think that about covers it.
    Mr. Jennings, why was the FBI prevented from sending this 
written statement to us and why didn't the Justice Department, 
if part of it was deemed under the veil of executive privilege, 
why didn't they just redact that?
    Mr. Jennings. My understanding is that last week we were 
awaiting some direction from the White House as to whether the 
President was going to assert privilege, and therefore we held 
that testimony back from Mr. Gallagher, because of the fact 
that we were still working with the White House as to what the 
President was going to do.
    Mr. Burton. After having heard the President's decision, 
you did not send any kind of a redacted copy of this document 
to us. Why was that?
    Mr. Jennings. Quite frankly, sir, I don't know. And what I 
can do is I will go back and make sure that you get what you 
need through Mr. Wilson.
    Mr. Burton. Things that fall under the privilege of the 
President, the executive privilege, we understand that that 
should be redacted. But I hope that I do not get a page or two 
or three pages that is nothing but black lines, which sometimes 
happens. If we do not receive that in an expeditious fashion, 
we will be forced to send another subpoena over there to the 
Attorney General asking her for that, because I want to see 
that document even though part of it will be redacted.
    Mr. Jennings. Absolutely.
    Mr. Burton. I understand from my counsel we sent a letter 
over to the Attorney General last night asking her if she had 
reviewed that and we have not had a response; is that correct? 
Are you familiar with that?
    Mr. Jennings. Yes, I did see the letter that you sent last 
evening this morning when I came in this morning.
    Mr. Burton. Why didn't we get some kind of response on 
that?
    Mr. Jennings. Honestly, sir, I think that with everything 
that we were doing to try to prepare for this hearing and so 
forth, I think that we did not get you an answer this morning.
    Mr. Burton. I would think when something is of this import 
that they would have been moving more quickly.
    [Note.--With regard to the discussion about the FBI's 
written hearing testimony, the prepared statement of Assistant 
Director Neil Gallagher was supplied to the Committee on 
September 23, 1999 with redactions of text covered by the 
President's assertion of executive privilege.]
    Mr. Burton. Mr. Cooksey, during your testimony you 
indicated that you do tape the phone calls of people in prison 
and they are aware of that. How long do you keep those tapes?
    Mr. Cooksey. Chairman Burton, I would rather not give that 
information. We keep it for a lengthy period of time, but we 
don't keep them forever. If I tell you how long----
    Mr. Burton. I understand.
    Mr. Cooksey [continuing]. Then the inmates will know.
    Mr. Burton. I understand. That is a good reason not to 
divulge that.
    How long would it take for to you go through the tapes of 
these 16 individuals back as far as you can to give us 
transcripts or copies of those tapes so that we could review 
them for the American people? Because if these people were 
advocating terrorism or terrorist activities, as one of them 
evidently was when he was planning his escape, then the 
American people have a right to know, and I think the Justice 
Department and the FBI need to know that so that they can take 
precautions to make sure that these people are under 
surveillance. How long would it take to get that?
    Mr. Cooksey. We are complying with that subpoena right now, 
and it takes a different time at different institutions. We 
have a new telephone system that is computerized where we can 
pull off digital tapes, and it is fairly easy in those 
institutions. In some other institutions where we have an old 
system and you have these huge reel-to-reel tapes, you have to 
do searches on them, and it takes quite a bit longer on those.
    It's my understanding that we have completed the 
institutions with the new system, but we're still working on a 
couple of our penitentiaries that still do not have the new 
system.
    Mr. Burton. Would it be possible for you to in part comply 
with our subpoena? In other words, if you already have some of 
those, produce them, rather than waiting for all of it.
    Mr. Cooksey. We'll send you what we have.
    Mr. Burton. Could you give us also, along with that, some 
kind of an idea how long you think it will take for the rest?
    Mr. Cooksey. Yes.
    Mr. Burton. I do appreciate your cooperation as well.
    Let me just ask you a little bit about Oscar Lopez, because 
I think this is something that will illuminate for the American 
people a little bit about the attitude of these people. Oscar 
Lopez was one of those who was offered clemency, and he 
evidently refused. One of the documents we subpoenaed from the 
Justice Department shows that Mr. Lopez, while he was in 
prison, gave approval to murder somebody. This was after he was 
convicted of terrorist activities and while he was engaged in a 
conspiracy to break out of Leavenworth penitentiary. If he had 
not been stopped, obviously lives would have been lost. Where 
is Mr. Lopez today?
    Mr. Cooksey. Mr. Lopez is at the U.S. Penitentiary, Terre 
Haute, IN.
    Mr. Burton. In Indiana?
    Mr. Cooksey. Yes.
    Mr. Burton. The records we subpoenaed showed Mr. Lopez got 
into trouble twice while at the Marion penitentiary. Marion is 
the prison that replaced Alcatraz. He was in trouble once for 
having a lock pick--I presume that is to try to pick a lock so 
he can get out--and another time for having a sharpened 
instrument. Were you aware of those violations?
    Mr. Cooksey. Yes, sir. And in 1990, he was--he received two 
incident reports. I don't have for a lock pick. It was a hand-
cut key. It was a homemade, hand-cut key so he could get out of 
his handcuffs. He was apprehended with two of those, and he had 
a sharpened weapon in his windowsill.
    Mr. Burton. For the past 2 weeks I have heard the White 
House talk about how those offered clemency were nonviolent 
offenders. But Mr. Lopez was one of the main FALN leaders, and 
the FALN planted, we estimated, 130 bombs that killed or maimed 
well over 100 people.
    His probation officer wrote:

    His level of remorse, rehabilitation and positive regard 
for this court's process is minimal, if non-existent. He 
demonstrates a sustained, consistent commitment to the use of 
violence and weapons. He will use any means to gain freedom for 
the purpose of undermining the principles of the U.S. 
Government. He has already determined that human life is 
expendable for this purpose.

    Now, did the Pardon Attorney have that information?
    Mr. Cooksey. We provided presentence reports to the Pardon 
Attorney. We provided a progress report and judgment 
commitment. The Pardon Attorney also has access to automated 
inmate information.
    Mr. Burton. So he would have had this?
    Mr. Cooksey. He would have had this information. I assume 
he would have had this information.
    Mr. Burton. Did the Pardon Attorney ever ask if this 
information was no longer valid, to your knowledge?
    Mr. Cooksey. I don't know that. The Pardon Attorney 
generally, when he wants additional information, he goes 
directly to the warden of the institution.
    Mr. Burton. This man does not sound like he is nonviolent. 
His original sentence for terrorist activities was for 55 
years. He got another 15 years for the attempt to escape from 
Leavenworth. He planned to escape by helicopter. Guards would 
be held off with gunfire, and helicopters at a nearby military 
base would be disabled by explosives.
    The list of weapons he planned to use in the escape attempt 
included fragmentation grenades, smoke grenades, phosphorous 
grenades, 8 M-16 rifles, 2 silencers, 50 pounds of plastic C-4 
explosives, 8 bulletproof vests, 10 plastic caps to use with 
the plastic explosives and 100 30-shot clips to use with 
automatic weapons. The fragmentation grenades were to be used 
on the tower where the guards were to kill them.
    Were Mr. Lopez' escape plans nonviolent, in your opinion?
    Mr. Cooksey. No, sir, they were not.
    Mr. Burton. You have been a warden at Marion. That was the 
Federal prison that replaced Alcatraz. And that is where Mr. 
Lopez was incarcerated. That would make him one of the most 
dangerous inmates in the entire Federal system, would it not?
    Mr. Cooksey. He had maximum custody. We moved him to Marion 
immediately following the escape attempt from Leavenworth.
    Mr. Burton. You considered him to be one of the most 
dangerous inmates that you had.
    Mr. Cooksey. Yes.
    Mr. Burton. Was he ever in the prison in Florence, CO?
    Mr. Cooksey. Yes, sir. We built a new administrative 
maximum security facility that opened at the latter part of 
1994, early in 1995, and when it opened, we transferred a lot 
of prisoners from Marion to the administrative maximum, and 
Oscar Lopez was one of those prisoners.
    Mr. Burton. To me, Oscar Lopez does not sound like a 
nonviolent individual; and I can't understand why the President 
and his spokesman, Mr. Lockhart, and the National Security 
Advisor, Sandy Berger, would try to convince the American 
people that Lopez is a nonviolent offender. So I would like to 
ask all of you this. Was Lopez considered nonviolent when he 
was incarcerated?
    Mr. Cooksey. Through our classification system he was 
considered a maximum custody inmate. You usually become maximum 
custody when they either have an extreme propensity for 
violence or escape.
    Mr. Burton. After his escape attempt, was he considered 
nonviolent?
    Mr. Cooksey. No, sir.
    Mr. Burton. Is he considered nonviolent today?
    Mr. Cooksey. I would have to say no.
    Mr. Burton. And yet the President offered him clemency. Do 
any of you know where President Clinton, Mr. Lockhart, or any 
of the other spokesmen for the President got the idea that Mr. 
Lopez was nonviolent? Do you have any idea where he got that 
idea?
    Mr. Cooksey. I don't.
    Mr. Burton. I would like to read a statement by Lopez made 
in a television interview after he plotted the escape from 
Leavenworth.

    [o]ur struggle is a just struggle, and because it's a just 
struggle we have the right to wage it by any means necessary, 
including armed struggle. We can anticipate more violence. 
People are not going to sit idle and wait for the oppression to 
continue. As long as the conditions do not improve, yes, there 
is that outlet for violence.

    This statement was provided last week by the Justice 
Department, so it shows that at least someone over there knew 
that maybe he had not completely renounced violence. In fact, 
after his conspiracy to escape was thwarted, the government's 
recommendation said that, by his own admission, Oscar Lopez is 
the head of a group whose purpose is to kill and destroy, 
notwithstanding his attempt to portray his heinous acts as 
freedom fighting. His own statements reveal his violent goals 
and means. So I want to ask all of you, I want to get a sense 
of what changed. Did your agencies ever tell the President that 
Mr. Lopez was not a violent offender?
    Mr. Gallagher. The FBI has not made such a statement.
    Mr. Cooksey. We've never made such a statement.
    Mr. Jennings. Speaking for the Department, it's not to my 
knowledge we ever made that statement.
    Mr. Burton. Let me read another passage from the Justice 
Department recommendation:

    As a central figure in this conspiracy, Lopez promised to 
pursue his armed struggle against the United States and to 
train in revolutionary tactics once free. To that end, he 
taught Richard Cobb clandestine techniques on how to make 
firing circuits for explosives. Lopez breathed life into the 
escape plan by virtue of his support group in Chicago. It was 
Lopez who offered to obtain false identification, weapons and 
explosives. It was Lopez who sent Jamie Delgado to Dallas to 
negotiate the purchase of weapons and explosives. It was Lopez, 
moreover, who gave his approval for Cobb's return visit to 
Leavenworth and for the murder of Michael Neece. Even behind 
bars of a Federal penitentiary, Oscar Lopez continued to lead 
his Chicago supporters in violent plans.

    Now let us stop for a second. He said it was OK to murder 
someone. How could the White House stand behind their claim 
that this was a nonviolent individual?
    Mr. Cooksey, were Lopez' escape plans taken seriously?
    Mr. Cooksey. Yes, sir, they were.
    Mr. Burton. Is he still considered an escape risk, do any 
of you know?
    Mr. Cooksey. I wouldn't say he's an escape risk today. He's 
free on the street, but we did have him in the penitentiary up 
until his release--excuse me, I'm sorry. He's still in the 
penitentiary. I mistakenly--mistook him for one of the folks 
that was----
    Mr. Burton. He is still in prison. If he had a chance to 
escape today or tried to escape, do you think he would do it?
    Mr. Cooksey. We have him in a high security penitentiary.
    Mr. Burton. So you think he might?
    Mr. Cooksey. Yes, sir.
    Mr. Burton. Is this a nonviolent person worthy of clemency? 
Someone who is in Leavenworth penitentiary for terrorist 
activities, someone who is plotting a violent breakout from 
Leavenworth and someone who specifically approves murder, does 
he sound like to you the kind of guy that ought to be on the 
street, any of you? Does his failure to renounce violence raise 
any concerns to any of you?
    Does the President's, Mr. Cooksey, offer to free Lopez send 
a negative message to the Bureau of Prisons' employees whose 
mission it is to keep people safely and securely incarcerated?
    You don't have to answer that if you don't want to.
    Mr. Cooksey. Thank you.
    Mr. Burton. Let me just say this. I think these statements 
I just read prove beyond a reasonable doubt that this man and I 
believe his colleagues are a threat to society and to the 
freedoms we hold dear in this country, and yet the President of 
the United States offered this man clemency. If he just said I 
am sorry and I renounce violence, the guy would not do it. But 
the fact is, how many people who are incarcerated today for 
heinous crimes would love to get out just by saying to the 
President, hey, I am sorry?
    Charles Manson, I do not know what he'd say. What if he 
said, I am sorry, please let me out. Is that a reason to let 
these vermin back on the streets? These people who bombed 
buildings, who maim children, who kill police officers, who 
maim them and ruin their families, their lives forever? I think 
this whole decision by the administration was very, very wrong, 
especially in the case of offering this individual clemency.
    Let me ask one more question here about Juan Segarra-
Palmer. It has been said, I think in the President's letter 
today, I think he specifically mentioned this fellow, that he 
along with the others were not involved in any heinous acts. He 
was involved in planning. But the Federal district judge found 
that Sagarra-Palmer had organized and taken part in the attack 
at Sabana Seca on a U.S. Navy bus taking sailors to a radar 
station on December 3, 1979, in which two sailors were murdered 
and nine were wounded. This is the U.S. v. Menendez-Carrion 
case, 820 F.2d 56, in the Second Circuit Court in 1987.
    Other documents said, ``your offensive behavior is rated as 
category 8 severity because it involved the death of at least 
one individual as a result of action initiated by gangs of 
which you were a member. And while murder may not have been the 
intended crime, it was caused by the actions of your group.''
    That was a statement by the U.S. Parole Commission report.
    Segarra-Palmer also took part in an attack at Muniz--and I 
think Mr. Gallagher mentioned this--Muniz air base in Puerto 
Rico. During that attack, nine A-7 aircraft were destroyed. 
This was not mentioned. It cost the taxpayers $40 million by 
destroying those planes.
    Does this sound like a fellow that ought to be out on the 
street to any of you?
    Well, silence. It is not consent, I guess, in this case.
    Do you think he should be out on the street? Do you think 
any of these guys should be out on the street?
    Mr. Gallagher.
    Mr. Gallagher. Mr. Chairman, when the FBI learned of the 
release of these terrorists, we were concerned with two 
aspects. First of all, from a practical sense, our concern was 
that their release would present either a psychological or 
operational benefit or enhancement to these two terrorist 
organizations.
    Mr. Burton. Let me interrupt you there. Explain to me how a 
psychological benefit would be achieved by them being released.
    Mr. Gallagher. We've had a terrorist organization that 
started its existence in the early 1970's. After a period of 
rather heinous terrorist activities for nearly a decade, they 
are located, apprehended, prosecuted, and convicted. They 
received sentences by a Federal district court.
    The fact that the Macheteros and the FALN continue as 
terrorist organizations and now have some of their comrades 
free back in their midst can give a boost to either of the two 
terrorist organizations. As I stated, September 13, Ojeda Rios 
issues a communique putting in yet another challenge to the 
United States. He also drew recognition of the fact that these 
FALN subjects had been, in fact, released. So the concern is 
that it will give a moral boost to those that would consider 
using violence in furtherance of a political or social cause.
    Mr. Burton. Do any of the rest of you have any comment 
about this?
    Mr. Horn, do you have any questions? Let me yield----
    Mr. Waxman. Mr. Chairman, may I inquire----
    Mr. Burton. We are going on the 30-minute----
    Mr. Waxman. That wasn't the agreement as I understood it 
that we had. I didn't want to interrupt you. I thought we were 
going to have a 30-minute wrap-up by the staff. But you want to 
proceed with 30 minutes on your side before we ask any 
questions?
    Mr. Burton. If you would rather, I can go ahead and yield 
to you now.
    Mr. Waxman. Maybe you can tell me how much time you have on 
your side.
    Mr. Burton. How much time do we have on the clock on our 
side?
    Mr. Horn. I'd like about 7 minutes.
    Mr. Burton. We have 7 minutes to go?
    Mr. Horn. I'd like 7 minutes.
    Mr. Waxman. Mr. Chairman, if I may----
    Mr. Burton. One second.
    Mr. Waxman. Mr. Chairman, I want to work out an 
accommodation. Go ahead and take your half-hour. That wasn't 
our understanding of the procedure for today. We will have that 
as the ending for this panel, because we're not going to agree 
to a half-hour more with the staffs on each side.
    Mr. Burton. Then I will yield some time to our staff during 
this period.
    Do you have any comments right now, Mr. Horn?
    Mr. Horn. Thank you, Mr. Chairman. Let me ask a couple of 
basic questions.
    When was the first time, Mr. Gallagher, that the FBI knew 
there was consideration for freeing the Puerto Rican 
independence group? When did the FBI have an inquiry made 
either by Justice, the White House, Mr. Ruff, assistants to the 
President, whatever?
    Mr. Gallagher. Mr. Horn, unfortunately, I have been 
instructed by the Department of Justice that that--my response 
to that question would get into the area of executive 
privilege, and I'm unable to answer.
    Mr. Horn. What's the basis for the executive privilege? Do 
you know a date when someone--what are they afraid of?
    Mr. Gallagher. Let me try to answer it. If I get kicked 
under the table, I know I've gone too far.
    Over a period of several years, the FBI has on occasion 
received an inquiry from the Department of Justice or learned 
of consideration being given to clemency. When asked, we have 
provided to the Department of Justice our opinion. When we've 
heard of it and we have not had a request we at times have 
provided to the Department of Justice or offered to provide 
them our opinion on this issue. So there have been several 
occasions over the past few years that we've--that we either 
have been solicited for opinion or we, without any 
solicitation, made our opinion known.
    Mr. Horn. Well, when the solicitation came in this year, 
let's say, starting in January, when was the first time the FBI 
thought there was some movement somewhere related to the Puerto 
Rican independence people being let out one way or the other?
    Mr. Gallagher. We were initially contacted by the 
Department of Justice--I assume I can provide that date----
    Mr. Horn. Just a date.
    Mr. Gallagher [continuing]. At the staff level. And we 
provided our opinion on June 28 of this year. Again, that was 
at staff level, with no executive dialog with respect to it.
    Mr. Horn. Just raising the question.
    Mr. Gallagher. Just raising the question which had been 
raised in prior years.
    Mr. Horn. So we hadn't had much activity in the previous 
year?
    Mr. Gallagher. No, sir.
    Mr. Horn. In other words, these different letters, Bishop 
Tutu and so forth, did anybody say, well, gee, he wants us to 
free them? Did that ever tickle anything?
    Mr. Gallagher. The FBI was not provided any documentation 
as to the rationale of the White House, nor would we expect 
that we would. We were simply informed that this was a matter 
under consideration. And usually it was the Criminal Division 
at the Department of Justice would solicit our input; or, 
again, if we heard that--either rumors or if there was any 
publicity given to the possibility of this, we would contact 
the Department of Justice and offer to express our opinion.
    Mr. Horn. How about the Bureau of Prisons, Mr. Cooksey? 
When did you first get notice within the system from either the 
White House, the President's assistants, Mr. Ruff, whatever or 
somebody over in Justice? What date would you give?
    Mr. Cooksey. I believe that in 1993 we sent progress 
reports and presentence reports to the Pardon Attorney. There 
had been recently--you would hear something that maybe it was 
being considered, nothing official. It was just a couple of 
months ago when we received information of the possibility of a 
pardon.
    Mr. Horn. Is the couple of months June 28, 1999, that the 
FBI----
    Mr. Cooksey. No, I think it was more recent than that.
    Mr. Horn. More recent?
    Mr. Cooksey. Yes.
    Mr. Horn. You used 1993, that the Pardon Attorney was kept 
informed on these Puerto Rican independents?
    Mr. Cooksey. No. In 1993, when the original petition or 
commutation was filed, I believe at that time we provided 
progress reports and presentence reports to the Pardon 
Attorney.
    Mr. Horn. That happened in 1993. Did it happen between 1993 
and 1999?
    Mr. Cooksey. Not to my knowledge.
    Mr. Horn. So a little flourish at the beginning of the 
administration and then not much until recently?
    Mr. Cooksey. Yes.
    Mr. Jennings. If I could just interject on that. There was 
an official recommendation from the Department that was made to 
the White House in 1996.
    Mr. Horn. Was that because of the Presidential election?
    Mr. Jennings. I would not have any knowledge of that.
    Mr. Horn. What date was on that?
    Mr. Jennings. I do not have the date in front of me.
    Mr. Horn. Is that executive privilege, a date?
    Mr. Jennings. Not to my knowledge.
    Mr. Horn. There's several ways of getting out of the 
Federal Bureau of Prisons' system. One is to drop dead or be 
killed. No. 2, you finish your sentence. No. 3, you could get a 
furlough in some ways on good permit if you're in a light 
sentence, but I doubt these people. And then you've got a 
pardon, and you've got a clemency, and you've got parole from 
the adult parole.
    Now, how close is pardon and clemency? Do you consider it 
over there the same thing or does--I'm trying to get at what 
flows up to the President. If he asks the question, I want to 
pardon this person versus I want to grant clemency versus the 
board of--I've forgotten the name of it now. It was almost 
wiped out after the Sentencing Commission, but I think it's 
still around.
    Mr. Jennings. Parole Commission.
    Mr. Horn. There is a Parole Commission. They do have 
political appointees from different administrations, including 
this one, I would think.
    So tell me about the paper that will be generated by the 
FBI, the Bureau of Prisons, in terms of getting a parole, 
getting clemency, getting a pardon. What's the difference? Just 
tell me what you would go through over in Justice, what you 
would ask for from the FBI.
    Do you get a psychological screening? Do you get a behavior 
report of how they were in prison? What are the things that you 
would do if it was the President issuing a pardon or he would 
never see a parole, would he, unless he knew the person?
    Mr. Jennings. Sir, I am not an expert on the pardon 
process, but I can comment as to the difference between 
clemency and pardons and commutations if you'd like.
    Mr. Horn. Fine. Let's hear it.
    Mr. Jennings. Clemency is an umbrella term that refers to 
pardons. Commutations are remissions of fines. A pardon is an 
act of forgiveness of the offense, usually depending on State 
law. A commutation of sentence simply cuts short the sentence, 
and there is no forgiveness implied. And the remission of fines 
removes the requirement to pay any unpaid portion of the fine. 
It does not give any portion of the fine that has already been 
paid.
    Mr. Horn. How about on clemency? He did three before. What 
was the process for three before this?
    Mr. Jennings. Sir, I'm not knowledgeable.
    Mr. Horn. Can we get it for the record?
    What are the processes you went through on both the pardon 
side, the clemency side, of which he only had three is what 
we're reading, up to the current time when this onslaught comes 
and what else does the Bureau of Prisons and the FBI report to 
them?
    Obviously, what I'm after is what didn't you give the White 
House or Mr. Ruff or the President of the United States before 
that decision was finally made? And how different is it and 
what's your feeling on it? It seems to me that when you get 
into a pardon you're into a major undertaking and people in all 
administrations have been pretty careful. Clemency seems to be 
less careful.
    I just want to have it in the record at this point, Mr. 
Chairman.
    Mr. Burton. They can answer that question. Then we will 
yield to Mr. Waxman.
    Mr. Horn. That's fine.
    Mr. Burton. You may answer the question. Then we will yield 
to Mr. Waxman.
    Mr. Cooksey. I cannot cover the information we provided to 
the Pardon Attorney. To the best of my knowledge, it was the 
pre-sentence reports and the progress reports in 1993. The 
Pardon Attorney does have access to our inmate information 
system which gives him access to information on discipline, 
program participation, these types of things.
    Mr. Horn. In other words, have they been a good boy in 
prison? Is that what it gets down to if you're going to pardon 
somebody?
    Mr. Cooksey. That's the type of information he has access 
to. To my knowledge, that's the only information we provided 
him.
    Mr. Horn. The Pardon Attorney is a civil servant or a 
political appointee?
    Mr. Jennings. It's an SES career position.
    Mr. Horn. That's a civil servant, right?
    Mr. Jennings. Yes.
    Mr. Horn. So he would stay there between administrations.
    Mr. Jennings. Yes.
    Mr. Horn. Is that true in this case?
    Mr. Jennings. Mr. Adams was appointed by the Deputy 
Attorney General during this administration.
    Mr. Horn. Who was that, Mr. Hubble?
    Mr. Jennings. It was Mr. Holder.
    Mr. Horn. Mr. Holder who is still there?
    Mr. Jennings. Yes, sir.
    Mr. Burton. Mr. Waxman.
    Mr. Waxman. First of all, I want to say that I may have 
misinterpreted the comments by Congressman Towns. Mr. Fossella 
and I both understood him to be critical of the restrictions 
being placed on these individuals after their parole, and I 
responded negatively to that idea, but I have been informed 
that Mr. Fossella and I both must have misunderstood because he 
did not criticize the conditions that were placed on those who 
were in fact paroled. For that reason, I do want to make a 
public apology to Mr. Towns.
    Let me start off with some questions of you and your 
individual capacities. Mr. Jennings and maybe others of you 
know the answers. If you do, please respond.
    About these 16 individuals, each of these individuals was 
convicted of several crimes; is that correct, Mr. Jennings?
    Mr. Jennings. Actually, I would defer to the Bureau.
    Mr. Cooksey. That's correct.
    Mr. Waxman. And they received a prison sentence for each of 
these crimes; isn't that correct?
    Mr. Cooksey. I don't have that information. What I have is 
their total term in effect.
    Mr. Waxman. Mr. Gallagher, do you know whether they 
received separate sentences for each of their crimes?
    Mr. Gallagher. I'd have to go back on the record. I know 
the total sentence for each person, and I assume it's a 
combination of cumulative charges.
    Mr. Waxman. My understanding is that the sentences were 
imposed consecutively, meaning that the prisoners were required 
to serve out the sum of all of their prison sentences. Do any 
of you have any knowledge of that?
    Mr. Cooksey. Normally, when a sentence is run consecutive, 
you assert the--and this gets very technical. They're 
aggregated to where you have--like if you have--under the old 
system if you had a 15-year sentence, you were eligible for 
parole. You just get one-third or 5 years. If you got two 15-
year sentences consecutive, for a term of 30 years, you would 
be eligible for parole after 10 years. So that----
    Mr. Waxman. My question is, if you have separate sentences 
for separate crimes and you are told you are going to serve 
them consecutively, that means you add them on.
    Mr. Cooksey. That's correct.
    Mr. Waxman. You may have different rules as to when you can 
apply for parole, but they're run in sequence.
    Mr. Cooksey. One behind the other.
    Mr. Waxman. Now, today convicts are sentenced under the 
Federal Sentencing Guidelines, are they not?
    Mr. Cooksey. That's correct.
    Mr. Waxman. Under those guidelines, how are multiple prison 
sentences treated?
    Mr. Cooksey. I'm not an expert on sentence computation. I 
can get that information for you.
    Mr. Waxman. That would be helpful. We'll hopefully have the 
record open.
    But my understanding is that the guidelines state that 
prison sentences should be served concurrently, meaning that 
all the sentences are served at the same time. So it's fair to 
say that under the current sentencing guidelines, these 16 
individuals would have received shorter prison sentences than 
the ones they actually received. Do you have any information 
about that?
    Mr. Cooksey. I'm not sure.
    Mr. Waxman. If they were serving a number of sentences 
concurrently, would their sentences have been much shorter?
    Mr. Cooksey. The longest sentence would have controlled. If 
they had two 10 years and a 20 year, their total term, in 
effect, would be 20 years.
    Mr. Waxman. I would like to ask you about a case that was 
recently mentioned in the Washington Post. According to the 
Post this past summer, a Puerto Rican nationalist was convicted 
of planting a bomb in a military recruiting center. He was 
sentenced to a little more than 4 years in prison. Are you 
familiar with that case?
    Mr. Cooksey. I'm not.
    Mr. Waxman. Maybe somebody can get this for the record 
because I'd like to know why this individual sentence was so 
short relative to the individuals who'd been granted clemency.
    Now, the President sent to us his letter explaining what he 
did with these individuals. He said he treated each one of 
these individuals separately and looked at their sentences. And 
he, for example, said that, for nine of them, they had been 
convicted of seditious conspiracy and that amounted to 20 
years; armed robbery, firearms offense was another 10 years; 
vehicle charges, 5 years. So for these nine, when they had 
their sentences all added up, they were sentenced to 55 to 90 
years, and these individuals had served 19 years.
    So the President decided that had they been under the 
sentencing guidelines of today and served concurrently, they 
would have been eligible for parole. He commuted for eight of 
them their time to 23 and 26 years, 23 to 26 years rather than 
55 to 90 years.
    But then he said there was this one fellow, Carlos Alberto 
Torres, and he was not going to give him the same treatment as 
he did the others, and he handled that one differently. I'm 
trying to find the reference to it. I think this was the fellow 
who had been indicted by a Federal grand jury in 1977 on 
explosive charges, was identified as a leader of the group and 
had made statements that he was involved in a revolution 
against the United States and that his actions had been 
legitimate. For this man, the President did not go along with 
the same type of clemency as he had done for the others.
    None of you were involved in considerations of these 
individuals as to the amount of time they were serving 
consecutively or concurrently. It sounds like none of the three 
of you even knew whether in fact they were serving consecutive 
or concurrent terms; is that correct?
    Mr. Gallagher. I knew they were serving consecutive terms, 
and I knew the length of terms, but I believe your question 
was, were they charged specifically for certain events and was 
it a cumulative one? And that's the answer I did not have, what 
the specific charge was and time served, sentence for each 
charge.
    Mr. Waxman. The President set forth three other 
petitioners. By the way, his letter says they are all 
petitioners. Someone raised the issue earlier whether they had 
requested anything. Three of them were convicted of seditious 
conspiracy and illegal transportation of stolen vehicles and 
weapons offenses. They had 35 years. They had served 16 years. 
The President commuted the sentence to 26 years. Now, I gather 
if you have a 26-year sentence after serving for 16 years, Mr. 
Cooksey, you can be considered for parole?
    Mr. Cooksey. Under the old guidelines, if you had a 26-year 
sentence, depending on the sentence structure, you could be 
considered after one-third. Under the new guidelines, there is 
no parole.
    Mr. Waxman. One of the petitioners, Oscar Lopez Rivera, was 
charged with the other nine petitioners, but he was not 
arrested until later, in May 1981; and he was convicted of the 
same offenses and received sentences totaling 55 years; and in 
1984 he tried to escape. This was the gentleman Mr. Burton 
asked you extensively about. He tried to escape and, Mr. 
Cooksey, you said you would consider him not someone worth 
taking a risk on. Is that a fair statement of your position?
    Mr. Cooksey. We have him in a penitentiary. That explains 
it all in a nutshell. That's high security.
    Mr. Waxman. Well, the President didn't disagree with you. 
And because he had been sentenced to an additional 15 years for 
trying to break out of prison, the President said he proposed 
commuting his original conviction to 29 years but did not 
commute his sentence for the attempted escape which was 15 
years. So this man was not going to be permitted for parole, 
and he did not agree to the restrictions that would have been 
placed on him, so he still has 29 years to serve, as best I can 
calculate it.
    Then there are four petitioners who are members of the Los 
Macheteros, and they were considered separately.
    Antonio Camacho-Negron was released in 1998, and he was 
later rearrested for parole violation, and the President said I 
refuse to commute his sentence although I did offer to remit 
his outstanding fines. And Juan Enrique Segarra-Palmer had his 
sentence commuted so that he would be eligible for parole after 
serving 19 years in prison.
    Now, when someone's given a commutation or clemency, no one 
is saying they're not criminals. No one can assume they weren't 
criminals. If they were terrorists, this doesn't mean they 
weren't terrorists; is that a fair statement?
    Mr. Gallagher. I think Mr. Jennings has testified to that 
issue.
    Mr. Waxman. A pardon would have been different. A pardon 
might have wiped out their previous crime. The President wasn't 
wiping out their crime. He was being more lenient in giving 
clemency for the sentences that were imposed; is that right, 
Mr. Jennings?
    Mr. Jennings. A pardon is defined as an act of forgiveness 
for the offense.
    Mr. Waxman. Mr. Gallagher, to the best of your knowledge, 
do you know of any instances of which the FBI did not oppose a 
request for clemency?
    Mr. Gallagher. Did not oppose?
    Mr. Waxman. Yes.
    Mr. Gallagher. I can't recall. First of all, many requests 
that we received for clemency, and I can go back and check what 
our position on each one was, but I'm not aware of any that we 
would have--that we supported.
    Mr. Waxman. Earlier today my staff asked the FBI whether 
there had been instances where the FBI actually supported 
clemency, and we were told that we couldn't get a conclusive 
answer today because this would take some time to thoroughly 
research the question. We were told, however, that they could 
not recall any instances in which the FBI supported clemency. 
Would you be willing to look into this question and give us an 
answer?
    Mr. Gallagher. Certainly, sir.
    Mr. Waxman. To your knowledge, you don't recall any 
instances where the FBI ever supported clemency?
    Mr. Gallagher. Again, we--the issue of clemency is not a 
routine issue that we're either constantly or consistently 
asked about, but I will be able to research each time where the 
Department of Justice has asked us for input and provide them.
    Mr. Waxman. Article 2, Section 2 of the Constitution states 
that the President shall have power to grant reprieves and 
pardons for offenses against the United States. In reaching his 
decision, the President can ask for the advice of law 
enforcement officials such as the Justice Department, the FBI, 
and the Bureau of Prisons. He can also listen to the advice of 
others, including former President Carter, Bishop Tutu or his 
counsel. So it seems to me very possible that the President may 
have given due consideration to your recommendations but still 
decided to grant clemency based on the advice of others. Would 
you all agree to that?
    Mr. Gallagher. I can't comment on what, if anything, was 
passed on to the White House----
    Mr. Waxman. That wasn't my question. My question to you is, 
since the President has the prerogative in making this decision 
and he asks for input from all sorts of groups that would have 
appropriate things to say, including the FBI, the Bureau of 
Prisons, the Justice Department and others, once he gets that 
input, if he decided differently, if he decided clemency based 
on others' advice, he has the prerogative to do that, doesn't 
he, whether you agree with him or not?
    Mr. Gallagher. I can't comment on that, sir.
    Mr. Waxman. Why can't you comment on it?
    Mr. Gallagher. You asked me whether or not the President 
has the prerogative to consider. We're assuming that he has 
been provided all the necessary information. I don't know that 
to be a fact. So I can't presume that he, in fact, has the FBI 
information, to what degree he considers----
    Mr. Waxman. Let's presume for the purposes of my question 
he had your input. The FBI said to him, we don't agree with 
clemency. We don't agree with clemency for these individuals. 
We don't think there ought to be clemency. And the President 
had that advice and he had other people saying to him, we think 
that it's unfair for them to serve consecutively all these 
sentences. We wouldn't have that under the official guidelines 
now. He's hearing from others that say that he ought to 
exercise clemency for humanitarian reasons. Whatever arguments 
are being made, when the decision is to be made, it is the 
President's decision. Do you disagree with that?
    Mr. Gallagher. No, sir.
    Mr. Waxman. Do any of you disagree with that?
    Mr. Jennings. No, sir.
    Mr. Cooksey. No, sir.
    Mr. Waxman. The President's decision, not everyone can 
agree with, if he particularly gets conflicting 
recommendations. Isn't that accurate?
    Mr. Gallagher. Yes.
    Mr. Waxman. I do want to point out, just because I have 
time and there should be no misunderstanding of it, the 
President didn't give unconditional clemency to these 
individuals. He attached restrictions.
    They had to report to their probation officers. They 
couldn't violate any laws. They couldn't associate with 
individuals who engaged in criminal activity. They couldn't 
drink alcoholic beverages to excess. They couldn't purchase, 
possess, or use marijuana or other narcotics. They could be 
drug tested at any time. They couldn't associate with persons 
who have a criminal record unless they had permission from the 
probation officer. They could not possess a firearm or other 
dangerous weapon.
    I believe there are restrictions as well on their travel 
regarding getting permission in advance to travel. And there 
are other provisions in there--I don't know if they apply to 
all of them in terms of paying their child support and all of 
that.
    Is this unusual, Mr. Cooksey or Mr. Jennings or Mr. 
Gallagher, to place conditions on some kind of parole?
    Mr. Cooksey. It depends on what type of release it is. If 
an inmate is released on parole, those are pretty much the 
parole guidelines that he has to abide by. If he's completed a 
sentence, what we call mandatory release, but he still has a 
period of supervision to follow, those similar restrictions 
apply.
    Mr. Waxman. If you're released on parole and you violate 
any of the restrictions, any single one of them, what happens?
    Mr. Cooksey. The U.S. probation officer--and again I'm not 
an expert on this. I'm telling you my understanding--the U.S. 
probation officer normally prepares a letter to the U.S. Parole 
Commission requesting that the violator's period in the 
community be revoked and he be brought back to the institution. 
If the Parole Commission agrees, they'll bring him back for a 
parole violator hearing. It's a due process hearing. Then at 
that hearing they determine whether or not his parole should be 
revoked or not and what new term he'll have to serve.
    Mr. Waxman. In this particular case, one of the conditions 
was if the Attorney General of the United States, this one or 
the next one, receives information that there's been a 
violation of any of the conditions, she could have them put 
back into prison automatically. That's unusual, isn't it?
    Mr. Cooksey. That's unusual that the Attorney General can 
place an inmate back into prison.
    Mr. Waxman. It appears from what the President appears to 
be telling us is that he heard what the FBI had to say. He 
heard from people who strongly disagreed with any kind of 
leniency. He heard from people who strongly believe there ought 
to be leniency. He looked at the sentences and thought that 
these sentences were excessive, given the specific crimes for 
which there was a conviction and that the sentences were all 
being added up, being treated consecutively rather than 
concurrently. And he thought he'd take a chance on some of 
these people with these very carefully structured restrictions 
that they would have to agree to in advance and they would have 
to agree to renounce violence and not to associate with their 
fellows from the FALN, not to engage in any kind of criminal 
activity. That appears to be what the President has decided in 
this case.
    I said at the beginning of this hearing I don't know if 
that's a decision I would have made, and I don't know if we'll 
ever know what all the information is that the President had. 
Because if there's ever a case for executive privilege, this is 
about the strongest case there is.
    The President and the administration has sent us boxes of 
information, so we have a lot of information that he had 
available to him. What we don't have is what his lawyers said 
to him, what his staff people might have said to him, the kind 
of communication for which the executive privilege doctrine has 
always applied. And the reason for that--the policy reason for 
that--is that the President should not have to be faced with--
nor should the people who advise him be faced with--their 
advice being given with the idea of how it would look later on. 
He wanted their candid assessment, and that assessment would be 
kept confidential and would be considered privileged under the 
executive privilege doctrine.
    For the life of me, I can't understand why he didn't talk 
with Ms. Berger or Detective Pastorella or the other victims. I 
simply can't understand that. But he didn't.
    And I don't know why the parole board didn't meet with him. 
My understanding is that they should have. But the President 
did have advice from others and reached the conclusion he 
reached. And while it may not have been the conclusion that Mr. 
Burton may have reached or I might have reached or others might 
have reached, it's within his prerogative as the President to 
reach the conclusion he has.
    So I thank you for your testimony today. For those 
instances where we've asked you to give us more information for 
the record, I'd be pleased to see it. I hope the chairman of 
the committee will make it part of the record and will hold the 
record open to receive that information.
    With that, Mr. Chairman, I don't know how much time I have, 
but I'm going to yield it back to you to move on to the next 
panel or conclude with this one.
    Mr. Barr [presiding]. Thank you, Mr. Waxman.
    I yield to the gentleman from California for 5 minutes.
    Mr. Ose. Thank you, Mr. Chairman.
    Mr. Waxman. Point of order. We're under the 5-minute rule? 
OK.
    Mr. Ose. The question I have, Mr. Gallagher, is I've heard 
a lot of references to the Los Macheteros, which the 
interpretation given to me is the machete wielders. Does that 
sound like your bobby socks baseball team kind of thing or is 
that something that kind of piques your interest?
    Mr. Gallagher. Sir, not only by their name but by their--by 
the crimes they committed I think you can clearly associate the 
Los Macheteros with violence and crime.
    Mr. Ose. I just want to make that clear. Because by saying 
Los Macheteros we all say, gee, that sounds kind of neat. But 
the translation is the machete wielders, just for 
clarification.
    I've read the President's executive grant of clemency, and 
the question that I have is that there's nothing in here 
specifying to the degree that my good friend from California 
referenced, the terms and conditions of the clemency, such as 
association, not being able to unduly buy alcoholic beverages 
and the like. Are those applied uniformly by the Parole 
Commissioner? Are they subject to a little bit of waiver now 
and then, depending on the subject?
    Mr. Cooksey. Generally, when an inmate is released on 
parole, they have a uniform set of guidelines, which we've 
talked about here. Now, there can be some special conditions. 
If a releasee has a drug problem, there can be a special 
condition that he seek drug treatment, those type things, but 
they are generally the parole supervision requirements.
    Mr. Ose. Do the parole supervision requirements for these 
individuals preclude their association with each other?
    Mr. Cooksey. On the parole supervision guidelines, you're 
not supposed to associate with someone else that's been 
involved in criminal activity or convicted of criminal 
activity. Occasionally, there's an exception made. The 
probation officer--like if it's a father and son or some 
immediate family, you can make an exception where the parolees 
can live together, communicate, these type things. So there is 
occasionally an exception made.
    Mr. Ose. Largely family based kind of things?
    Mr. Cooksey. I would think so, yes.
    Mr. Ose. Are there any such instances amongst these 16?
    Mr. Cooksey. Not to my knowledge.
    Mr. Ose. Have the probation officers with jurisdiction over 
these 16 cases granted any of them the permission to associate 
with any of the others?
    Mr. Cooksey. I don't have that information. Not to my 
knowledge.
    Mr. Ose. Are there any circumstances under which such a 
request would be granted by a probation officer?
    Mr. Cooksey. I wouldn't have that--I wouldn't have that 
information. That would go directly to the probation service.
    Mr. Ose. You're the Assistant Director for Correctional 
Programs?
    Mr. Cooksey. Yes, in the Bureau of Prisons.
    Mr. Ose. In the Bureau of Prisons.
    Let me ask the question a little differently. As a matter 
of practice, would any of these 16 be given permission by their 
probation officers to consort with the other 15?
    Mr. Cooksey. Again, I wouldn't have that information. The 
U.S. Probation Office is under a different part of the 
government than we are.
    Mr. Ose. Did the Bureau of Prisons make any recommendation 
regarding this subject?
    Mr. Cooksey. No.
    Mr. Ose. None whatsoever?
    Mr. Cooksey. None whatsoever.
    Mr. Ose. Mr. Chairman, I think this would be something we 
could probably inquire about.
    Mr. Burton [presiding]. If the gentleman would yield.
    Were you asked by the administration to make any kind of an 
inquiry or anything like that or recommendation?
    Mr. Cooksey. No, sir. What we do as a standard matter 
release, we notify the U.S. Probation Office that this person 
is coming out. We try to have them approve a plan.
    Now the pardon is more like--they're released on mandatory 
release so they can go to one or two places, either the point 
of conviction or their legal residence. And we try to develop a 
plan in the area and once a probation officer accepts that 
plan, we release them.
    Mr. Burton. You were not asked by the administration for 
any recommendations or advice or anything along those lines?
    Mr. Cooksey. No.
    Mr. Burton. Thank you for yielding.
    Mr. Ose. Always a pleasure, Mr. Chairman. I thank the 
gentleman.
    I want to go back to the executive grant of clemency here, 
and I just read it. There's nothing in here about associating 
with any of the other 15 people being released--no preclusion, 
no exclusion, no restriction. There's nothing written in black 
and white here that would restrict the ability of any of these 
16 to associate with the remainder. I want to be clear about 
that.
    And I don't have anything in my possession today from a 
probation officer having jurisdiction that says anything of 
that nature either, and that is of concern to me.
    Finally, Mr. Chairman, I want to return to the President's 
letter of September 21. I have some confusion here.
    The first page of the President's letter is four 
paragraphs, and it talks about the prisoners. Then in the 
second paragraph of the second page, it starts talking about 
the petitioners. And somehow or another we transmographied 
ourselves from being prisoners to petitioners and yet there's 
nothing in this letter, and we haven't heard any evidence today 
to indicate that any of these 16 people ever petitioned the 
government for clemency.
    I want to be clear and I'm still unclear as to who has 
petitioned the administration for clemency on behalf of these 
people.
    Mr. Burton. I think for the record we could ask the 
agencies involved right now to give us information along those 
lines when they go back, especially the Justice Department.
    Mr. Ose. I see my time has expired.
    I want to go back to this list that was provided earlier by 
my good friend from California, which I appreciate. We have the 
list of the people who support the release, some with 
conditions, some unconditionally, but we still don't have the 
information as to who petitioned, which is a wholly different 
subject. I think we ought to get to the bottom of that.
    Mr. Burton. I think your request of the Justice Department 
for that is a good one, and we will ask them to give us that.
    Mr. Barr.
    Mr. Barr. Thank you, Mr. Chairman.
    Mr. Chairman, if I might inquire of the chairman, it's my 
understanding that the FBI, the Bureau of Prisons and the U.S. 
Attorney's Office that prosecuted these cases all oppose the 
grant of clemency; is that a correct understanding, Mr. 
Chairman?
    Mr. Burton. I think that is correct. I think both the 
Bureau of Prisons and the FBI today pretty much indicated that 
they thought these people should not be on the streets. 
However, the Justice Department I think was not quite that 
forthcoming. I think they were kind of ambivalent; is that 
correct?
    Mr. Jennings. As far as recommendations are concerned for 
these individuals, it is covered by executive privilege as to 
what our recommendation would be.
    Mr. Barr. Mr. Gallagher, the fact----
    Mr. Burton. Excuse me. I will give you some more time.
    Did I not ask you earlier whether or not you thought these 
people should be on the street, Mr. Cooksey?
    Mr. Cooksey. You asked, but then you said you don't have to 
answer this, and I said thank you.
    Mr. Burton. All right.
    Mr. Waxman. Mr. Chairman, if you would permit, maybe Mr. 
Cooksey can tell us for the record, did the Bureau of Prisons 
recommend against any kind of clemency for these individuals?
    Mr. Cooksey. We were not asked for a recommendation.
    Mr. Waxman. We know the FBI is negative.
    Mr. Burton. Mr. Barr. I am sorry.
    Mr. Barr. Had the Bureau of Prisons been asked, would they 
have recommended against a grant of clemency for these 
terrorists?
    Mr. Cooksey. I really can't answer that question. I would 
be one of several people that would make that decision. It 
would be the ultimate decision of our Director.
    Mr. Barr. What would be your recommendation?
    Mr. Cooksey. My personal recommendation?
    Mr. Barr. Yes, sir.
    Mr. Cooksey. I would have to say I'm a law enforcement 
officer at heart, and this would--this would concern me.
    Mr. Barr. Mr. Gallagher, you are also opposed to a grant of 
clemency for those terrorists; is that correct?
    Mr. Gallagher. Correct, sir.
    Mr. Barr. Mr. Jennings, where is the sky going to fall? You 
put forward the proposition that there would be a chilling 
effect on important functions of government if it were to 
become public knowledge--if the public were made aware of 
recommendations to the President on a matter that I would 
presume even you would be at liberty to say does effect the 
public, would you not? The FBI and at least this gentleman from 
the Bureau of Prisons and a number of others have indicated and 
are not afraid to let the public know that, in their view as 
government officials, as law enforcement officials, a grant of 
clemency would not be appropriate.
    Where is the sky going to fall? Is the FBI no longer going 
to carry out law enforcement functions because it is known that 
the FBI opposed this grant of clemency? Is the Bureau of 
Prisons no longer going to be able to maintain the security of 
our prisons simply because we now know some officials oppose 
the Presidential grant of clemency?
    Mr. Jennings. Sir, I am not--certainly not an expert on 
either area and----
    Mr. Barr. Either area being----
    Mr. Jennings. Either one of your questions as far as it 
relates to the Bureau of Prisons or the FBI.
    Mr. Barr. I don't know that that's responsive to anything. 
You have put forward the proposition in both your written and 
your oral testimony that there will be what you have cited as a 
chilling effect on the functions of the executive branch if the 
public--the citizens of this country were to know advice that 
was given to the President for or against the granting of 
clemency. We know that a number of executive agencies, 
departments and officials have opposed and do oppose that. 
Where is the chilling effect? What important function of 
government is now no longer going to be able to be carried out 
now that the public knows that?
    Mr. Jennings. Sir, in my written statement, in my oral 
testimony, I was referring to the recommendations of the White 
House to the President from the Department as to the ultimate 
recommendation for the 16 and, therefore, to not have the 
President's assertion of privilege in this. Those people, by 
virtue of the term ``chilling effect'', would not feel--maybe 
feel as comfortable in the future in giving their candid 
assessment.
    Mr. Barr. Who does the Attorney General work for?
    Mr. Jennings. The President of the United States.
    Mr. Barr. Not the people of this country?
    Mr. Jennings. I think she does work for the people of this 
country.
    Mr. Barr. I sort of think so, too. Because when a U.S. 
Attorney or an Attorney General goes into court, they represent 
the people of this country. They say, ready on behalf of the 
people. Given the fact that the Attorney General worked for the 
people of this country, the citizens of the United States of 
America, what would be the chilling effect on his or her 
capability to carry out the functions of that office on behalf 
of the people if the people of this country know what the 
recommendation of the Attorney General is?
    Mr. Jennings. I think by virtue of having the President 
having the exclusive right in the pardon process in accordance 
with the Constitution, I think having her recommendation in a 
public setting would have--and it's not just her; it's the 
Department--would have a chilling effect on those who have 
worked on it at a much lower level.
    Mr. Barr. I think maybe you could enlighten me. Would then 
the question become--would the Attorney General give different 
advice to the President if the Attorney General knew that the 
public would be aware of her recommendation? Is her 
recommendation based on whether or not the recommendation 
becomes public, or is it based on the facts and the 
circumstances of the case and the law?
    Mr. Jennings. Sir, I honestly could not speak for the 
Attorney General on that issue. I think that she would have to 
answer that question on her own.
    Mr. Barr. I think we would probably both presume that it 
would be based on the law and the facts and the history of 
these matters; wouldn't that be a fair presumption?
    Mr. Jennings. Probably sir, yes.
    Mr. Barr. That being the case, then, and it not being a 
determining factor in the recommendation of the Attorney 
General to the President, whether or not that view becomes 
public, what I ask you again, what is the chilling effect?
    I'm not talking about all of the different conflicting 
advice and all the minutes of the meetings between the Attorney 
General and those under her, or between the President and the 
heads of the FBI and the Attorney General; I'm talking about 
the recommendation itself, which I think is different from all 
of the frank exchange of views that you talk about.
    I'm not----
    Mr. Jennings. You're talking about the ultimate 
recommendation?
    Mr. Barr. I'm talking about the recommendation by the chief 
law enforcement officer from the executive branch to the 
President on a matter of very significant public note, public 
safety and national security.
    Mr. Jennings. As far as that is concerned, I would have to 
say that, you know, it is the President's prerogative to assert 
this privilege, which has covered exactly what you're asking, 
as far as this--you know, the ultimate recommendation that was 
made in 1996. So, therefore, as far as the chilling effect, 
it's essentially--it's not, I think, for me to answer that in 
the sense that it is covered by the President's privilege 
assertion.
    Mr. Barr. It just seems to me it becomes rather circular 
that ``the chilling effect is the chilling effect is the 
chilling effect'' sort of thing.
    Mr. Chairman, I appreciate your efforts in this regard and 
hope that we can get somewhere. Again, I can't speak for you, 
but I think you share my view that we are certainly not 
interested in hampering the legitimate internal deliberations 
of the executive branch, but I do think that your asserting 
them, Mr. Chairman, in subpoenaing these documents and pressing 
the administration on production of these documents a proper 
prerogative, and it is not at all inconsistent with the power 
that the President has under the Constitution to grant clemency 
to also require that the recommendations of a matter clearly 
involving the public in which the public has a clear interest 
in its safety should not be made public.
    So I urge you, Mr. Chairman, to continue to press this 
case. I think it raises a very, very important question.
    Mr. Burton. Thank you, Mr. Barr. And we will be looking 
closely at the transcripts and tapes of the conversations these 
people had from the prisons, which will bear on this whole 
issue.
    Mr. Waxman. Mr. Chairman, I want to be recognized for a 
second to say that there's no executive privilege left if we 
say that any advice the President received from people that 
work for him has to be made public information. If it's--as Mr. 
Barr says, for a public interest, that the public therefore 
ought to know what went on, well, that just is contrary to the 
whole notion of executive privilege.
    The idea of executive privilege, which was asserted many 
times by President Bush and President Reagan and goes all the 
way back to George Washington's day, is the idea that the 
President should be able to get candid advice. And maybe the 
world wouldn't come to an end if we had Attorney General Janet 
Reno's recommendation to the President in this matter, but then 
what about the people who wrote their recommendations to her, 
what about others who want in all honesty to express their 
views and don't want it made public because they're giving 
their candid assessment to their boss, the President of the 
United States?
    It would apply to Members of Congress as well. What right 
would people have to ask our staff what recommendations they 
made to us? We don't have executive privilege, but the doctrine 
is really the same. People won't feel free to give us their 
honest advice.
    If there is anything that the President of the United 
States needs, it's the honest advice of people who work for 
him, their candid assessment. They shouldn't be inhibited from 
giving it to him. And we would also hope that the President 
would reach out and get all the input from people who have 
something relevant to say, but not all of it is treated with 
any kind of confidentiality.
    Mr. Burton. Since we have gone a little out of line here, 
Mr. Barr, do you have a final comment you want to make?
    Mr. Barr. Thank you, Mr. Chairman.
    Mr. Chairman, I think what we're talking about here is 
maybe, perhaps, different ways that each of us runs our staffs. 
When I ask my staff for an opinion, I don't say, give me your 
opinion based on whether or not your opinion will be made 
public. I say, give me your opinion based on the facts and 
circumstances and your best judgment of this issue.
    I would certainly hope that the President of the United 
States gets from Cabinet officials and from people as 
distinguished and important as the head of the FBI and Bureau 
of Prisons would be similarly based.
    Some Members of Congress may look to their staffs for 
entirely different views on entirely different bases. But 
again, Mr. Chairman, what I am urging our work be about is not 
to require that all of the details about every different option 
that is being considered and the reasons for it to be made 
public, but the recommendation on this sort of issue by top 
officials of the government, tasked with responsibility not as 
staff people, but as representatives of the people to carry out 
important executive branch functions such as law enforcement, 
that it is in the public interest and not inconsistent in any 
way, shape or form with Presidential prerogatives that those 
final recommendations be made known to the Congress and to the 
public.
    Mr. Burton. Well, we will try to find some other way to 
skin the cat if we cannot get the President to accept what I 
consider to be his moral responsibility to tell the American 
people why he did this.
    Let me yield real quickly to my counsel then--I yield real 
quickly to Mr. Ose for his last comments.
    Mr. Ose, go ahead.
    Mr. Ose. Is this round a question or a minute? Five, OK.
    First of all, I want to express my appreciation--and I am 
saying this frequently--to my good friend from California and 
the staff on the other side for providing these samples of the 
conditions of release and the petitioner's request. I'm told we 
have one from each of the various criminals who were given 
clemency, and I'll ask the staff on the other side whether they 
have any objection to making it a part of the public record. I 
understand you're going to make all those documents part of the 
public record. With the consent of the ranking member, I would 
like to offer that now.
    Mr. Burton. So ordered.
    Mr. Ose. I want to go back to my fourth question, if I can 
find my notes here, particularly of Mr. Gallagher.
    Mr. Berger was quoted over the weekend, something to the 
effect that the release of these individuals was not something 
that should have been brought to his attention. I'm curious 
from a national security point whether or not people who 
consider themselves political prisoners and who have engaged in 
this kind of behavior or their impending clemency release, 
pardon, excusal--whatever you want to call it--whether or not 
that has consequences worldwide that should be brought to the 
National Security Adviser's attention.
    Mr. Gallagher, you're the Assistant Director for National 
Security at the FBI. I just happen to think that this is the 
kind of thing that should be brought to the attention of the 
National Security Adviser. I'm wondering if you agree.
    Mr. Gallagher. Perhaps if I could answer it this way: Just 
about every day the FBI goes somewhere in the world in pursuit 
of our counterterrorism mission. When we deal with other law 
enforcement agencies or intelligence agencies around the world, 
we are suggesting a very aggressive counterterrorism program 
that doesn't just go for the person who places a bomb; it also 
goes to try to convince them to take on the infrastructure that 
was--that will support a terrorist organization. To the degree 
that this would ever send a message that persons who are not 
the actual placers of a bomb, or the person who pulls a trigger 
on a weapon, are not as serious a threat as those that would 
support the terrorist organization, I would agree that is a 
significant national security issue.
    Mr. Ose. So, let me put this in layman's terms, if I might: 
FBI works for the Department of Justice; they're in charge of a 
program the point of which is to eliminate terrorist acts 
against the United States, whether it be domestically or 
overseas, coming to this country.
    Mr. Gallagher. Or in some instances, as occurred in East 
Africa when U.S. citizens become victims of international 
terrorist acts, anywhere around the world.
    Mr. Ose. Does the National Security Adviser have input into 
that program?
    Mr. Gallagher. The National Security Adviser, when there's 
a significant international terrorism incident, is quite often 
advised of the FBI's efforts to attempt to resolve that 
incident.
    Mr. Ose. So they would kind of be in on the ground floor, 
if you will, of the actions we take to protect our citizenry.
    My question is more directly related to the top floor, if 
you will, or the last floor in such an instance where you 
actually apprehend somebody, you take them through the process; 
in this instance, we've convicted them, held them accountable, 
and now we're releasing them.
    Would the National Security Adviser be interested in that?
    Mr. Gallagher. I heard the same or listened to the same 
interview that you're relating to and heard Mr. Berger's 
explanation that his responsibility is limited to issues--
international issues and not domestic issues. And he appeared 
to indicate that someone else would have a different 
responsibility for the domestic issues in the White House.
    I couldn't comment on what he perceives to be his role or 
lack of role in this instance.
    Mr. Ose. Let me move on to my other question.
    The President's offer of clemency--and, Mr. Chairman, maybe 
we could followup on that, on this particular question--the 
President's offer of clemency is dated August 11th of this 
year. That's what this says right here. The sample petition 
that I have been provided from Alberto Rodriguez, requesting 
clemency and outlining the agreement on terms for any 
commutation, is dated September 7th.
    Perhaps, Mr. Jennings, this is more for you--is this the 
ordinary process, that the executive grant of clemency comes 
before the petition?
    Mr. Jennings. Sir, I wouldn't have any knowledge of that. 
It's not in my area of expertise.
    Mr. Ose. Who would?
    Mr. Gallagher. Not I.
    Mr. Cooksey. I don't have any specific knowledge of how the 
pardon process works.
    Mr. Jennings. I think it would be the pardon attorney at 
the Department of Justice.
    Mr. Ose. Thank you, Mr. Chairman.
    Mr. Burton. A grant of clemency is offered before the 
request is made? I do not understand that.
    I yield my time to Mr. Wilson.
    Mr. Wilson. Mr. Cooksey, a couple of questions to followup 
on something that you said. You mentioned earlier that the 
Bureau of Prisons is currently reviewing tapes of phone calls 
made from Bureau of Prisons facilities; is that correct?
    Mr. Cooksey. That's correct.
    Mr. Wilson. Have you at this point received any indication 
that any of those offered clemency were talking about 
furthering the goals of the FALN organization?
    Mr. Cooksey. We have two tapes of where they had talked 
some time in the past about furthering the goals of the FALN--
or ``the struggle,'' I can't say if it's FALN. I think they 
used the term ``the struggle.''
    Mr. Wilson. Now, was this information provided to the 
Department of Justice or the White House prior to the grant of 
clemency?
    Mr. Cooksey. No, sir, provided afterwards. I think we sent 
it over sometime around September 7th to the Department of 
Justice. We started reading newspaper articles about what was 
being said on our tapes, which was news to us; so we went back 
and started reviewing the tapes.
    Mr. Wilson. Mr. Jennings, would it have been material to 
the Department of Justice's input on the clemency matter if 
inmates in one of the facilities were making statements about 
furthering any of the activities of the FALN organization?
    Mr. Jennings. I certainly think that this would be relevant 
information, yes.
    Mr. Wilson. Would you have provided that to the White House 
if you had been asked?
    Mr. Jennings. I actually have no basis for knowledge of 
that.
    Mr. Wilson. Not to dance around it too much, but if the 
White House had asked the Department of Justice for information 
that was pertinent to the clemency decision, is there any basis 
for the White House to withhold that information--for the 
Department of Justice to withhold that from the White House?
    Mr. Jennings. I don't think so, sir.
    Mr. Wilson. Are you aware of whether there were any 
requests for information that would have been obtained from 
phone calls?
    Mr. Jennings. I am not aware of any of that.
    Mr. Wilson. And just to followup for the record, if you 
could perhaps provide that to the committee for the record 
after the hearing, that would be much appreciated.
    [The information referred to follows:]

    We are unable to respond to your questions about possible 
White House requests to the Department for information relating 
to the clemency review process because those communications are 
also covered by the President's assertion of executive 
privilege.

    Mr. Wilson. Just following up on one matter that was also 
touched upon earlier, there were quotations from a draft letter 
to Chairman Hyde from Director Freeh. They were read into the 
record at the beginning of the hearing.
    Mr. Jennings, do you have any knowledge of whether this 
information was provided to Congress?
    Mr. Jennings. Oh, I have no information to that effect. 
You're talking about Mr. Hyde's letter?
    Mr. Wilson. No, it's apparently a draft letter from 
Director Freeh to Congressman Hyde that was not signed and 
apparently not sent.
    Mr. Jennings. The letter that was referenced earlier, I 
have no knowledge of how that was sent to Congress.
    Mr. Wilson. Did your office ever receive a copy of that 
letter?
    Mr. Jennings. Not to my knowledge.
    Mr. Wilson. Do you know of any other offices at main 
Justice that received a copy of that letter?
    Mr. Jennings. Not to my knowledge.
    Mr. Wilson. Again I'll ask, if you could just followup for 
the record, please, to provide some indication of whether that 
letter was in the possession of anybody at main Justice, I 
would greatly appreciate it.
    [The information referred to follows:]

    The draft letter from FBI Director Freeh to House Judiciary 
Chairman Hyde was in the possession of the Department of 
Justice and it was inadvertantly provided to your Committee on 
September 17, 1999; see Bates numbers 001949-001952.

    [Note.--The documents referred to are retained in committee 
files.]
    Mr. Wilson. One other matter, Mr. Gallagher: Are there any 
ongoing efforts by the FBI to solve crimes attributed to the 
FALN?
    Mr. Gallagher. Certainly Fraunces Tavern remains an open 
investigation. There are other individuals associated with the 
$7.1 million armored car robbery that remain fugitives today, 
the more recent bombings that occurred in Puerto Rico last 
year, all remain investigations that are ongoing criminal 
investigations.
    Mr. Wilson. Do you know of any efforts to obtain 
information from the people who were given the grants of 
clemency prior to their release? And I'm specifically asking 
here whether condition of the release was such that they would 
provide information about some of these unsolved crimes.
    Mr. Gallagher. At the time of their arrest, the FBI 
attempted to interview and solicit cooperation from those who 
were arrested. In fact, one of the FALN subjects eventually did 
cooperate and testified in the trial in Chicago. All of the 
remaining subjects have not cooperated with the FBI and we were 
not asked--again, we were not part of the ultimate decision 
process nor were we aware that that there was an ultimate 
decision process. So we didn't have an opportunity to ask as a 
condition that they cooperate.
    Mr. Wilson. Would you have welcomed an opportunity to ask 
the people given clemency whether they had any information that 
would have been helpful in solving some of the crimes that 
you've not convicted anybody for?
    Mr. Gallagher. Having listened to the victims and the 
families of victims of the first panel, the FBI will remain 
committed for however long it takes to attempt to solve that 
heinous crime in the bombings in New York.
    Mr. Wilson. Now, just going back to the Fraunces Tavern 
bombing, I think earlier in the proceedings a statement from 
Mr. Jiminez was read and he stated on Meet the Press a couple 
of weeks ago, ``I think all precautions were taken, you know, 
to make sure that human life was preserved, and in the end the 
measures were not taken that were necessary, by the people who 
owned these establishments.''
    Now, obviously he's blaming the owners of the restaurant 
for something here. But if you could provide a little bit of 
detail about that particular bombing, where the bomb was placed 
and when the bomb was placed, so that we can determine for 
ourselves whether there should be any blame attached to anybody 
other than the terrorists.
    Mr. Gallagher. With your permission, I'll provide a--to a 
great extent, grand jury information, I'll provide as much 
information as I can for the record.
    Mr. Wilson. OK. But are you aware of where the bombs were 
placed in the restaurant?
    Mr. Gallagher. I would have to go back and check the actual 
report. You take not only the Fraunces Tavern, you take the two 
bombs in Chicago, all of those bombs had electronic timers on 
them. So whatever precautions they take at the time of placing 
the bomb, their precautions are for themselves when they walk 
away and they leave a sufficient amount of time for them to 
escape.
    If someone is walking down the street, or if it's inside a 
department store, a facility, and a night watchman or a 
cleaning person happens to walk into that area, do we put the 
blame on the person who walks into the area innocently?
    In one of the bombs in Chicago, it was in a camera bag. And 
someone saw the camera bag out in front of the bank and picked 
it up, looked inside of it and happened to see that what they 
thought might be a camera turned out to be numerous sticks of 
dynamite and tossed it aside only to have it go off sometime 
later.
    Mr. Waxman. Mr. Chairman.
    Mr. Burton. Mr. Waxman.
    Mr. Waxman. Just for clarification of the record, the 
document that I referred to earlier, which was a draft letter 
from Mr. Freeh to Mr. Hyde, that letter was part of the 
submissions by the Department of Justice to our committee. It 
was submitted to the majority as well as the minority. We 
received it at the very same time as did the majority receive 
it.
    And Mr. Jennings may not be aware of that specific part of 
the boxes that you delivered to the committee, but that's how 
we received it.
    Mr. Jennings. Actually, I was just advised that we did see 
a draft of the FBI letter and we did provide that.
    Mr. Chairman, if I may, I wanted to just respond to Mr. 
Ose's comment earlier about--if it's OK.
    Mr. Burton. Sure.
    Mr. Jennings. The document in question that you had, I was 
advised that we haven't obviously seen it, but the document 
reflects the person accepting the terms of clemency, maybe? Is 
that the September----
    Mr. Ose. Let me read it to you. It says, ``I, Alberto 
Rodriguez, hereby request that the President of the United 
States commute any sentence of imprisonment that I am now 
serving as a result of conviction for one or more offenses in 
the United States District Court for the Northern District of 
Illinois, Chicago.''
    And then it goes on, ``I understand,'' September 7, 1999, 
Alberto Rodriguez. Then there's a notarization also with a 
staff witness, Thomas LeMieux.
    Mr. Jennings. We believe it's the acceptance of the 
conditions, but we will make sure that we get a----
    Mr. Ose. It actually says, ``I hereby request,'' and ``I 
understand if,'' ``I understand that,'' so I don't think it's 
an acceptance, just reading it as a layman. Maybe the attorneys 
have a different perspective.
    Mr. Burton. Assuming it is an acceptance, we would like to 
know if there was a petition filed by any of these individuals 
prior to the offer of clemency. If you could give us that 
information for the record, we would appreciate that.
    [The information referred to follows:]

    The petition for clemency was received by the Office of the 
Pardon Attorney on November 17, 1993, which was before the 
offer of clemency in August 1999. The documents constituting 
the petition were provided to your Committee on September 17, 
1999; see Bates numbers 000259-000421.

    [Note.--The documents referred to are retained in committee 
files.]
    Mr. Burton. And also it is my understanding once again, Mr. 
Cooksey--just make sure I have got this clear that there was no 
request by the President or the administration about 
information that might be on the prison tapes.
    Mr. Cooksey. No, sir.
    Mr. Burton. Thank you. I want to thank you very much for 
your patience. Thank you very much.
    Give the head of the Bureau of Prisons and Mr. Freeh my 
regards. And tell Ms. Reno we said hi, too.
    We will have the next panel come up now. While we are 
waiting on the next panel, let me just have two unanimous 
consent requests.
    I ask unanimous consent to release all documents subpoenaed 
from the White House and Justice Department relating to this 
matter, provided that the documents are reviewed by a majority 
and minority staff and redacted appropriately prior to release.
    Without objection, so ordered.
    I ask unanimous consent to include in the record a letter 
from the Fraternal Order of Police and a resolution of the 
Puerto Rican
House of Representatives and a number of petitions against 
clemency presented by Detectives Senft.
    And without objection, so ordered.
    [Note.--A number of petitions against clemency are retained 
in committee files.]
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T0935.054
    
    [GRAPHIC] [TIFF OMITTED] T0935.055
    
    [GRAPHIC] [TIFF OMITTED] T0935.056
    
    [GRAPHIC] [TIFF OMITTED] T0935.057
    
    [GRAPHIC] [TIFF OMITTED] T0935.058
    
    [GRAPHIC] [TIFF OMITTED] T0935.059
    
    [GRAPHIC] [TIFF OMITTED] T0935.060
    
    Mr. Burton. Would you two gentlemen stand up, please, so we 
can have you sworn.
    [Witnesses sworn.]
    Mr. Burton. Mr. Barnes, would you like to make an opening 
statement first?

   STATEMENTS OF HARRY BARNES, DIRECTOR, CONFLICT RESOLUTION 
 PROGRAM AT THE CARTER CENTER; AND REVEREND DR. THOMAS DIPKO, 
  EXECUTIVE VICE PRESIDENT, UNITED CHURCH BOARD FOR HOMELAND 
              MINISTRIES, UNITED CHURCH OF CHRIST

    Mr. Barnes. Thank you, Mr. Chairman.
    Mr. Burton. I apologize for the length of the hearing, but 
as you can see, we had a lot of ground to cover.
    Mr. Barnes. Learned a lot. Thank you.
    My name is Harry Barnes. For the past 5 years and some, I 
have been responsible for the Carter Center's program in the 
areas of conflict resolution and human rights. Previously I had 
been in the career foreign service. My last three posts abroad 
were as Ambassador to Romania, India and Chile. I have been 
involved in monitoring the case of the 16 Puerto Rican 
nationalists, became involved in late 1996 and have followed it 
ever since.
    In February 1997, President Carter wrote to Attorney 
General Reno, urging that she recommend to President Clinton 
commutation of sentences for this group. President Carter 
pointed out the similarities between these cases and those of 
four Puerto Rican nationalists whose sentences he commuted in 
1979. In both instances, the sentences were much longer than 
those applied for comparable crimes or worse.
    In early 1998, I went to see Deputy Attorney General Eric 
Holder to get a clearer idea of the process involved in 
clemency cases. Then in July of that year, President Carter 
again wrote to the Attorney General. In that letter, he 
mentioned he had read some of the prisoners' recent statements 
and commented that there seemed to be a process of reflection 
going on in their thinking. In addition, he stressed the 
broader context, mainly the fact that 1998 was the 100th 
anniversary of the United States annexation of Puerto Rico. At 
that moment, he was hopeful that the Congress would decide to 
offer Puerto Ricans an opportunity to make their own decisions 
on their future status, but as you know, that has not yet 
happened.
    Last month, when President Clinton was at the Carter Center 
to present the Medal of Freedom to President and Mrs. Carter, 
President Carter used the occasion to mention his long-standing 
interest in the Puerto Rican prisoners issue. President Clinton 
told him that he had already decided to offer conditional 
commutation and the news would appear a few days later.
    From my experience over these last several years in 
following the commutation question, I draw several conclusions: 
one, that those convicted had served much longer prison terms 
than usual for those crimes; two, that they should not be kept 
in prison for crimes for which they had not been charged and 
convicted; three, that the power of commutation thoughtfully 
used is a power for adding mercy which can have a healing 
effect; four, that amid all the diverse views on the wisdom of 
President Clinton's decision to offer commutation to these 
individuals, it is important to remember our fellow citizens 
who are Puerto Ricans and who, as much as any of us, deserve to 
decide for themselves their future status.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Barnes follows:]

    [GRAPHIC] [TIFF OMITTED] T0935.061
    
    [GRAPHIC] [TIFF OMITTED] T0935.062
    
    Mr. Burton. Dr. Dipko.
    Rev. Dipko. Good evening. Thank you, Congressman Burton and 
others, for giving me an opportunity to share with this 
distinguished committee why the General Synod of the United 
Church of Christ supports the President's clemency for Puerto 
Rican men and women imprisoned for their convictions and 
actions for the cause of Puerto Rican independence.
    Our support is neither naive about the suffering caused by 
the FALN, the bombings, nor callous toward those victimized by 
them. The members of the United Church of Christ join me in 
expressing sadness for what these victims have endured, even to 
this moment. We abhor violence and believe that compassion for 
the victims of violence is foundational to the justice system 
of any nation that calls itself a democracy.
    At the same time we live with the wisdom of Jesus, who 
condemned the retaliatory rhetoric of an eye for an eye and a 
tooth for a tooth. The hope of the world for justice and peace 
does not lie in the reactive carnage of vengeance or in 
punitive sentences that place retribution above rehabilitation 
and reconciliation.
    We agree with President Clinton, Amnesty International and 
numerous voices of conscience at home and abroad who note that 
in comparison with the 7 to 20-year sentences generally served 
by people actually convicted of murder in our Nation, the more 
than 1,000 years of incarceration imposed on these men and 
women, averaging over 65 years in prison for each, constitutes 
excessive punishment, disproportionate to the crimes of which 
they were in fact found guilty.
    Contrary to those who contend that guilt by association 
justifies such harsh sentences wherever in the world terrorism 
is invoked, we continue to champion due process and the 
presumption of innocence as twin cornerstones of our American 
legal heritage. We are a church of the dissenting Pilgrims and 
Puritans who came to these shores in search of religious 
liberty. But we are also the church of the Amistad and its 
Mende people, who were lawlessly treated as slaves, when in 
fact they were free men and women from Sierra Leone, West 
Africa. Accused of mutiny and murder, their case pricked the 
consciences of New Englanders unpersuaded by the sophistry of 
the Mende's captors. Our solidarity with them brought their 
case to the Supreme Court of this land, and with John Quincy 
Adams, the former President and member of the House of 
Representatives, acting as our attorney on their behalf, they 
were declared free.
    Our church, whose members founded Harvard, Yale, Dillard, 
Fisk, and many other institutions of higher learning, believes 
the promise of scripture, that the truth will set us free. We 
do our homework well. At our best--and we are not always at our 
best--we do not put a wet finger to the air to determine where 
the winds of public opinion point on the road through moral 
ambiguity to clarity of conscience before God.
    These are some of the reasons why my church has urged this 
controversial clemency since 1991. For me more personally, my 
advocacy began in 1995 when I visited Dylcia Pagan, Lucy 
Rodriguez and Carmen Valentin at the Federal correctional 
institution in Dublin, CA. Whatever reservations I may have had 
about the rightness of a call for their release evaporated at 
that meeting and in subsequent visits that included Alicia 
Rodriguez. I was moved by the honesty of these women about 
their past. Their gentle strength and their desire to resume 
responsible lives in society as persons who publicly committed 
themselves to nonviolence before the offer of clemency in 1997. 
I count my visits with them as one of the most transforming 
experiences of my life.
    It seems to me, by commentary to the side, I am one of the 
few persons in this room who has actually met these persons. We 
implore you and your colleagues not to indulge in the hysteria 
that demonizes Carmen, Alicia, Lucy, Dylcia and their 
colleagues. They have served more than ordinary sentences for 
the crimes involved. Let us affirm their release and address 
the causes that drove them to behaviors which none of us can 
condone and which they themselves have pledged not to repeat.
    Thank you.
    [The prepared statement of Rev. Dipko follows:]

    [GRAPHIC] [TIFF OMITTED] T0935.063
    
    [GRAPHIC] [TIFF OMITTED] T0935.064
    
    Mr. Burton. Dr. Dipko, you took great pains to go to prison 
to talk to these people who were part of this FALN 
organization. Did you by any chance take any time to go talk to 
any of the victims?
    Rev. Dipko. I do not know the victims personally except as 
I have met them here today.
    Mr. Burton. Thank you.
    I yield the balance of my time to Mr. Barr.
    Mr. Barr. Thank you, Mr. Chairman.
    Dr. Dipko, your church I think refers to these people as 
POWs; is that correct?
    Rev. Dipko. We have referred to these persons as prisoners 
of conscience.
    Mr. Barr. Your literature describes them as POWs. What's 
the difference between a POW and a POC?
    Rev. Dipko. There is a significant difference. A prisoner 
of conscience is a prisoner whether a citizen of this land or 
not. But this land is a lawful Nation and its laws must be 
taken seriously. These are persons who are not citizens of this 
land, as you well know, on the basis of our territorial 
agreements with Puerto Rico. It's a strange arrangement indeed.
    Mr. Barr. I think you're wrong on that.
    Rev. Dipko. They are citizens of this land, but they are 
not entitled to the privileges of ordinary citizens.
    Mr. Barr. You're wrong there too. The literature uses the 
term POW.
    Rev. Dipko. What literature are you referring to Mr. Barr?
    Mr. Barr. This is a news brief from the Senate and it says, 
this is an article--``POW Alejandrina Torrez to be honored,'' 
further quote during the Senate, ``POW Alejandrina Torrez will 
receive,'' and then it goes on to describe, ``great accolades 
are bestowing on her, the church.''
    That's where I'm seeing the use of the term ``POW,'' which 
stands for prisoner of war. Are you saying this was an error, 
it shouldn't have said ``POW''?
    Rev. Dipko. I'm saying that ``prisoners of conscience'' is 
the standard language that we have used.
    Mr. Barr. What is a POW?
    Rev. Dipko. A prisoner of war would be a person who is from 
another nation and is in conflict with this Nation, as I would 
understand that term ordinarily, and therefore should be 
treated under certain international conventions.
    Mr. Barr. Which gets me back to my original question, why 
do you all consider these people prisoners of war?
    Rev. Dipko. And I'm saying to you, as I understand our use 
of the term, our standard use for referring to them is 
``prisoners of conscience.''
    Mr. Barr. Whoever wrote this might have been in error.
    Rev. Dipko. It could well have been.
    Mr. Barr. Regardless of whether you describe this, this 
woman as a prisoner of war or prisoner of conscience, she 
apparently was singled out for recognition as an honored 
laywoman; is that correct?
    Rev. Dipko. That's correct.
    Mr. Barr. Was it her bombmaking capabilities that make her 
honored? What was it that makes her honored?
    Rev. Dipko. She was honored because she had convictions 
about the self-determination of the peoples of Puerto Rico.
    Mr. Barr. If, in fact, the activities of her and her 
colleagues have resulted in many more deaths, would they still 
be honored in your eyes?
    Rev. Dipko. No, they would not.
    Mr. Barr. Where is the distinction between killing only a 
certain number of people and killing a sufficient number to no 
longer be considered honored by your church?
    Rev. Dipko. There is a presumption in your question that 
the church would say with you that she was guilty of killing 
even a single person. The church has not assented to that.
    Mr. Barr. Does the church's definition of killing of a 
person extend only to the actual physical act between a 
perpetrator and a person being murdered, in other words 
actually pulling the trigger, stabbing the knife into the flesh 
and taking away a person's life? Is that only in--as far as 
what the church's definition of murder is?
    Rev. Dipko. The church is not a civil or criminal court. We 
are saying back to you, sir, this is not what she was tried for 
or found guilty of. Those charges are well known to you on this 
panel.
    Mr. Barr. But you are, though, at the same time saying that 
the church does draw some lines.
    Rev. Dipko. It certainly does.
    Mr. Barr. Apparently these people did not cross the line 
into being dishonored, they remained on the honored side.
    Rev. Dipko. I'm saying to you as far as this church 
understands it, they were never tried for or found guilty of 
such acts as murder.
    Mr. Barr. Were you here earlier when we showed the tape of 
this honored----
    Rev. Dipko. Yes, I was.
    Mr. Barr. That didn't impress you at all? You still believe 
this is an honored person?
    Rev. Dipko. That tape would have to have a lot more 
unpacking for me to understand where it came from and the 
circumstances under which it were made.
    Mr. Barr. Let's look at it any way.
    [The videotape was played.]
    Mr. Barr. The woman at the bottom is your honoree, 
Alejandrina Torrez. They are manufacturing bombs designed to 
kill, maim, injure and destroy property.
    Rev. Dipko. If that is an accurate record of the happening 
and that is in fact what she was doing, the church would wish 
to, of course, disassociate from it.
    Mr. Barr. In other words, she would no longer be considered 
an honored person?
    Rev. Dipko. I would think so.
    Mr. Barr. Thank you.
    Mr. Burton. Mr. Waxman.
    Mr. Waxman. Thank you, Mr. Chairman.
    Mr. Barnes, as I understand it, former President Carter 
wrote to Attorney General Reno urging her to support clemency 
for these 16 individuals. And I would like to ask you a few 
questions about when President Carter made a decision in 1979 
to pardon four Puerto Rican nationalists. What crimes were the 
pardoned individuals convicted of?
    Mr. Barnes. Several were involved in the attempt to kill 
Members of this House. One, if I recall correctly, attempted to 
assassinate President Truman near the Blair House.
    Mr. Waxman. Would it be fair to say that the individuals 
President Carter pardoned were convicted of more serious crimes 
than those granted clemency by President Clinton?
    Mr. Barnes. Yes.
    Mr. Waxman. And how much prison time did those individuals 
serve that President Carter had----
    Mr. Barnes. If I recall correctly, they served some 25, 26 
years.
    Mr. Waxman. And did President Carter attach any conditions 
to his pardons?
    Mr. Barnes. He did not.
    Mr. Waxman. Did the individuals pardoned by President 
Carter return to violence after their release?
    Mr. Barnes. No.
    Mr. Waxman. It was in 1979, wasn't it?
    Mr. Barnes. That's correct.
    Mr. Waxman. Didn't people know there was an election in the 
next year? They could have perhaps made some hay out of that.
    Mr. Barnes. Perhaps. I don't know.
    Mr. Waxman. Well, that's somewhat of a rhetorical question. 
But let's not kid ourselves, if this were in any way being 
seized by the Republicans for partisan reasons, we wouldn't 
have this issue being brought before four committees of the 
Congress, an unprecedented action of Congress of the United 
States, denouncing the President's decision without getting all 
the information about why he made a decision and without even 
having the constitutional prerogative to make that decision.
    In your opening statement, you said that you had reached 
the conclusion that these individuals had been given 
disproportionately long prison sentences for their crimes. Why 
did you reach that conclusion?
    Mr. Barnes. Because based on the sentencing guideline at 
the time, the standard sentencing for comparable crimes would 
have been less than the time actually served by the time 
President Carter made his decision.
    Mr. Waxman. President Carter also said in his letter to 
Attorney General Reno that, ``A serious process of reflection 
has taken place. If a clear, democratic path to independence 
had existed at the time, it's quite likely that they would not 
have chosen to act as they did.''
    I must say that I'm offended by that statement. It may be 
his view, but whatever reasons these people had, they're not 
good enough in our society to engage in actions that are 
violent, whether they were the perpetrators directly or not, 
but ended up in the loss of human lives. I also was troubled by 
the idea that this would be considered a humanitarian gesture.
    I don't think we have to make gestures of humanitarianism. 
I think what we need in this country is justice. And by 
justice, that means taking into consideration what happened to 
the victims who suffered, but I also think, Dr. Dipko, that 
justice means looking at the offenses for which these people 
have been convicted.
    Rev. Dipko. Exactly.
    Mr. Waxman. I'm troubled when what we hear, or at least 
what I sense, is that people are being condemned for 
association----
    Rev. Dipko. Exactly.
    Mr. Waxman [continuing]. With an organization that has been 
involved in terrorist activities.
    Mr. Barnes. That's President Carter's basic point.
    Mr. Waxman. An individual was associated with the FALN and 
the FALN was responsible for terrorist activities. Unless that 
individual is responsible for it, I don't think that individual 
ought to be given 90 years of prison. But if the individual 
were responsible, then that individual had to be charged and 
convicted.
    The individuals here that President Clinton gave clemency 
to--he didn't pardon them, but gave clemency to--were convicted 
of different specific crimes. Now, maybe they couldn't have 
proven anything more, but we could assume they were bad people. 
But that's not justice in my view. In our civil law it's not 
justice to put people away for life or to execute them for 
lesser offenses than murder. And it seems to me, in any sense 
of morality, it's not justice to throw the book at somebody for 
a crime you think they might have committed or approve of if 
they didn't themselves perpetrate it.
    Is that what you're saying, Mr. Barnes?
    Mr. Barnes. That's right.
    Rev. Dipko. I would like to ask Chairman Burton----
    Mr. Waxman. I don't want you to ask anybody a question. I 
want you to answer mine, because this is my time.
    Do you agree with the point I'm making?
    Rev. Dipko. I do.
    Mr. Waxman. I was very impressed by the statement of the 
victims. I know both of my children have narrowly escaped an 
act of terrorism when they were in Israel. A classmate of my 
son was killed by people who thought their cause was just: 
self-determination for the Palestinian people. Whatever justice 
they might claim for that cause, it would never justify, in my 
view, killing my son or my son's classmate, nor would I want 
somebody to come years from now, later, and say that the man 
that shot at innocent children in Los Angeles or shot Jewish 
individuals and a black man in Chicago, if he had some notions 
of serving the greater cause of the Aryan Nation, should be 
considered a political prisoner because he had a political 
point of view.
    He could feel very deeply about it. It could be ingrained 
in his sense of conscience. But to me, justice would require 
that that individual never be released from jail after he is 
presumably convicted for murder or killing or attempted killing 
of innocent individuals, whatever the actual crime may be.
    Is that the point you're making or do you have any 
difference of opinion? Do you think that the greater cause is 
ever a justification for taking human lives and committing 
crimes?
    Mr. Barnes. Mr. Waxman, are you asking me or asking----
    Mr. Waxman. Either one of you. Because if you do, we have a 
disagreement.
    Maybe I'm not asking either of you. I'm stating my 
position, and my position is, I don't care what the cause was, 
even if they saw a chance at the time they engaged in these 
activities to win their point of view, democratically, they 
didn't have support for it, and they acted in ways that I don't 
think we can ever sanction.
    Thank you, Mr. Chairman.
    Mr. Burton. Mr. Ose.
    Mr. Ose. Thank you, Mr. Chairman.
    Is it Ambassador Barnes; is that correct?
    Mr. Barnes. I was once upon a time an ambassador, and I'm 
not any longer.
    Mr. Ose. All right. Mr. Barnes.
    Puerto Rico, if I understand correctly, has had at least 
one referendum on the issue of independence; is that correct?
    Mr. Barnes. I'm sorry, I didn't understand.
    Mr. Ose. Puerto Rico has had at least one referendum on the 
issue of independence; is that correct.
    Mr. Barnes. My understanding, there have been two, from 
what the Representative said earlier. There was one, I believe, 
most recently in 1998, which was done locally, but not with 
authorization from the Congress.
    Mr. Ose. What were the results of those two referenda?
    Mr. Barnes. Again, as I understand it, essentially fairly 
evenly divided from those who wanted to maintain the present 
situation and those who wanted statehood, and very small 
numbers who wanted independence.
    Mr. Ose. Which side had the majority? Was it the majority 
to stay as is or the majority for proindependence?
    Mr. Barnes. Again, my understanding is, the majority, 
although it's a slim majority, is for statehood.
    Mr. Ose. So there exists--and if I also understand 
correctly, Puerto Rico has a Governor elected from the State--
it has an assembly and a senate where people are elected by the 
citizenry to serve there and try and address the political 
needs of the residents of Puerto Rico.
    Mr. Barnes. The point I was trying to make earlier was that 
people in Puerto Rico have not been given an opportunity yet by 
the Congress to decide what they want for their future status.
    President Carter, for example, in 1978, proposed--and this 
has been followed up by some of his successors--proposed that 
the people of Puerto Rico have an opportunity to choose among 
several alternatives.
    Mr. Ose. What was the vote this last? Logically, would you 
think that the residents of Puerto Rico voted in favor of 
statehood or in favor of continuing territorial status, as 
opposed to voting for independence, would you think they were 
satisfied with the situation?
    Mr. Barnes. No, I wouldn't think that, because this was an 
advisory referendum. It had no status.
    Mr. Burton. Will the gentlemen yield?
    Mr. Ose. Certainly.
    Mr. Burton. There have been two referenda to give Congress 
some guidance. Granted, they were advisory, but the fact of the 
matter is the overwhelming majority, 97\1/2\ percent, either 
wanted commonwealth status, which is remaining the way it is, 
or statehood. Only 2\1/2\ percent wanted independence.
    Those people are American citizens, and they want to stay 
that way one way or the other. As far as the final 
determination, any territorial possession of the United States 
has to go through an act of Congress before there is any change 
in their status. And the same was true of Hawaii and Alaska 
when they became States. So I think--to interrupt the 
gentleman--but the fact is those people do not want 
independence, and this is a splinter group that is doing this.
    Gentlemen.
    Mr. Ose. Mr. Chairman, you have a far greater ability to 
get to the heart of the matter; that's where I was trying to 
get to.
    I don't understand how it is that a referendum, advisory in 
nature, that shows even 70 percent, let alone the 97 percent, 
in favor of staying as it is, or becoming a State or a 
Commonwealth, I don't understand why that doesn't rule the day. 
I don't understand the legitimacy that gets ascribed to them 
when they're so overwhelmingly not supported.
    Mr. Barnes. The point is that the overwhelming majority 
want a chance to make that decision if they can be given an 
opportunity by the Congress, as the chairman was pointing out.
    Mr. Ose. Yet these 16 individuals--granted it was roughly 
20 years ago--are engaging in criminal acts that certainly in 
no sense of the word would be interpreted as being supportive 
or helpful in getting to that. I find two distinguished 
gentlemen here testifying before Congress that this is 
something that merits our attention.
    Mr. Barnes. I'm sorry, Congressman, but I'm not making 
myself clear. I wasn't talking about the legitimacy of the 
actions for which they were charged and condemned; I was 
talking about the importance of the people of Puerto Rico being 
able to do more than advise.
    Mr. Ose. I think this House is on record as supporting 
statehood.
    Mr. Burton. We passed it. It went to the Senate and did not 
get action. But if the Puerto Rican people voted a plebiscite, 
advisory or otherwise, that they want independence, 
commonwealth or statehood, I am sure you would see Congress 
start taking some steps to move in one of those directions. So 
far there has been no conclusive evidence.
    Mr. Ose. I'm relatively new here. I have over the years 
watched distinguished gentlemen like my good friend Mr. Waxman 
and my good friend Mr. Burton deal with these questions. I 
cannot conceive of the circumstances where two gentlemen from 
opposite sides of the aisle can work together toward addressing 
common concerns peacefully within the confines of the existing 
law when we have another group that's outside the confines and 
we have to grant them some sort of special status for whatever 
reason. I don't understand it.
    If two gentlemen such as these can work out their 
differences, I don't understand why anyone would resort to the 
violence that's been perpetrated by these people.
    Rev. Dipko. You do raise a question about why. Earlier 
today, one of your colleagues did refer to his conscience on 
the matter that he could make a strong case from your own bench 
for the independence of Puerto Rico. I am well aware of the 
partnership of the Chair and the minority leader at this table, 
and I agree with you, it's to me encouraging to see it working 
here today.
    But what about the United Nations norms for determining 
plebiscites for the self-determination of peoples? Are we 
really abiding by the codes we ourselves would require of other 
nations with similar claims, when it comes to the manner in 
which we are allowing the people of Puerto Rico to determine 
their own history? I am not sure that we are, Congressman. The 
evidence to me is to the contrary.
    And I'm no stranger to Puerto Rico. Sixty of our parishes 
are there, and a number of our institutions, including 
hospitals and theological seminaries.
    I think we can do better than we're doing. I do agree with 
you that violence is not the way.
    Mr. Ose. I would argue under our system, and I share your 
concern, as so eloquently put by Mr. Waxman also, that violence 
is not the way. We have the House on record supporting allowing 
Puerto Rico to move toward statehood. We need to focus on the 
Senate and then have the referendum. I think we would be far 
better off addressing the concerns of law-abiding citizens in 
Puerto Rico, than spending our time potentially even talking 
about mercy for these 16 individuals.
    That's the essential problem I have as a Congressman today. 
I don't know why we're spending the time of the U.S. Congress 
or why the administration has extended to these 16 individuals 
the status that has been granted to them. I take considerable 
exception to it.
    Mr. Burton. Thank you, Mr. Ose.
    I want to thank you gentlemen for being so patient and 
staying here with us.
    Mr. Barnes, you stated that these FALN members served 
longer sentences than usual for their crimes. What I would like 
for you to do, if you can, is give us some examples of that for 
the record. I am not sure that we know that they served longer 
sentences than usual for their crimes. If you have some 
examples, we would like to have that.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T0935.065
    
    [GRAPHIC] [TIFF OMITTED] T0935.066
    
    Mr. Burton. With that, gentlemen, thank you very much for 
your patience. We stand adjourned.
    [Whereupon, at 6:13 p.m., the committee was adjourned.]


</pre></body></html>
